<html>
<title> - ASSESSMENT OF CHECKPOINT SECURITY: ARE OUR AIRPORTS KEEPING PASSENGERS SAFE?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
ASSESSMENT OF CHECKPOINT SECURITY: ARE OUR AIRPORTS KEEPING PASSENGERS 
                                 SAFE?

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON TRANSPORTATION SECURITY
                     AND INFRASTRUCTURE PROTECTION

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 17, 2010

                               __________

                           Serial No. 111-57

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
56-783                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3b5c4b547b584e484f535e574b1558545615">[email&#160;protected]</a>  


                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Mark E. Souder, Indiana
Eleanor Holmes Norton, District of   Daniel E. Lungren, California
    Columbia                         Mike Rogers, Alabama
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Henry Cuellar, Texas                 Gus M. Bilirakis, Florida
Christopher P. Carney, Pennsylvania  Paul C. Broun, Georgia
Yvette D. Clarke, New York           Candice S. Miller, Michigan
Laura Richardson, California         Pete Olson, Texas
Ann Kirkpatrick, Arizona             Anh ``Joseph'' Cao, Louisiana
Ben Ray Lujan, New Mexico            Steve Austria, Ohio
William L. Owens, New York
Bill Pascrell, Jr., New Jersey
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Dina Titus, Nevada
Vacancy
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director
                                 ------                                

 SUBCOMMITTEE ON TRANSPORTATION SECURITY AND INFRASTRUCTURE PROTECTION

                 Sheila Jackson Lee, Texas, Chairwoman
Peter A. DeFazio, Oregon             Charles W. Dent, Pennsylvania
Eleanor Holmes Norton, District of   Daniel E. Lungren, California
    Columbia                         Pete Olson, Texas
Ann Kirkpatrick, Arizona             Candice S. Miller, Michigan
Ben Ray Lujan, New Mexico            Steve Austria, Ohio
Emanuel Cleaver, Missouri            Peter T. King, New York (Ex 
James A. Himes, Connecticut              Officio)
Dina Titus, Nevada
Vacancy
Bennie G. Thompson, Mississippi (Ex 
    Officio)
                     Michael Beland, Staff Director
                   Natalie Nixon, Deputy Chief Clerk
              Joseph Vealencis, Minority Subcommittee Lead


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Chairwoman, Subcommittee on 
  Transportation Security and Infrastructure Protection..........     1
The Honorable Charles W. Dent, a Representative in Congress From 
  the State of Pennsylvania, and Ranking Member, Subcommittee on 
  Transportation Security and Infrastructure Protection..........    28
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     4

                               Witnesses

Mr. Robin Kane, Assistant Administrator, Security Technology, 
  Transportation Security Administration:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7
Mr. Bradley I. Buswell, Deputy Under Secretary, Science and 
  Technology Directorate, Department of Homeland Security:
  Oral Statement.................................................    11
  Joint Prepared Statement of Mr. Bradley Buswell and Ms. Susan 
    Hallowell....................................................    13
Mr. Stephen Lord, Director, Homeland Security and Justice Team, 
  Government Accountability Office:
  Oral Statement.................................................    17
  Prepared Statement.............................................    19
Mr. Kenneth J. Dunlap, Director of Security, International Air 
  Transport Association:
  Oral Statement.................................................    50
  Prepared Statement.............................................    52
Mr. Charles Barclay, President, American Association of Airport 
  Executives:
  Oral Statement.................................................    56
  Prepared Statement.............................................    57
Col. Eric R. Potts (Ret), Interim Aviation Director, Houston 
  Airport System:
  Oral Statement.................................................    60
  Prepared Statement.............................................    62
Mr. Marc Rotenberg, Executive Director, Electronic Privacy 
  Information Center:
  Oral Statement.................................................    66
  Joint Prepared Statementof Mr. Marc Rotenberg and Ms. Lillie 
    Coney........................................................    67
Mr. Hasbrouck B. Miller, Vice President, Government Affairs, 
  Smiths Detection:
  Oral Statement.................................................    68
  Prepared Statement.............................................    70
Mr. Mitchel J. Laskey, President and CEO, Brijot Imaging Systems, 
  Inc.:
  Oral Statement.................................................    73
  Prepared Statement.............................................    75

                             For the Record

The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Chairwoman, Subcommittee on 
  Transportation Security and Infrastructure Protection:
  Statement of Colleen M. Kelley, National President, National 
    Treasury Employees Union.....................................    31


ASSESSMENT OF CHECKPOINT SECURITY: ARE OUR AIRPORTS KEEPING PASSENGERS 
                                 SAFE?

                              ----------                              


                       Wednesday, March 17, 2010

             U.S. House of Representatives,
                    Committee on Homeland Security,
Subcommittee on Transportation Security and Infrastructure 
                                                Protection,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 311, Cannon House Office Building, Hon. Sheila Jackson Lee 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Jackson Lee, Thompson, Lujan, 
Himes, Titus, Dent, Lungren, and Austria.
    Ms. Jackson Lee [presiding]. The subcommittee will come to 
order. This subcommittee is meeting today to receive testimony 
on checkpoint security. Our witnesses will help us assess how 
effectively we are deploying processes, procedures, and 
technologies to enhance security at airports both at home and 
abroad.
    These meetings that you have consented to participate in 
are so much a part of securing America.
    Let me thank the witnesses ahead of time for their 
commitment to this Nation. When we give testimony and hold 
hearings, many times it is thought that it is perfunctory, that 
information goes into large records, and that actions are not 
generated.
    This is a serious issue both in terms of the incident that 
occurred at Newark Airport that showed an individual going in 
the wrong direction, but creating sufficient havoc to shut down 
the airport, then, of course, a very renowned incident that 
occurred on Christmas day. That, too, is in the eye of not only 
America, but around the world, and those who intend to do us 
harm.
    Your testimony is crucial today, and we appreciate that.
    I am interested in making everyone aware that as we proceed 
through this process, we will be holding a series of hearings 
to constantly be engaged in how we can secure America. I yield 
myself now time to give my opening statement.
    We are here today to discuss how we are increasing the 
security of airport checkpoints in the wake of the Christmas 
day terrorist attack in the skies over Detroit. Given the risks 
to our aviation sector, it is imperative that we take a 
critical look at how DHS is integrating an effective layered 
security approach into our aviation security program.
    Today we will examine DHS processes to acquire and deploy 
effective passenger screening technologies and procedures. This 
includes the testing, evaluation, and approval of machines and 
equipment designed for use at airport security checkpoints. 
Coordination between DHS' Science and Technology Directorate 
and the Transportation Security Administration is essential to 
ensuring that the best technology is deployed in a systematic 
way to address current and emerging threats to the aviation 
system.
    The need for effective coordination was once again made 
plain by the incident on Christmas day. It is clear that our 
adversaries still believe that our aviation sector is the point 
of attack and that they would develop novel approaches to carry 
out their objective. Accordingly, we must stay at least one 
step ahead, and this coordination is an essential prerequisite 
for doing so.
    However, the strength of coordination between TSA and S&T 
has been called into question by the Government Accountability 
Office and developers of innovative technologies. The breach 
cannot exist. It can no longer exist. The hand in glove 
relationship between S&T and TSA and the inventiveness of the 
American people and many others is crucial to securing the 
millions of people that use the modes of transportation which 
we are responsible for securing.
    Not on my watch will we allow the slowness of the process 
or even the potential unworkableness of the process stop the 
ability of this committee to secure America. That is the 
responsibility of the Homeland Security Committee under the 
leadership of Chairman Bennie Thompson.
    We have heard that navigating the DHS labyrinth of testing, 
evaluating, and certifying technology has dissuaded the 
acquisition and production of cutting-edge technology. Earlier 
this year I directed staff to take a close look at the 
relationship between TSA and S&T. This examination raised 
concerns about the cohesion between both components.
    Specifically, there appeared to be an almost incoherent 
process for testing and deploying technologies and security 
protocols. It is just plain slow. Roles and responsibilities 
were not clearly defined, and it was clear from briefings that 
increased oversight of this area is imperative. Components of 
DHS must work in tandem in order to keep the American people 
safe, and that is why I am happy that TSA, S&T, and GAO are 
here today.
    Again, as I begin this hearing, I thank all of you for the 
public service that you render and your commitment to securing 
America. How can we do it better together?
    Last summer the House overwhelmingly supported H.R. 2200, 
an authorization bill for TSA, which included a provision that 
TSA and S&T develop a plan to more effectively deploy processes 
and technologies to improve airport security.
    We have passed that legislation in the House. We are 
waiting patiently for this bill to move so it can be passed in 
the other body and so the President can sign this innovative 
and important legislation. We cannot wait much longer. The 
question is how long will we wait? The answer is not long. This 
provision will ensure that both organizations are operating 
under the same parameters when developing measures to bolster 
checkpoint security.
    It must be noted that the Flight 253 incident also 
highlighted vulnerabilities at foreign airports with direct 
flights to the United States. The security at the last point of 
departure airports is as critical to our aviation security as 
the security of our domestic airports.
    We know that work has been done. We know that there have 
been international visits to assess those ports that many 
Americans are leaving from overseas. There has been work, but 
there needs to be partnership in the work that includes 
technology, inventiveness and, yes, the bottom line of: How do 
we secure America?
    I would like to take this opportunity to congratulate the 
Secretary for her dedication to strengthening our relationship 
with foreign partners. This diplomacy is important to ensuring 
that all airports meet an acceptable standard for checkpoint 
security. TSA has been working with foreign airport operations 
and air carriers in implementing stronger security screening 
protocols, but challenges remain. Today we will hear about 
these international challenges and the ways to best address 
them.
    This hearing will also afford us with an opportunity to 
talk about the much-discussed advance imaging technology or 
whole body imaging machines. Nearly all relevant stakeholders 
are present today, so we will glean several important 
perspectives about the efficacy of the AIT and the deployment 
plan.
    The administration has announced its intent to ultimately 
deploy 1,000 of these machines by the end of fiscal year 2011. 
While I applaud this development, we will look forward to 
fleshing out the particulars that will make this decision an 
even better decision.
    We want to work with the administration. We are partners in 
being able to secure this Nation. For example, the cost of this 
deployment is significant, and it brings with it the need for 
increased TSA personnel and potentially significant costs to 
modify airport terminals and checkpoints. Let me clarify when I 
say increased TSA personnel. Increased, proficiently trained 
personnel is the key to helping us secure America.
    Today we will discuss AIT and how it fits into DHS' plan 
for deploying technology and how to address the operational 
challenges associated with this deployment. We will also learn 
about the Secretary's attempt to have similar technology 
located abroad.
    Today's hearing offers more than just an opportunity to 
discuss the status quo in aviation security. It is an 
opportunity to envision where we want to be. Technologies have 
their limitations, but empowering our TSA workforce with 
adequate training, information, and innovative technologies 
will undoubtedly lead to the next generation of checkpoint 
security.
    I know that this is the first of many examinations of this 
important topic. We need the commitment and resources of 
Government and industry to promote more efficient airport 
security. Accordingly, I was pleased to learn about the recent 
establishment of a blue ribbon panel by the travel industry 
aimed at providing recommendations on how to secure the 
aviation sector in the 21st century.
    Today's hearing affords us with an opportunity to see how 
we can efficiently deploy security technologies and procedures. 
These require the relevant components of the Department to work 
together, and it also requires the Department to work with 
relevant stakeholders, many of which are represented today.
    The Chairwoman now recognizes the Chairman of the full 
committee, the gentleman from Mississippi, who has been a major 
leader on both the fixing of the system, but also the pushing 
of the system to be able to expeditiously and absolutely secure 
America, Mr. Thompson of Mississippi, for his opening 
statement.
    Mr. Thompson. Thank you very much, Madam Chairwoman, and 
let me thank you for holding this important hearing.
    The work we do today will help to inform us of DHS' effort 
to keep the flying public safe and secure. In addition, the 
preparation for such a hearing may also help the relevant 
components of DHS--in today's case, S&T and TSA--to move more 
effectively to cooperate.
    With that said, I would like to thank the witnesses for 
appearing before us today.
    In January the full committee held a hearing that took a 
close look at the events surrounding the attack on December 25. 
The attack on December 25 was a reminder that terrorists 
continue to plot against our aviation system, so we must remain 
vigilant and aggressive. That hearing shed light on the 
counterterrorism efforts and the information-sharing processes 
that must be improved across the Government as we address the 
very real terrorist threat. Likewise, the hearing highlighted 
some of the steps taken by the Department soon after the 
December 25 incident, particularly in the aviation sector.
    The Department has made great efforts to enhance airport 
security in the aftermath of that attack by strengthening 
relationships with international partners and enhancing 
checkpoint security here at home. I look forward to an update 
from the Department on its development in partnering with 
foreign countries and how those efforts will bolster security.
    In addition, we are taking another step today to evaluate 
the processes in the Department that are in place to develop, 
procure, and deploy innovative technologies and procedures at 
our airports. Without robust and clear processes, we will never 
be one step ahead of those wishing to do us harm. GAO has 
called into question whether the process DHS has in place is 
effective, and we will hear more about that from all the 
stakeholders today.
    Obviously, there is no single technology or procedure that 
we can rely on to mitigate all the risks. However, through a 
strategic and transparent framework, we can ensure that our 
checkpoints are able to incorporate a layered security program 
that successfully identifies people wishing to cause us harm. I 
hear a lot about our layered security approach, and I believe 
it has the potential to make us more secure.
    I look forward to hearing from our witnesses and am 
committed to improving our checkpoint security in order to meet 
the changing challenges we face. There is clearly a lot of work 
to do to improve how the Department deploys small technology 
and procedures so I am pleased this hearing will help to begin 
this process. I now yield back.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    I want to acknowledge the presence at the time of the gavel 
of Mr. DeFazio and to acknowledge Members, Mr. Lujan, Mr. 
Himes, and Ms. Titus, for their presence here today as we begin 
this hearing. Thank you so very much.
    Other Members of the subcommittee are reminded that under 
committee rules opening statements may be submitted for the 
record.
    I welcome our first panel of witnesses. Our first witness 
is Mr. Robin Kane, the assistant administrator in the Office of 
Science Technology at TSA. Mr. Kane oversees the development 
and implementation of security technologies across multiple 
modes of transportation.
    Our second witness, Mr. Bradley Buswell, is a deputy under 
secretary at the S&T Directorate at DHS. He is accompanied by 
Dr. Susan Hallowell, who is the director of Transportation 
Security Laboratory, which is a part of S&T. Dr. Hallowell will 
assist with any technical elements of our discussion.
    Our third witness, Stephen Lord, is the director of GAO's 
Homeland Security and Justice Issues Division and is 
responsible for directing numerous GAO engagements on aviation 
and surface transportation issues. We welcome him back.
    Without objection, the witnesses' full statements will be 
inserted in the record. I now ask each witness to summarize his 
statement for 5 minutes, beginning with Mr. Kane.
    I have indicated in my statement, as the Chairman has, we 
do this hearing in the backdrop of what took the attention and 
the breath of the world and the United States of a Christmas 
day bomber on one of our most special and sacred days to 
penetrate, if you will, the sanctity of our security and to 
send signals that we want to correct. We are not beginning 
today, but this is a continuing, to ensure that these kinds of 
incidences are stopped.
    Mr. Kane, we are prepared to hear you at this time for 5 
minutes.

  STATEMENT OF ROBIN KANE, ASSISTANT ADMINISTRATOR, SECURITY 
       TECHNOLOGY, TRANSPORTATION SECURITY ADMINISTRATION

    Mr. Kane. Good afternoon, Chairwoman Jackson Lee, Chairman 
Thompson, distinguished Members of the subcommittee. Thank you 
for the opportunity to appear today to discuss aviation 
security technology at passenger screening checkpoints in the 
United States.
    TSA procures and deploys all of the screening technologies 
for people and their bags in U.S. airports. Approximately 1.8 
million people and their belongings are screened by these 
technologies every day. TSA operates and maintains over 10,000 
pieces of equipment used by our transportation security 
officers to conduct this screening.
    The attempted attack on Northwest Flight 253 on December 25 
was a powerful reminder that terrorists will go to great 
lengths to defeat the security measures that have been put in 
place since September 11, 2001. The Department of Homeland 
Security's review of the Flight 253 incident produced five 
recommendations that Secretary Napolitano presented to the 
President.
    Technology plays a critical role in three of those 
recommendations. We are accelerating the deployment of advanced 
imaging technology in U.S. airports and seeing an international 
move in the same direction. We have built on our partnership 
with the Department of Energy to establish a new initiative to 
engage the National laboratories in developing emerging 
aviation security technologies. And we are working with our 
international partners to strengthen international security 
measures, particularly technology requirements.
    Advanced imaging technology, or body scanners, as they have 
become more commonly described, is the most promising current 
technology for detecting small quantities of explosives 
concealed on passengers. We expect to deploy almost 500 units 
that will be operating in the airports by the end of this 
calendar year. The President's fiscal year 2007 budget request 
includes funding for an additional 500 AIT units, which would 
bring the total to nearly 1,000 Nation-wide. This will provide 
screening of nearly 65 percent of passengers for metallic and 
nonmetallic threats.
    The other primary screening device at the checkpoint is the 
X-ray machine. Advanced technology X-ray machines are the 
latest technology to screen carry-on bags. An upgraded version, 
which is ready for field testing, includes automated detection 
algorithms for explosives, a capability that we retrofitted to 
the over 900 AT X-rays that are currently deployed to 81 
airports Nation-wide. TSA will procure approximately 1,300 
additional machines, and we will deploy them to nearly every 
checkpoint by the end of 2011.
    Explosive trace detection equipment, or ETDs, have been the 
workhorse of the TSA technology fleet since the agency's 
inception. ETDs detect a wide range of explosives. TSA has been 
expanding the use of ETDs at checkpoints and gates in airports 
to enhance the unpredictability of screening and increase 
overall effectiveness.
    The President's fiscal year 2011 budget includes a request 
for 800 portable ETD units to complement the approximately 
2,000 tabletop units we have at these checkpoints today.
    We are fielding these technologies that are effective 
against known and emerging threats. However, terrorists are 
agile and determined. TSA works closely with DHS Science and 
Technology to ensure we have a solid process to identify and 
develop additional promising technologies. TSA uses 
intelligence and operational feedback to identify requirements 
that assist S&T in prioritizing research and development 
efforts.
    TSA works with the technology industry to drive improved 
detection capabilities. We issue formal requests for 
information and requests for proposals to provide direction on 
TSA's intents for future purposes. TSA also hosts industry days 
and meets regularly with vendors to refine requirements and 
identify potential new solutions.
    Part of the procurement process is a rigorous testing 
regime to ensure those technologies meet the requirements and 
are ready to perform in an operational environment. We test 
equipment in three settings: A lab environment such as the 
Transportation Security Lab, at TSA's systems integration 
facility, and in the field or operational test and evaluation.
    Technologies that pass this rigorous three-part testing are 
included on our qualified products list. TSA leaves this 
process open so vendors may enter the testing and qualification 
process when they are ready, resulting in what we call a 
rolling QPL. TSA competitively purchases equipment off these 
QPLs, resulting in better value to the taxpayer.
    TSA and S&T also work closely with our international 
partners and numerous working groups to improve aviation 
security technology. These groups focus on coordinating R&D 
efforts and harmonizing technology standards and processes.
    TSA's qualified products lists are considered the gold 
standard by many countries. Sharing this type of information 
with those countries offers greater options for determining the 
mix of technology, processes, and people to meet international 
security standards.
    Technology is critical to aviation security; however, it is 
just one element in the multi-layered strategy that includes 
the behavior detection officers, bomb appraisal officers, 
Federal air marshals, canine teams, well-trained personnel, and 
a ready and engaged traveling public. While new technologies 
offer great promise in DHS' on-going efforts to secure our 
homeland, no technology provides a guarantee against the threat 
of a terrorist attack. We need the layered security regime.
    Thank you for your continued assistance and support of TSA 
and for the opportunity to speak with you today. I welcome any 
questions when it is appropriate.
    [The statement of Mr. Kane follows:]

                    Prepared Statement of Robin Kane
                             March 17, 2010

    Good afternoon Chairman Jackson Lee, Ranking Member Dent, and 
distinguished Members of the subcommittee. Thank you for the 
opportunity to appear today to discuss the technology utilized at 
passenger screening checkpoints at United States airports. The 
attempted attack on Northwest Flight 253 on December 25 was a powerful 
reminder that terrorists will go to great lengths to defeat the 
security measures that have been put in place since September 11, 2001. 
As Secretary of Homeland Security Janet Napolitano has testified at 
recent hearings regarding the attempted attack, this administration is 
determined to thwart terrorist plots and disrupt, dismantle, and defeat 
terrorist networks.
    Today I will give an overview of passenger screening technologies 
currently in place and discuss the Transportation Security 
Administration's (TSA) on-going development and deployment of new 
technologies, in coordination with the Department of Homeland Security 
(DHS) Science and Technology Directorate (S&T), the Transportation 
Security Laboratory (TSL), and other key Federal agencies and academic 
and private sector centers of research. I will discuss some of the 
promising technologies we are currently developing, and how we are 
working to ensure that the technological advances we are making in the 
United States become available to enhance screening by our partners 
abroad.

                    RESPONSE TO NORTHWEST FLIGHT 253

    Following the attempted attack on Northwest Flight 253, President 
Obama made clear that we need to take additional actions to address the 
systemic vulnerabilities highlighted by that failed attack. At the 
President's and Secretary Napolitano's direction, to enhance the safety 
of the traveling public, DHS will pursue several key steps in which 
technology plays a critical role:
  <bullet> Accelerate deployment of advanced imaging technology to 
        provide greater explosives detection capabilities and encourage 
        foreign aviation security authorities to do the same.
  <bullet> Establish a partnership on aviation security between DHS and 
        the Department of Energy and its National laboratories in order 
        to develop new and more effective technologies to deter and 
        disrupt known threats and proactively anticipate and protect 
        against new ways by which terrorists could seek to board an 
        aircraft.
  <bullet> Work with international partners to strengthen international 
        security measures and standards for aviation security.

                    ACCELERATE TECHNOLOGY DEPLOYMENT

    TSA has already made great strides in accelerating the deployment 
of technology to enhance both checkpoint screening (for passengers and 
carry-on baggage) and checked baggage screening. The $1 billion in 
American Recovery and Reinvestment Act (ARRA) funds provided to TSA in 
2009 has played a major role in this effort. Of the $1 billion 
allocated to TSA for aviation security projects, approximately $700 
million was dedicated to checked baggage screening technology, 
including in-line Explosives Detection Systems (EDS), and approximately 
$300 million was allocated for checkpoint explosives detection 
technology.
    TSA uses a comprehensive research, testing, and deployment process 
to ensure that technology deployed to U.S. airports is effective in 
detecting threats and can withstand the operational and environmental 
rigors of a system that screens nearly 2 million passengers each day. 
The technology development lifecycle takes time--several years in some 
cases. While TSA and its vendors are working to deploy the latest 
aviation security technology to U.S. airports as quickly as possible, 
there are development logistical limits to how quickly new technologies 
become available.
    As is the case with TSA's approach to overall security, the 
objective in technology development and deployment is to find the most 
effective means to detect threats while facilitating travel and 
commerce and respecting personal privacy. The following are some of the 
technologies that we are deploying in pursuit of that goal.

Advanced Imaging Technology (AIT)
    One of the most promising current technologies for detecting small 
quantities of explosives concealed on passengers is AIT. AIT safely and 
effectively screens passengers for metallic and nonmetallic threats, 
including weapons and explosives, without physical contact. TSA has 
assessed multiple types of AIT systems, including backscatter X-ray and 
millimeter wave.
    Currently, 40 AIT units are deployed at 19 U.S. airports for both 
primary and secondary screening. Through ARRA funding, we procured 150 
additional units, which will be deployed principally for primary 
screening purposes starting in early 2010, and we are in the process of 
procuring an additional 300 AIT units in fiscal year 2010. TSA has also 
budgeted for an additional 500 AIT units in fiscal year 2011, which 
will bring the total to approximately 1,000 Nation-wide.
    In its deployment of AIT across the country, TSA has implemented 
strong safeguards--reviewed by the DHS Privacy Officer--to ensure the 
protection of passenger privacy and anonymity. TSA requires 
manufacturers to include software algorithms in AIT systems that blur 
the face on the image of the body during screening. Additionally, TSA 
requires that AIT machines in operation at airports cannot store images 
of screened passengers; storage capability is activated only for 
testing purposes. Furthermore, the Transportation Security Officer 
(TSO) who views the AIT image is located separately from the TSO at the 
screening location who assists the passenger through screening, to 
avoid a specific individual from being associated with the image. 
Finally, the passenger may choose whether to undergo screening by this 
technology or proceed through a walk-through metal detector (WTMD) 
followed by a pat-down. Current data shows that over 98 percent of 
passengers opt for AIT screening.
    TSA continues to explore additional privacy protections through 
automated threat detection, which would transmit images only when an 
alarm is triggered. In collaboration with DHS S&T, the security 
technology industry, and our international partners, software 
development is currently underway and will be followed by testing to 
ensure effective detection with minimal false alarms.

Explosives Trace Detectors (ETD)
    ETD equipment can detect a wide range of explosives, including 
Pentaerythritol tetranitrate (PETN), a key explosive used in the 
attempted attack on Northwest Flight 253. ETDs have previously been 
used to examine carry-on baggage for the presence of explosives residue 
and are currently being piloted at five airports for use on passengers' 
hands. Approximately 2,000 units are currently deployed in airports 
Nation-wide for passenger screening and the President's fiscal year 
2011 budget includes a request for $60 million for approximately 800 
portable ETD machines ($39 million) and associated checkpoint 
consumables ($21 million). Expanding the use of ETD beyond checkpoints 
and throughout airports will enhance the unpredictability of screening 
and increase overall screening effectiveness.

Advanced Technology (AT) X-Ray
    Advanced technology (AT) X-ray machines are the latest technology 
to screen carry-on baggage. AT X-ray provides multiple views and a 
greatly enhanced display that is much clearer and more detailed than 
that provided by current X-ray technology. The latest version, which is 
ready for testing in the field, includes automated detection algorithms 
for bulk explosives and liquid explosives--capabilities that will be 
retrofitted to the 922 AT X-ray machines currently deployed to 81 
airports Nation-wide. TSA anticipates having contracts in place by the 
end of fiscal year 2010 to purchase approximately 1,300 machines, 
enough to cover remaining U.S. airports, with deployment to be 
completed in early 2011. In fiscal year 2011, we plan to buy 25 
additional units and will upgrade the existing fleet with new software 
algorithms that bring that equipment in line with the new equipment.

Next Generation Bottled Liquid Scanner (BLS-2) Technology
    Bottled liquid scanners provide TSA with enhanced liquid detection 
capability by screening carry-on luggage to detect potential explosive 
liquid or gel threats. BLS-2 systems can work either in conjunction 
with AT X-ray screening or as stand-alone devices to conduct primary 
screening of liquids. TSA has already purchased 500 units and has 
started deployment to airports, with plans to procure and deploy an 
additional 800 BLS-2 systems to all U.S. airports by the end of 2010.

DHS AVIATION SECURITY PARTNERSHIP WITH THE DEPARTMENT OF ENERGY AND ITS 
                         NATIONAL LABORATORIES

    As a result of the President's directive on aviation security 
following the attempted attack on Christmas day, DHS has built on its 
partnership with the Department of Energy (DOE) and its National 
Laboratories in order to develop new and more effective technologies to 
deter and disrupt known threats and proactively anticipate and protect 
against new ways by which terrorists could seek to board an aircraft. 
We have established joint working groups to bring the laboratories' 
technical expertise to bear on three critical areas: Aircraft 
vulnerabilities, systems analysis of our approach to detection and 
screening, and new technology with potential application to aviation 
security.
    In addition, a number of interagency initiatives are already 
underway including: Research and development to increase screener 
efficiency and effectiveness; enhanced detection of passengers who 
intend to do harm and personnel who may pose insider threats; next-
generation fully automated checkpoints for detecting weapons and 
explosives on individuals for aviation, mass transit, large public 
venues or other potentially high-risk buildings; enhanced automatic 
imaging systems and trace explosives detection equipment that screen 
for explosives and other prohibited items; and new tools for biometric 
identification and credential validation.
    Many of these projects are expected to show significant progress in 
the near-term as similar or related projects were already underway. 
Other projects, such as developing next-generation fully automated 
checkpoints for detecting weapons and explosives on people, will likely 
take several years to become operational.

                WORKING WITH OUR INTERNATIONAL PARTNERS

    DHS is also working with international partners, law enforcement, 
and the aviation industry to enhance international aviation security 
standards and practices--particularly for international flights bound 
for the United States. The fiscal year 2011 budget requests funding to 
further expand TSA's international presence and enhance support to 
countries that seek assistance, including $40 million and 74 positions 
(37 FTE) to manage international programs at 15 of our 19 existing 
offices around the globe. The 74 new positions, which include 34 
Transportation Security Specialists, 10 International Industry 
Representatives, and a 10-person Rapid Response Team, will be 
strategically placed in high-risk areas such as the Middle East and 
Africa.
    In January, Secretary Napolitano dispatched Deputy Secretary Lute 
on an international trip during which she and other senior Department 
officials consulted with dozens of ministers, deputy ministers, and 
senior officials from 13 countries across six continents to review 
security procedures and technology being used to screen passengers on 
flights bound for the United States and work with our international 
partners on ways to collectively bolster our international aviation 
security system.
    As a result of this trip, the Spanish Minister of Interior Minister 
invited Secretary Napolitano to participate in the first organizational 
meeting of the Spanish EU Presidency of Justice and Home Affairs 
ministers, a plenary of 33 countries in Toledo, Spain. At this meeting, 
there was broad consensus and a clear sense of urgency to take 
immediate action to strengthen security measures. Specifically, 
Secretary Napolitano and her European counterparts signed a joint 
declaration affirming their collective commitment to strengthening 
information sharing and passenger vetting, deploying additional proven 
security technologies, and bolstering international aviation security 
standards. Secretary Napolitano found a similarly strong consensus in 
Geneva where she met with the leaders of the airlines that are part of 
the International Air Transport Association--which represents 
approximately 230 airlines and more than 90 percent of the world's air 
traffic. All attendees agreed that government and the private sector 
must work collaboratively both to develop enhanced international 
security standards and--most importantly--to effectively implement 
them.
    These meetings were the first in a series to bring about 
international agreement on stronger aviation security standards and 
procedures. For example, the International Civil Aviation Organization, 
the United Nations agency that focuses on international civil aviation, 
has facilitated several regional aviation security meetings--including 
one in Mexico City, jointly hosted by Mexico and Brazil and one in 
Tokyo--to build on the progress made in Toledo and Geneva.
    The discussions from these meetings and the deputy secretary's trip 
will culminate in an international ministerial meeting, being planned 
for later this year, to develop, review, and ultimately adopt key 
measures and proposals for increasing aviation security worldwide.
    TSA and S&T also work closely with our international partners 
through a number of working groups, task forces, and other committees 
focused on improving aviation security, identifying promising 
technologies, and harmonizing technology standards and processes. These 
groups include:
  <bullet> DHS Explosives Standards Working Group (ESWG).--The ESWG is 
        co-chaired by TSA and the DHS Office of Infrastructure 
        Protection, Protective Security Coordination Division (PSCD). 
        This group provides DHS agencies a forum for collaboration and 
        information exchange with other Federal, State, and local 
        government agencies and non-government entities on explosives 
        countermeasure standards and conformity assessment measures. 
        This group also drives explosives standards requirements and 
        policy.
  <bullet> European Civil Aviation Conference (ECAC) Technical Task 
        Force.--ECAC is an intergovernmental organization comprised of 
        44 Member States throughout Europe. TSA meets with ECAC 
        representatives multiple times throughout the year to partner 
        on technology standards and policy development related to 
        aviation security.
  <bullet> Technical Support Work Group (TSWG).--TSA participates in 
        the TSWG, a group sponsored by the Defense Department, with an 
        emphasis on technology research, engineering, and development 
        for aviation security-related projects. The group has 
        significant influence internationally and funds projects 
        submitted from both U.S. and non-U.S. members.
  <bullet> NATO Explosives Detection Group.--TSA meets with other NATO 
        member countries to collaborate on next generation explosives 
        detection technology and to share best practices.

                               CONCLUSION

    Technology is critical to aviation security; however, it is just 
one element in a multi-layered strategy that includes Behavior 
Detection Officers, Bomb Appraisal Officers, Federal Air Marshals, 
canine teams, well-trained personnel, and a ready and engaged traveling 
public. The attempted attack on Christmas day failed due in no small 
part to passengers and crew members who acted quickly and courageously 
to subdue the attacker and gain control of the situation.
    While new technologies offer great promise in DHS's on-going 
efforts to secure our homeland, no technology is a silver bullet 
against the threat of a terrorist attack. This reality makes it all the 
more critical that we are working together at all levels--Federal, 
State, and local governments, our international partners, and the 
American public--to counter threats.
    The Department of Homeland Security and the Transportation Security 
Administration are using every tool at our disposal to prevent, detect, 
and deter terrorism and protect the traveling public.
    Thank you for your continued assistance to TSA and for the 
opportunity to speak with you today. I would be pleased to respond to 
your questions.

    Ms. Jackson Lee. Thank you for your testimony.
    I now recognize Mr. Buswell to summarize his statement for 
5 minutes.

   STATEMENT OF BRADLEY I. BUSWELL, DEPUTY UNDER SECRETARY, 
  SCIENCE AND TECHNOLOGY DIRECTORATE, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Buswell. Good afternoon, Chairwoman Jackson Lee, 
Chairman Thompson, Ranking Member Dent, distinguished Members 
of the committee. I am honored to appear before you today to 
report on the Science and Technology Directorate's research, 
development, test, and evaluation efforts relating to airport 
passenger screening technology.
    First, I would like to personally thank the committee 
Members and the staff for their continuing support of S&T in 
our mission to deliver technology to protect the American 
people. S&T is charged with providing technical support and 
tools to the major DHS operating components and our Nation's 
first responders, all of whom are on the front lines of 
homeland security every day.
    S&T funds basic research and technology development and 
supports the Department's major acquisition programs through 
testing, evaluation, and the development of standards. As Mr. 
Kane said, the Transportation Security Administration has the 
lead role in defining the performance requirements of equipment 
that are installed at our airports as part of our security 
measures. DHS, S&T, and TSA coordinate closely on research 
efforts and equipment test and evaluation to ensure that the 
Department is investing in technologies that meet TSA's 
operational needs to protect the traveling public.
    The Department's research and development priorities are 
primarily customer-driven through the Capstone Integrated 
Product Team process. The customers and stakeholders in this 
process play a key role in informing DHS S&T's decision-making 
about research and development investment. DHS customers chair 
the Capstone IPTs and establish their desired capability 
priorities based on their assessment of risk in their 
respective mission areas. TSA leads the Transportation Security 
Capstone IPT. Mr. Kane does that personally.
    Our research priorities in aviation security have been and 
continue to be to improve the capability of currently fielded 
screening equipment and procedures in the near term and develop 
and deploy new equipment and procedures that are more effective 
in the long term.
    All three of our research portfolios, the product 
transition portfolio focused on the near-term deliverables, the 
basic research portfolio focused on long-term discovery and 
invention, and the innovation portfolio led by the Homeland 
Security Advanced Research Projects Agency, or HSARPA, 
participate in this IPT process.
    While the IPT members drive the selection of the near-term 
product transition projects, the expressed needs that arise 
from this process also inform the selection of projects in our 
basic research portfolio and the higher risk, high payoff 
innovation portfolio undertaken by HSARPA.
    The Capstone IPT process is effective at identifying high-
priority technology needs, but we are constantly looking for 
ways to better meet those needs. In response to the President's 
direction, as Mr. Kane described, we have recently established 
the Department of Homeland Security/Department of Energy 
aviation security enhancement partnership as an under 
secretary-level governance mechanism for managing the 
partnership between DHS and DOE National laboratories to 
advanced technical solutions to key aviation security problems.
    Now, partnering with the National laboratories is not new 
for us. Since its inception DHS has worked in close 
collaboration with the DOE National laboratories in pursuit of 
technology supporting the operational needs of DHS, but this 
particular partnership is unique in its focus and will allow us 
to extend and leverage this long-standing relationship to 
accelerate the delivery of key advanced aviation security 
technologies and knowledge.
    DHS S&T also plays an important role in the test and 
evaluation of equipment in advance of major acquisition 
decisions. S&T's director of test and evaluation standards 
approves the test and evaluation master plans that describe the 
necessary developmental and operational testing that must be 
conducted in order to determine system technical performance 
and operational effectiveness and suitability throughout the 
development process.
    The director of operational test and evaluation is 
responsible for reviewing and approving the operational test 
plan for each major DHS acquisition program and providing 
independent assessments to the DHS acquisition review board 
prior to major acquisition decisions.
    As Mr. Kane said, for aviation security technologies, the 
actual testing is led by TSL, the Transportation Security 
Laboratory in Atlantic City. TSL conducts independent 
verification and validation tests, including certification 
tests, qualification tests, and laboratory assessments, 
depending on the maturity of the type of the detection 
equipment.
    I am delighted to have alongside me today Dr. Susan 
Hallowell, director of TSL, to whom I will promptly refer all 
of your difficult questions.
    Ladies and gentlemen, aviation security is clearly an 
endeavor of global importance, and success will require the 
full involvement of the Homeland Security research enterprise, 
Government, academia, the private sector, and our international 
partners. In addition to the DHS-DOE aviation security 
enhancement partnership, we are also utilizing our intra-
Government partnership with DOD to ensure that we are fully 
utilizing their research investments as we pursue capabilities 
to keep the traveling public safe.
    Academia is a critical partner in long-term research and 
development of the science and technology workforce that 
America will need to maintain its security. Our university-
based centers of excellence are leading long-term efforts to 
ensure we are keeping the technology pipeline full.
    The December 25 event made it clear that terrorism knows no 
borders. Similarly, the directorate continues to look to the 
international community for technologies and techniques 
critical to bolstering aviation security, and I am personally 
engaged with the 10 countries with which we have formal 
bilateral S&T agreements to ensure we have identified the most 
promising aviation security technologies and techniques around 
the globe.
    Finally, I am acutely aware that American innovation also 
resides outside of the Federal Government. That is why we are 
fully engaged with the private sector to ensure we are hearing 
their technological ideas across a broad range of mission areas 
that we support, including aviation security.
    Members, thank you for your dedicated efforts to improve 
the safety of air travel for all Americans, and I appreciate 
the opportunity to be here and look forward to your questions.
    [The joint statement of Mr. Buswell and Ms. Hallowell 
follows:]

   Joint Prepared Statement of Bradley I. Buswell and Susan Hallowell
                             March 17, 2010

                              INTRODUCTION

    Good afternoon, Chairwoman Jackson Lee, Congressman Dent, and 
distinguished Members of the subcommittee. I am honored to appear 
before you today on behalf of the Department of Homeland Security (DHS) 
to report on the Science and Technology Directorate's (S&T) research, 
development, test, and evaluation (RDT&E) efforts relating to airport 
passenger screening technology.

Passenger Screening Capability Development
    S&T has a variety of roles in the Department. S&T provides 
technical support and tools to the major DHS operating components and 
the Nation's first responders; funds basic research and technology 
development; and supports the Department's major acquisitions through 
testing, evaluation, and the development of standards.
    The Transportation Security Administration (TSA) protects the 
Nation's transportation systems to ensure freedom of movement for 
people and commerce. While TSA has the lead role in defining the 
performance of airport security equipment, S&T and TSA coordinate 
closely on research efforts and equipment test and evaluation to 
advance capabilities that best protect the traveling public. These 
efforts have yielded numerous technical improvements that enhance the 
effectiveness of screening techniques and technologies while moving 
increasing numbers of people more quickly through security.
    The Department's research and development priorities are primarily 
customer-driven through our Capstone Integrated Product Team (IPT) 
process. DHS customers--such as TSA--chair the Capstone IPTs and 
establish their desired capability priorities based on their assessment 
of risk in their respective mission areas. Three IPTs--Transportation 
Security, Counter Improvised Explosive Devices (C-IED), and People 
Screening--are dedicated to identifying and delivering technological 
solutions for detecting and countering threats to the safety and 
security of the traveling public. Our Transportation Security IPT, led 
by TSA with support from S&T's Explosives Division, strives to identify 
and deliver technologies to improve our layered approach to aviation 
security. TSA is also an integral member of the People Screening IPT, 
providing valuable input as a user of proposed screening technologies. 
Finally, the Counter-IED IPT works to identify and develop trace 
detection and standoff imaging technologies that will impact the next 
generation of checkpoint technologies. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    All three DHS S&T portfolios--Product Transition, Innovation/
Homeland Security Advanced Research Projects Agency (HSARPA), and Basic 
Research--participate in the IPT process. While the IPT members drive 
the selection of Product Transition projects, the expressed needs that 
arise from this process also inform the selection of projects in our 
Basic Research portfolio and similarly inform the higher-risk/high pay-
off initiatives undertaken by our Innovation/HSARPA portfolio. The more 
insight we gain regarding current and future threats and the capability 
gaps of our stakeholders, the better positioned we are to identify 
promising areas of research and explore innovative solutions that are 
outside the development time frame for the nearer term-focused Product 
Transition portfolio.
    In addition to the Capstone IPT process, we have recently 
established the DHS--Department of Energy (DOE) Aviation Security 
Enhancement Partnership to advance technical solutions to key aviation 
security problems in support of priorities announced by the President 
following the failed December 25 bombing attempt. While DHS has always 
worked in close collaboration with the DOE National Laboratories, this 
new partnership allows an unprecedented level of access between the 
research community and operators that conduct aviation security efforts 
in DOE, DHS, and TSA. We have now agreed to create a senior-level (at 
the Under Secretary level) governance mechanism to manage ways to 
extend and leverage this relationship with a focus on improving 
aviation security by:
  <bullet> Delivering key advanced aviation security technologies and 
        knowledge;
  <bullet> Conducting analyses to assess possible vulnerabilities and 
        threats and support/inform technology requirements, policy, 
        planning, decision-making activities; and
  <bullet> Reviewing the use of existing aviation security technologies 
        and screening procedures, and the impact of new or improved 
        technologies using a systems analysis approach to illuminate 
        gaps, opportunities, and cost-effective investments.

Research and Development Priorities
    There is no single technological solution to aviation security. A 
layered security approach to passenger screening features multiple 
passenger and baggage screening tools and integrates human factors 
considerations, metal detectors, Advanced Imaging Technology (AIT) with 
X-rays and millimeter waves, trace explosives detection, and canines. 
S&T's R&D Program is focused on improving the performance of currently 
deployed screening equipment and procedures in the near-term, and 
developing and deploying new technologies and procedures in the long-
term. Future improvements aim to screen passengers and carry-on baggage 
for an increasing range of threats and streamline travel by easing 
certain restrictions, such as the need to remove shoes during screening 
or limits on carrying liquids onto the plane.
    We develop technologies and techniques that maximize DHS and other 
end users' operational flexibility as well as ensure the privacy, civil 
rights, and civil liberties of our citizens are protected. Our 
screening research programs are developed and executed in close 
cooperation with the DHS Chief Privacy Officer as well as the Office of 
Civil Rights and Civil Liberties to ensure that we consciously consider 
and address their impacts or risk to the public. S&T conducts in-depth 
analyses of such efforts through on-going dialogue with the DHS Privacy 
Office and the DHS Office of Civil Rights and Civil Liberties and 
related documentation such as Privacy Impact Assessments or Civil 
Liberties Impact Assessments.
    We continuously evaluate and improve the capabilities of currently 
deployed technologies against new threats and seek to develop state-of-
the-art threat detection technology for TSA passenger checkpoints to 
screen out evolving threats while improving the passenger experience 
with higher throughput and minimal restrictions. The highest-priority 
effort in this area is improving detection software algorithms, 
including effective automatic target recognition, in our currently 
deployed imaging systems, particularly AIT and Advanced Technology (AT) 
X-ray screening devices. AIT is one of the most promising technologies 
for detecting non-metallic weapons and small quantities of explosives 
concealed on individuals. AT X-ray provides an enhanced detection 
capability with multi-dimensional visual screening and improved image 
resolution of carry-on bags. Both of these technologies would greatly 
benefit from algorithm improvement and other systems research and 
engineering approaches that consider human factors to optimize security 
officer performance in threat detection and identification.
    Efforts dedicated to suspicious behavior detection could also 
provide near-term benefit in passenger screening. The Suspicious 
Behavior Detection Program strives to improve screening by providing a 
science-based capability to identify unknown threats indicated by 
deceptive and suspicious behavior. This program addresses operational 
needs for real-time, non-invasive detection of deception or hostile 
intent that are applicable across the DHS mission. In the longer term, 
a continuing, robust RDT&E program across the three S&T portfolios is 
necessary.
    The Explosives Research Program funds multidisciplinary basic 
research in imaging, particle physics, chemistry, material science and 
advanced algorithm development to develop enhanced explosive detection 
and mitigation capabilities.
    The transition program, guided by the Capstone IPT process, is 
comprehensive and encompasses:
  <bullet> Automated imaging systems to screen for weapons, 
        conventional explosives, and home-made explosives (HME) in 
        carry-on bags;
  <bullet> Trace explosives detection capabilities for identifying 
        explosives on people and in carry-on baggage;
  <bullet> A next generation fully automated checkpoint for detecting 
        weapons and explosives on people for aviation, mass transit, 
        public gathering venues, or other potentially high-risk 
        buildings;
  <bullet> Human performance research and technology development for 
        increased security officer efficiency and effectiveness;
  <bullet> A science-based capability to derive, validate, and automate 
        detection of observable indicators of suicide bombers;
  <bullet> A science-based capability to identify known threats and 
        facilitate legitimate travel through accurate, timely, and 
        easy-to-use tools for biometric identification and credential 
        validation;
  <bullet> Technologies and methods for identifying insider threats.
    The innovation program, managed by HSARPA, is looking at ``leap-
ahead'' technologies such as:
  <bullet> Future Attribute Screening Technology (FAST) to determine if 
        it is possible to detect malintent (the mental state of 
        individuals intending to cause harm) by utilizing non-invasive 
        physiological and behavioral sensor technology, deception 
        theory, and observational techniques. Though we have 
        established an initial scientific basis for the technology, 
        this project is still in the early stages as we work on both 
        the science and theory to support the concept.
  <bullet> MagViz is looking at the possibility of using technology 
        similar to hospital MRI machines to look for and identify 
        liquids. The magnetic fields in MagViz are much lower power 
        than its medical counterparts, allowing operation without the 
        restrictions and high costs of traditional MRI. We demonstrated 
        this technology with a small-scale prototype at the Sunport 
        Airport in Albuquerque, NM, in December 2008. MagViz was 
        successful at identifying a dangerous liquid in a small bottle 
        among many non-hazardous liquids in a standard TSA checkpoint 
        bowl. The project is still in the research phase, and we are 
        now trying to prove the technology using a larger-size 
        container and a broader array of both non-hazardous and 
        potentially hazardous liquids.

S&T Role in Test & Evaluation
    Section 302 of the Homeland Security Act of 2002 charges S&T with 
the responsibility for ``coordinating and integrating all research, 
development, demonstration, testing, and evaluation activities of the 
Department.'' To carry out these and other test and evaluation (T&E)-
related legislative mandates, the Directorate established the Test and 
Evaluation and Standards Division (TSD) in 2006 and created the 
position of Director of Operational Test & Evaluation in 2008.
    TSD develops and implements robust Department-wide T&E policies and 
procedures. Working with the DHS under secretary for management, TSD 
approves Test and Evaluation Master Plans (TEMP) that describe the 
necessary Developmental Test and Evaluation (DT&E) and Operational Test 
and Evaluation (OT&E) tasks that must be conducted in order to 
determine system technical performance and operational effectiveness 
based upon vetted Operational Requirements Documents.
    Many of the Department's airport security technologies begin 
testing at the Transportation Security Laboratory (TSL). Test and 
evaluations activities at the TSL encompass two independent functions 
and complies with the robust Department-wide T&E policies and 
procedures. First, the Independent Test and Evaluation (IT&E) function 
is responsible for evaluating mature technology that may meet TSA's 
security requirements and is suitable for piloting or deployment. 
Second, the research and development function has responsibilities 
ranging from applied research to prototype development to technology 
maturation that produces prototypes suitable for evaluation by the IT&E 
Team. I am joined today by the TSL Director, Susan Hallowell.
    The IT&E group works closely with TSA's Office of Security and 
Technology to determine testing requirements, priorities, and results 
of evaluations. At TSL, IT&E activities, which include certification, 
qualification, and assessment testing, are generally performed to 
determine if detection systems meet TSA-defined requirements. Results 
help define key program milestones, benchmarking, and investment 
strategy as well as support decisions of DHS operating components (such 
as TSA) for field trials, production, or deployment. RDT&E activities 
are designed to verify that a prototype or near-commercial off-the-
shelf system has met performance metrics established within the R&D 
program such that it can proceed to the next R&D stage.
    The Certification Test Program is reserved for detection testing of 
bulk and trace explosives detection systems (EDS) and equipment under 
statutory authority 49 U.S.C.  44913 for checked baggage. Before 
mature EDS are deployed, it must be certified that salient performance 
characteristics are met.
    Qualification Tests are designed to verify that a security system 
meets requirements as specified in a TSA-initiated Technical 
Requirements Document. This test, along with piloting (field trials), 
generally results in a determination of fitness-for-use. This process 
is modeled after the certification process and is defined within the 
Qualification Management Plan. Unlike the Certification Test, the 
requirements of the Qualification Management Plan typically expand 
beyond detection functions to include operational requirements. The 
result of Qualification Testing is a recommendation of whether 
candidate systems should be placed on a Qualified Products List.
    Laboratory Assessment Testing is conducted to determine the general 
capability of a system. These evaluations of candidate security systems 
are carried out in accordance with interim performance metrics, and the 
results drive future development efforts or operational deployment 
evaluations. While the IT&E group practices best scientific principles 
in test design, execution, and evaluation of data, assessment criteria 
are determined by the DHS component's needs.
    Developmental Test and Evaluation is performed by the R&D team at 
the TSL and involves testing in a controlled environment to ensure that 
all system or product components meet technical specifications. These 
tests are designed to ensure that developmental products have met major 
milestones identified within the R&D project and DT&E testing at the 
TSL assesses the strengths, weaknesses, and vulnerabilities of 
technologies as they mature and gain capability. The primary focus is 
to ensure that the technology is robust and ready for Certification or 
Qualification tests.
    Following completion of the IT&E, an Operational Test Readiness is 
conducted to determine whether the certified or qualified systems are 
ready for operational testing. OT&E for systems occurs in several 
airports, by trained TSA operators using test plans that are approved 
by S&T's Director of Operational T&E. Testing in an operationally 
accurate environment identifies issues in system operations before 
deployment is contemplated.
    TSD currently provides oversight to major acquisition programs, 
including TSA programs, by: Participating in T&E working groups; 
approving TEMPs, and Operational Test Plans; participating in 
Operational Test Readiness Reviews; observing testing; and 
participating in Acquisition Review Boards.

Public and Private Sector Engagement
    To maximize the effectiveness of our resources and leverage the 
scientific work being done in both the public and private sectors, we 
have made concerted efforts to form partnerships throughout the 
Government and across the academic, business, and international 
communities. In addition to the DHS-DOE Aviation Security Enhancement 
Partnership, we are also utilizing our intra-government partnership 
with Department of Defense (DOD) in the form of the Capability 
Development Working Group (CDWG). Co-chaired by the DHS Under 
Secretaries for S&T and Management, as well as the Under Secretary of 
Defense for Acquisition, Technology, and Logistics, the CDWG will 
ensure that investments in explosive detection made by DOD are 
considered as we pursue capabilities to keep the traveling public safe. 
Academia is a critical partner in long-term research and the 
development of the science and technology workforce that America will 
need to maintain its security. Our university-based Centers of 
Excellence (COE) are conducting or have finished approximately 500 
research projects. Efforts relevant to transportation security are 
underway at our explosives research COE at Northeastern University, our 
BORDERS COE at the University of Arizona, and, of course the seven-
institution National Transportation Security COE. These COEs are 
leading long-term efforts, such as developing advanced technologies for 
detecting a variety of explosive precursors and mixtures; conducting 
scientific research related to next-generation screening techniques; 
and research to give us fundamental understanding of other counter-
explosive technologies.
    The failed December 25 bombing attempt made it clear that terrorism 
respects no borders. Similarly, S&T continues to look to the 
international community for technologies and techniques critical to 
bolstering aviation security. I am personally engaged with the ten 
countries with which we have formal bilateral S&T agreements--
Australia, Canada, France, Germany, Great Britain, Israel, Mexico, New 
Zealand, Singapore, and Sweden--to ensure that we have identified the 
most promising aviation security technologies and techniques around the 
globe.
    Finally, in order to leverage the innovation that resides outside 
the Federal Government, we have a standing Broad Agency Announcement 
(BAA 09-05) that provides a means for the private sector to submit its 
technological ideas for consideration across the broad range of mission 
areas that we support, including aviation security.

                               CONCLUSION

    Thank you for your dedicated efforts to improve the safety of air 
travel for all Americans. I appreciate the opportunity to meet with you 
today to discuss research initiatives to strengthen passenger 
screening. I look forward to answering your questions.

    Ms. Jackson Lee. Thank you very much for your testimony.
    I now recognize Mr. Lord to summarize his statement for 5 
minutes.

  STATEMENT OF STEPHEN LORD, DIRECTOR, HOMELAND SECURITY AND 
         JUSTICE TEAM, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Lord. Thank you, Madam Chairwoman, Chairman Thompson.
    I am pleased to be here again today to discuss recent steps 
TSA has taken to enhance aviation security, including efforts 
to deploy advanced imaging technology, or AIT. In response to 
the attempted Christmas day attack, TSA has significantly 
revised its strategy for deploying AIT, formerly referred to as 
whole body imagers.
    First, TSA now plans to deploy 1,800 units by 2014, a more 
than two-fold increase from the initial plan buy of 878 units.
    Second, TSA now plans to use this technology as the primary 
rather than secondary screening measure. For the purposes of 
this testimony, I think it is important to note that DHS' S&T 
and TSA share responsibilities related to research and 
development of AIT and other important checkpoint screening 
technologies.
    As highlighted in our October 2009 report, some 
coordination challenges existed because of poor communication 
between the S&T and TSA. However, several steps were taken to 
address this issue, and I am hoping today's hearing can help 
clarify the extent those issues have been resolved.
    Our October 2009 report also highlighted several challenges 
that TSA faced in deploying advanced technology, specifically 
the so-called explosive trace portals, or puffers, which I 
believe is a cautionary tale for the AIT acquisition. We found 
that TSA had deployed over 100 puffers without fully testing 
them in an operational environment. As a result the technology 
did not perform as expected, and TSA had to curtail their 
deployment.
    The good news is TSA officials concurred with our report 
recommendations to improve this process and stated that unlike 
the puffers, operational testing for the AIT was successfully 
completed. However, it is still unclear to GAO whether the AIT 
would have detected the weapon used in the attempted Christmas 
day attack, based on the preliminary information we have 
reviewed to date.
    We are currently reviewing TSA testing results to first 
assess the AIT's detection capabilities and second to verify 
that TSA successfully completed operational testing of this 
technology. Also, while TSA has completed a life-cycle cost 
estimate and a so-called alternatives analysis for the AIT, it 
has not conducted a full cost-benefit study as called for in 
our October 2009 report.
    While we recognize and appreciate that TSA has taken some 
immediate steps to address the vulnerability exposed by the 
Christmas day attack, we still believe a cost-benefit analysis 
is important, as it would help TSA identify the total cost of 
the deployment and how security is enhanced through this 
deployment relative to other checkpoint technologies. Again, 
this information is especially important, since TSA is 
proposing to more than double the number of AITs to be 
deployed.
    We estimate that the staffing costs alone associated with 
the planned increase in AITs from 878 units to 1,800 units 
could add up to $2.4 billion in additional costs over the 
project life-cycle. Moreover, the total staff cost for the 
1,800 units could range as high as $4.7 billion. These costs 
were not reflected in TSA's most recent February 2010 life-
cycle cost estimate.
    While a lot of recent attention has been focused on 
passenger checkpoint technology, and AIT in particular, I think 
it is important to also be mindful of the other components of 
aviation security. That includes policies and procedures and 
the staff you have implementing these procedures.
    Also, the checkpoint technology represents only one layer 
of many layers of aviation security. Other layers involve air 
cargo, the screening of air cargo on passenger aircraft, 
airport perimeters, the so-called behavior detection officers. 
So when addressing aviation security issues, you have to keep 
this full context in mind in reaching any conclusions.
    In closing, I look forward to participating in today's 
hearing and hope it can help answer three important oversight 
questions. First, how effectively will the AIT detect those 
seeking to replicate the Christmas day attack? Second, do the 
security benefits of AIT outweigh its cost? That is when you 
include all relevant costs. Finally, how does the new AIT 
deployment plan fit into TSA's broader passenger checkpoint 
screening strategy and suite of technologies being deployed at 
the checkpoint? As Robin mentioned, TSA is in the process of 
fielding a number of highly sophisticated technologies.
    Madam Chairwoman, that concludes my statement. Once again, 
I look forward to answering your questions.
    [The statement of Mr. Lord follows:]

                   Prepared Statement of Stephen Lord
                             March 17, 2010

                             GAO HIGHLIGHTS

    Highlights of GAO-10-484T, a testimony before the Subcommittee on 
Transportation Security and Infrastructure Protection, Committee on 
Homeland Security, House of Representatives.

Why GAO Did This Study
    The attempted bombing of Northwest Flight 253 highlighted the 
importance of detecting improvised explosive devices on passengers. 
This testimony focuses on: (1) The Transportation Security 
Administration's (TSA) efforts to procure and deploy advanced imaging 
technology (AIT), and related challenges; and (2) TSA's efforts to 
strengthen screening procedures and technology in other areas of 
aviation security, and related challenges. This testimony is based on 
related products GAO issued from March 2009 through January 2010, 
selected updates conducted from December 2009 through March 2010 on the 
AIT procurement, and on-going work on air cargo security. For the on-
going work and updates, GAO obtained information from the Department of 
Homeland Security (DHS) and TSA and interviewed senior TSA officials 
regarding air cargo security and the procurement, deployment, 
operational testing, and assessment of costs and benefits of the AIT.

What GAO Recommends
    GAO is not making new recommendations. In past reports, GAO has 
recommended, among other things, that TSA operationally test screening 
technologies prior to deployment and assess costs and benefits of 
screening technology investments. DHS concurred and is working to 
address the recommendations. DHS provided comments to this statement, 
which were incorporated.

AVIATION SECURITY.--TSA IS INCREASING PROCUREMENT AND DEPLOYMENT OF THE 
 ADVANCED IMAGING TECHNOLOGY, BUT CHALLENGES TO THIS EFFORT AND OTHER 
                   AREAS OF AVIATION SECURITY REMAIN

What GAO Found
    In response to the December 25, 2009, attempted attack on Northwest 
Flight 253, TSA revised the AIT procurement and deployment strategy, 
increasing the planned deployment of AITs from 878 to 1,800 units and 
using AITs as a primary--instead of a secondary--screening measure 
where feasible; however, challenges remain. In October 2009, GAO 
reported on the challenges TSA faced deploying new technologies such as 
the explosives trace portal (ETP) without fully testing them in an 
operational environment, and recommended such testing prior to future 
deployments. TSA officials concurred and stated that, unlike the ETP, 
operational testing for the AIT was successfully completed late in 2009 
before its deployment was fully initiated. While officials said AITs 
performed as well as physical pat-downs in operational tests, it 
remains unclear whether the AIT would have detected the weapon used in 
the December 2009 incident based on the preliminary information GAO has 
received. GAO is verifying that TSA successfully completed operational 
testing of the AIT. In October 2009, GAO also recommended that TSA 
complete cost-benefit analyses for new passenger screening 
technologies. While TSA conducted a life-cycle cost estimate and an 
alternatives analysis for the AIT, it reported that it has not 
conducted a cost-benefit analysis of the original deployment strategy 
or the revised AIT deployment strategy, which proposes a more than two-
fold increase in the number of machines to be procured. GAO estimates 
increases in staffing costs alone due to doubling the number of AITs 
that TSA plans to deploy could add up to $2.4 billion over its expected 
service life. While GAO recognizes that TSA is attempting to address a 
vulnerability exposed by the December 2009 attempted attack, a cost-
benefit analysis is important as it would help inform TSA's judgment 
about the optimal deployment strategy for the AITs, and how best to 
address this vulnerability considering all elements of the screening 
system.
    TSA has also taken actions towards strengthening other areas of 
aviation security but continues to face challenges. For example, TSA 
has taken steps to meet the statutory mandate to screen 100 percent of 
air cargo transported on passenger aircraft by August 2010, including 
developing a program to share screening responsibilities across the air 
cargo supply chain. However, as GAO reported in March 2009, a number of 
challenges to this effort exist, including attracting participants to 
the TSA screening program, completing technology assessments, and 
overseeing additional entities that it expects to participate in the 
program. GAO is exploring these issues as part of an on-going review of 
TSA's air cargo security program which GAO plans to issue later this 
year. Further, while TSA has taken a variety of actions to strengthen 
the security of commercial airports, GAO reported in September 2009 
that TSA continues to face challenges in several areas, such as 
assessing risk and evaluating worker screening methods. In September 
2009, GAO also recommended that TSA develop a National strategy to 
guide stakeholder efforts to strengthen airport perimeter and access 
control security, to which DHS concurred.
    Madam Chairwoman and Members of the subcommittee, I am pleased to 
be here today to discuss the Transportation Security Administration's 
(TSA) progress in securing passenger checkpoints and other areas of 
commercial aviation. In response to the December 25, 2009, attempted 
bombing of Northwest Flight 253, the Secretary of Homeland Security 
announced five corrective actions to improve aviation security, 
including accelerating deployment of the advanced imaging technology 
(AIT)--formerly called the Whole Body Imager--to identify materials 
such as those used in the attempted Christmas day bombing. The AITs 
produce an image of a passenger's body that TSA personnel use to look 
for anomalies, such as explosives. TSA is deploying AITs to airport 
passenger checkpoints to enhance its ability to detect explosive 
devices and other prohibited items on passengers. Passengers undergo 
either primary or secondary screening at these checkpoints. Primary 
screening is conducted on all airline passengers before they enter the 
sterile area of an airport and involves passengers walking through a 
metal detector and their carry-on items being subjected to X-ray 
screening.\1\ Secondary screening is conducted on selected passengers 
and involves additional screening of bboth passengers and their carry-
on items. While screening passengers at the checkpoint is a vital layer 
of security, it is also important to ensure the security of other areas 
of commercial aviation, such as air cargo transported on passenger 
aircraft, and airport worker screening and checked baggage screening.
---------------------------------------------------------------------------
    \1\ Sterile areas are areas of airports where passengers wait after 
screening to board departing aircraft.
---------------------------------------------------------------------------
    TSA's passenger checkpoint screening system comprises three 
elements: (1) Personnel responsible for, among other things, screening 
passengers and baggage; (2) the policies and procedures that govern the 
different aviation security programs; and (3) the technology used to 
screen passengers and baggage. All three elements--people, process, and 
technology--collectively help determine the effectiveness and 
efficiency of passenger checkpoint screening, and our past work in this 
area has addressed all three elements of the system.\2\ Similarly, 
securing the flying public involves trade-offs between security, 
privacy, and the efficient flow of commerce. Striking the right balance 
between these three goals is an on-going challenge facing TSA.
---------------------------------------------------------------------------
    \2\ See for example, GAO, Homeland Security: Better Use of 
Terrorist Watchlist Information and Improvements in Deployment of 
Passenger Screening Checkpoint Technologies Could Further Strengthen 
Security, GAO-10-401T (Washington, DC: Jan. 27, 2010); Aviation 
Security: DHS and TSA Have Researched, Developed, and Begun Deploying 
Passenger Checkpoint Screening Technologies, but Continue to Face 
Challenges, GAO-10-128 (Washington, DC: Oct. 7, 2009); Homeland 
Security: DHS's Progress and Challenges in Key Areas of Maritime, 
Aviation, and Cybersecurity, GAO-10-106 (Washington, DC: Dec. 2, 2009); 
Aviation Security: TSA Has Completed Key Activities Associated with 
Implementing Secure Flight, but Additional Actions Are Needed to 
Mitigate Risks, GAO-09-292 (Washington, DC: May 13, 2009); Aviation 
Security: Preliminary Observations on TSA's Progress and Challenges in 
Meeting the Statutory Mandate for Screening Air Cargo on Passenger 
Aircraft, GAO-09-422T (Washington, DC: Mar. 18, 2009); Aviation 
Security: Vulnerabilities Exposed Through Covert Testing of TSA's 
Passenger Screening Process, GAO-08-48T (Washington, DC: Nov. 15, 
2007); and Terrorist Watch List Screening: Opportunities Exist to 
Enhance Management Oversight, Reduce Vulnerabilities in Agency 
Screening Processes, and Expand Use of the List, GAO-08-110 
(Washington, DC: Oct. 11, 2007).
---------------------------------------------------------------------------
    My testimony today focuses on: (1) TSA's plans to procure, deploy, 
and test AITs to enhance the security of the passenger checkpoint, and 
any challenges TSA faces in this effort; and (2) TSA's efforts to 
strengthen screening procedures and technology in other areas of 
aviation security, and any related challenges the agency faces in these 
areas.
    This statement is based on related GAO reports and testimonies we 
issued from March 2009 through January 2010, as well as preliminary 
observations based on on-going work--from October 2008 through February 
2010--to be completed later this year assessing the progress that DHS 
and its component agencies have made in addressing challenges related 
to air cargo security.\3\ To conduct all of this work, we reviewed 
relevant documents related to the programs reviewed, and interviewed 
cognizant Department of Homeland Security (DHS) and TSA officials. All 
of this work was conducted in accordance with generally accepted 
government auditing standards, and our previously published reports 
contain additional details on the scope and methodology for those 
reviews. In addition, this statement contains selected updates 
conducted from December 2009 through March 2010 on TSA's effort to 
procure and deploy the AIT. For the updates, we obtained information 
from DHS and TSA on the AIT and interviewed senior TSA officials 
regarding the planned procurement, deployment, operational testing and 
evaluation, and assessment of benefits and costs of the AITs. We 
conducted these updates in accordance with generally accepted 
government auditing standards. Those standards require that we plan and 
perform the audit to obtain sufficient, appropriate evidence to provide 
a reasonable basis for our findings and conclusions based on our audit 
objectives. We believe that the evidence obtained provides a reasonable 
basis for our findings based on our audit objectives.
---------------------------------------------------------------------------
    \3\ GAO-10-401T; GAO-10-128; GAO-10-106; and GAO-09-422T.
---------------------------------------------------------------------------
                               BACKGROUND

Airline Passenger Screening Using Checkpoint Technology
    Passenger screening is a process by which screeners inspect 
individuals and their property to deter and prevent an act of violence 
or air piracy, such as the carrying of any unauthorized explosive, 
incendiary, weapon, or other prohibited item on board an aircraft or 
into a sterile area. Screeners inspect individuals for prohibited items 
at designated screening locations. TSA developed standard operating 
procedures for screening passengers at airport checkpoints. Primary 
screening is conducted on all airline passengers before they enter the 
sterile area of an airport and involves passengers walking through a 
metal detector, and carry-on items being subjected to X-ray screening. 
Passengers who alarm the walk-through metal detector or are designated 
as selectees--that is, passengers selected for additional screening--
must then undergo secondary screening, as well as passengers whose 
carry-on items have been identified by the X-ray machine as potentially 
containing prohibited items. Secondary screening involves additional 
means for screening passengers, such as by hand wand; physical pat-
down; or other screening methods such as the AIT.

Role of DHS Science & Technology Directorate
    Within DHS, both the Science and Technology Directorate (S&T) and 
TSA have responsibilities for researching, developing, and testing and 
evaluating new technologies, including airport checkpoint screening 
technologies. Specifically, S&T is responsible for the basic and 
applied research and advanced development of new technologies, while 
TSA, through its Passenger Screening Program (PSP), identifies the need 
for new checkpoint screening technologies and provides input to S&T 
during the research and development of new technologies, which TSA then 
procures and deploys. Because S&T and TSA share responsibilities 
related to the research, development, test, and evaluation (RDT&E), 
procurement, and deployment of checkpoint screening technologies, the 
two organizations must coordinate with each other and external 
stakeholders, such as airport operators and technology vendors.

Air Cargo Security
    Air cargo can be shipped in various forms, including unit load 
devices (ULD) that allow many packages to be consolidated into one 
container or pallet; wooden crates; or individually wrapped/boxed 
pieces, known as loose or break-bulk cargo. Participants in the air 
cargo shipping process include shippers, such as manufacturers; freight 
forwarders, who consolidate cargo from shippers and take it to air 
carriers for transport; air cargo handling agents, who process and load 
cargo onto aircraft on behalf of air carriers; and air carriers that 
load and transport cargo.\4\ TSA's responsibilities include, among 
other things, establishing security requirements governing domestic and 
foreign passenger air carriers that transport cargo and domestic 
freight forwarders.
---------------------------------------------------------------------------
    \4\ For purposes of this statement, the term freight forwarders 
only includes those freight forwarders that are regulated by TSA, also 
referred to as indirect air carriers.
---------------------------------------------------------------------------
Airport Perimeter Security and Access Control
    Airport perimeter and access control security is intended to 
prevent unauthorized access into secured airport areas, either from 
outside the airport complex or from within. Airport operators generally 
have direct day-to-day responsibility for maintaining and improving 
perimeter and access control security, as well as implementing measures 
to reduce worker risk. However, TSA has primary responsibility for 
establishing and implementing measures to improve security operations 
at U.S. commercial airports--that is, TSA-regulated airports--including 
overseeing airport operator efforts to maintain perimeter and access 
control security.\5\ Airport workers may access sterile areas through 
TSA security checkpoints or through other access points that are 
secured by the airport operator. The airport operator is also 
responsible, in accordance with its security program, for securing 
access to secured airport areas where passengers are not permitted. 
Airport methods used to control access vary, but all access controls 
must meet minimum performance standards in accordance with TSA 
requirements.
---------------------------------------------------------------------------
    \5\ See generally Aviation and Transportation Security Act, Pub. L. 
No. 107-71, 115 Stat. 597 (2001).
---------------------------------------------------------------------------
 INCREASED DEPLOYMENT OF AIT HIGHLIGHTS THE IMPORTANCE OF OPERATIONAL 
         TESTING AND COST-BENEFIT ANALYSIS PRIOR TO DEPLOYMENT

TSA Plans to Procure and Deploy 1,800 AITs by 2014 and Use Them as a 
        Primary Screening Measure
    In response to the December 2009 attempted terrorist attack, TSA 
has revised its procurement and deployment strategy for the AIT, 
increasing the number of AITs it plans to procure and deploy. In 
contrast with its prior strategy, the agency now plans to acquire and 
deploy 1,800 AITs (instead of the 878 units it had previously planned 
to acquire) and to use them as a primary screening measure where 
feasible rather than solely as a secondary screening measure. According 
to a senior TSA official, the agency is taking these actions in 
response to the Christmas day 2009 terrorist incident. These officials 
stated that they anticipate the AIT will provide enhanced security 
benefits compared to walk-through metal detectors, such as enhanced 
detection capabilities for identifying nonmetallic threat objects and 
liquids. TSA officials also stated that the AIT offers greater 
efficiencies because it allows TSA to more rigorously screen a greater 
number of passengers in a shorter amount of time while providing a 
detection capability equivalent to a pat-down. For example, the AIT 
requires about 20 seconds to produce and interpret a passenger's image 
as compared with 2 minutes required for a physical pat-down. A senior 
official also stated that TSA intends to continue to offer an 
alternative but comparable screening method, such as a physical pat-
down, for passengers who prefer not to be screened using the AIT.
    The AIT produces an image of a passenger's body that a screener 
interprets. The image identifies objects, or anomalies, on the outside 
of the physical body but does not reveal items beneath the surface of 
the skin, such as implants. TSA plans to procure two types of AIT 
units: one type uses millimeter-wave and the other type uses 
backscatter X-ray technology. Millimeter-wave technology beams 
millimeter-wave radio-frequency energy over the body's surface at high 
speed from two antennas simultaneously as they rotate around the body. 
The energy reflected back from the body or other objects on the body is 
used to construct a three-dimensional image. Millimeter wave technology 
produces an image that resembles a fuzzy photo negative. Backscatter X-
ray technology uses a low-level X-ray to create a two-sided image of 
the person. Backscatter technology produces an image that resembles a 
chalk etching.
    As of February 24, 2010, according to a senior TSA official, the 
agency has deployed 40 of the millimeter-wave AITs and procured 150 
backscatter X-ray units in fiscal year 2009. In early March 2010, TSA 
initiated the deployment of these backscatter units starting with two 
airports, Logan International Airport in Boston, Massachusetts, and 
Chicago O'Hare International Airport in Des Plaines, Illinois. TSA 
officials stated that they do not expect these units to be fully 
operational, however, until the second or third week of March due to 
time needed to hire and train additional personnel. TSA estimates that 
the remaining backscatter X-ray units will be installed at airports by 
the end of calendar year 2010. In addition, TSA plans to procure an 
additional 300 AIT units in fiscal year 2010, some of which it plans to 
purchase with funds from the American Recovery and Reinvestment Act of 
2009. In fiscal year 2011, TSA plans to procure 503 AIT units. TSA 
projects that a total of about 1,000 AIT systems will be deployed to 
airports by the end of December 2011. In fiscal year 2014 TSA plans to 
reach full operating capacity, having procured a total of 1,800 units 
and deployed them to 60 percent of the checkpoint lanes at Category X, 
I, and II airports.\6\ The current projected full operating capacity of 
1,800 machines represents a more than two-fold increase from 878 units 
that TSA had previously planned. TSA officials stated that the cost of 
the AIT is about $170,000 per unit, excluding training, installation, 
and maintenance costs. In addition, in the fiscal year 2011 President's 
budget submission, TSA has requested $218.9 million for 3,550 
additional full-time equivalents (FTE) to help staff the AITs deployed 
in that time frame. From 2012 through 2014, as TSA deploys additional 
units to reach full operating capacity, additional staff will be needed 
to operate these units; such staffing costs will recur on an annual 
basis. TSA officials told us that three FTEs are needed to operate each 
unit.
---------------------------------------------------------------------------
    \6\ There are about 450 commercial airports in the United States. 
TSA classifies airports into one of five categories (X, I, II, III, and 
IV) based on various factors, such as the total number of takeoffs and 
landings annually, the extent to which passengers are screened at the 
airport, and other special security considerations. In general, 
category X airports have the largest number of passenger boardings, and 
category IV airports have the smallest.
---------------------------------------------------------------------------
    Because the AIT presents a full body image of a person during the 
screening process, concerns have been expressed that the image is an 
invasion of privacy. According to TSA, to protect passenger privacy and 
ensure anonymity, strict privacy safeguards are built into the 
procedures for use of the AIT. For example, the officer who assists the 
passenger does not see the image that the technology produces, and the 
officer who views the image is remotely located in a secure resolution 
room and does not see the passenger. Officers evaluating images are not 
permitted to take cameras, cell phones, or photo-enabled devices into 
the resolution room. To further protect passengers' privacy, ways have 
been introduced to blur the passengers' images. The millimeter-wave 
technology blurs all facial features, and the backscatter X-ray 
technology has an algorithm applied to the entire image to protect 
privacy. Further, TSA has stated that the AIT's capability to store, 
print, transmit, or save the image will be disabled at the factory 
before the machines are delivered to airports, and each image is 
automatically deleted from the system after it is cleared by the 
remotely located security officer. Once the remotely located officer 
determines that threat items are not present, that officer communicates 
wirelessly to the officer assisting the passenger. The passenger may 
then continue through the security process. Potential threat items are 
resolved through a directed physical pat-down before the passenger is 
cleared to enter the sterile area.\7\ In addition to privacy concerns, 
the AITs are large machines, and adding them to the checkpoint areas 
will require additional space, especially since the operators are 
physically segregated from the checkpoint to help ensure passenger 
privacy. Adding a significant number of additional AITs to the existing 
airport infrastructure could impose additional challenges on airport 
operators.
---------------------------------------------------------------------------
    \7\ TSA stated that it continues to evaluate possible display 
options that include a ``stick figure'' or ``cartoon-like'' form to 
provide greater privacy protection to the individual being screened 
while still allowing the unit operator or automated detection 
algorithms to detect possible threats. DHS is working directly with 
technology providers to develop advanced screening algorithms for the 
AIT that would utilize Automatic Target Recognition to identify and 
highlight possible threats.
---------------------------------------------------------------------------
TSA Recently Reported Efforts to Strengthen Its Operational Test and 
        Evaluation Process, But It Is Not Clear Whether TSA Has Fully 
        Evaluated the Relative Security Benefits and Costs of the AIT
    In October 2009, we reported that TSA had relied on a screening 
technology in day-to-day airport operations that had not been proven to 
meet its functional requirements through operational testing and 
evaluation, contrary to TSA's acquisition guidance and a knowledge-
based acquisition approach.\8\ We also reported that TSA had not 
operationally tested the AITs at the time of our review, and we 
recommended that TSA operationally test and evaluate technologies prior 
to deploying them.\9\ In commenting on our report, TSA agreed with this 
recommendation. Although TSA does not yet have a written policy 
requiring operational testing prior to deployment, a senior TSA 
official stated that TSA has made efforts to strengthen its operational 
test and evaluation process and that TSA is now complying with DHS's 
current acquisition directive that requires operational testing and 
evaluation be completed prior to deployment.\10\ According to 
officials, TSA is now requiring that AIT are to successfully complete 
both laboratory tests and operational tests prior to deployment.
---------------------------------------------------------------------------
    \8\ http://www.gao.gov/products/GAO-10-128.
    \9\ Operational testing refers to testing in an operational 
environment in order to verify that new systems are operationally 
effective, supportable, and suitable.
    \10\ DHS Acquisition Management Directive 102-01, Jan. 20, 2010.
---------------------------------------------------------------------------
    As we previously reported, TSA's experience with the explosives 
trace portal (ETP), or ``puffers,'' demonstrates the importance of 
testing and evaluation in an operational environment.\11\ The ETP 
detects traces of explosives on a passenger by using puffs of air to 
dislodge particles from the passenger's body and clothing that the 
machine analyzes for traces of explosives. TSA procured 207 ETPs and in 
2006 deployed 101 ETPs to 36 airports, the first deployment of a 
checkpoint technology initiated by the agency.\12\ TSA deployed the 
ETPs even though tests conducted during 2004 and 2005 on earlier ETP 
models suggested that they did not demonstrate reliable performance. 
Furthermore, the ETP models that were subsequently deployed were not 
tested to prove their effective performance in an operational 
environment, contrary to TSA's acquisition guidance, which recommends 
such testing. As a result, TSA procured and deployed ETPs without 
assurance that they would perform as intended in an operational 
environment. TSA officials stated that they deployed the machines 
without resolving these issues to respond quickly to the threat of 
suicide bombers. In June 2006 TSA halted further deployment of the ETP 
because of performance, maintenance, and installation issues. According 
to a senior TSA official, as of December 31, 2009, all but 9 ETPs have 
been withdrawn from airports, and 18 ETPs remain in inventory.
---------------------------------------------------------------------------
    \11\ We have previously reported that deploying technologies that 
have not successfully completed operational testing and evaluation can 
lead to cost overruns and underperformance. In addition, our reviews 
have shown that leading commercial firms follow a knowledge-based 
approach to major acquisitions and do not proceed with large 
investments unless the product's design demonstrates its ability to 
meet functional requirements and be stable. The developer must show 
that the product can be manufactured within cost, schedule, and quality 
targets and is reliable before production begins and the system is used 
in day-to-day operations. See http://www.gao.gov/products/GAO-10-128 
and GAO, Best Practices: Using a Knowledge-Based Approach to Improve 
Weapon Acquisition, http://www.gao.gov/products/GAO-04-386SP 
(Washington, DC: Jan. 2004).
    \12\ TSA deployed the ETPs from January to June 2006.
---------------------------------------------------------------------------
    Following the completion of our review, TSA officials told us that 
the AIT successfully completed operational testing at the end of 
calendar year 2009 before its deployment was fully initiated. The 
official also stated that the AIT test results were provided and 
reviewed by DHS's Acquisition Review Board prior to the board approving 
the AIT deployment. According to TSA's threat assessment, terrorists 
have various techniques for concealing explosives on their persons, as 
was evident in Mr. Abdulmutallab's attempted attack on December 25, 
when he concealed an explosive in his underwear. While TSA officials 
stated that the laboratory and operational testing of the AIT included 
placing explosive material in different locations on the body,\13\ it 
remains unclear whether the AIT would have been able to detect the 
weapon Mr. Abdulmutallab used in his attempted attack based on the 
preliminary TSA information we have received. We are in the process of 
reviewing these operational tests to assess the AIT's detection 
capabilities and to verify that TSA successfully completed operational 
testing of the AIT.
---------------------------------------------------------------------------
    \13\ The results of TSA's laboratory and operational testing are 
classified.
---------------------------------------------------------------------------
    In addition, while TSA officials stated that the AITs performed as 
well as physical pat-downs in operational testing, TSA officials also 
reported they have not conducted a cost-benefit analysis of the 
original or revised AIT deployment strategy. We reported in October 
2009 that TSA had not conducted a cost-benefit analysis of checkpoint 
technologies being researched and developed, procured, and deployed and 
recommended that it do so. DHS concurred with our recommendation. Cost-
benefit analyses are important because they help decision makers 
determine which protective measures, for instance, investments in 
technologies or in other security programs, will provide the greatest 
mitigation of risk for the resources that are available. TSA officials 
stated that a cost-benefit analysis was not completed for the AIT 
because one is not required under DHS acquisition guidance. However, 
these officials reported that they had completed, earlier in the 
program, a life-cycle cost estimate and an analysis of alternatives for 
the AIT as required by DHS, which, according to agency officials, 
provides equivalent information to a cost-benefit analysis. We are in 
the process of reviewing the alternatives analysis that was completed 
in 2008 and life-cycle cost estimates which TSA provided to us on March 
12, 2010, to determine the extent to which these estimates reflect the 
additional costs to staff these units. We estimate that, based on TSA's 
fiscal year 2011 budget request and current AIT deployment strategy, 
increases in staffing costs due to doubling the number of AITs that TSA 
plans to deploy could add up to $2.4 billion over the expected service 
life of this investment.\14\
---------------------------------------------------------------------------
    \14\ To estimate the cost of the additional staff needed to operate 
the AIT machines during their service life as a result of TSA's 
increased deployment of the AIT, we used information in the President's 
budget request for fiscal year 2011 and from interviews with TSA 
officials. We identified staffing costs to operate each AIT ($369,764) 
and multiplied this figure by the number of additional AITs that TSA 
has recently planned to deploy by 2014 (922 units) to calculate the 
additional staffing costs, which equaled $340,922,408. We then 
multiplied the additional staffing costs of $340,922,408 by 7 years to 
calculate the additional staffing cost to operate additional AIT units 
during their expected service life, which equaled $2,386,456,856.
---------------------------------------------------------------------------
    While we recognize that TSA is taking action to address a 
vulnerability of the passenger checkpoint exposed by the December 25, 
2009, attempted attack, we continue to believe that, given TSA's 
expanded deployment strategy, conducting a cost-benefit analysis of 
TSA's AIT deployment is important. An updated cost-benefit analysis 
would help inform TSA's judgment about the optimal deployment strategy 
for the AITs, as well as provide information to inform the best path 
forward, considering all elements of the screening system, for 
addressing the vulnerability identified by this attempted terrorist 
attack.

  TSA HAS MADE PROGRESS IN SECURING AIR CARGO AND AIRPORT ACCESS, BUT 
                           CHALLENGES REMAIN

TSA Has Made Progress in Meeting the Air Cargo Screening Mandate, But 
        Faces Participation, Technology, Oversight, and Inbound-Cargo 
        Challenges
    As we previously reported in March 2009, based on preliminary 
observations from ongoing work, TSA has taken several key steps to meet 
the statutory mandate to screen 100 percent of air cargo transported on 
passenger aircraft by August 2010.\15\ Among the steps that TSA has 
taken to address domestic air cargo screening, the agency has revised 
its security programs to require more cargo to be screened; created the 
Certified Cargo Screening Program (CCSP), a voluntary program to allow 
screening to take place earlier in the shipping process and at various 
points in the air cargo supply chain--including before the cargo is 
consolidated; issued an interim final rule, effective November 16, 
2009, that, among other things, codifies the statutory air cargo 
screening requirements of the 9/11 Commission Act and establishes 
requirements for entities participating in the CCSP;\16\ established a 
technology pilot program to operationally test explosives trace 
detection (ETD) and X-ray technology;\17\ and expanded its explosives 
detection canine program.
---------------------------------------------------------------------------
    \15\ GAO-09-422T. The Implementing Recommendations of the 9/11 
Commission Act of 2007 (9/11 Commission Act)requires that by August 
2010, 100 percent of cargo--domestic and inbound--transported on 
passenger aircraft be physically screened. The 9/11 Commission Act 
establishes minimum standards for screening air cargo and defines 
screening for purposes of the air cargo screening mandate as a physical 
examination or nonintrusive methods of assessing whether cargo poses a 
threat to transportation security. Solely performing a review of 
information about the contents of cargo or verifying the identity of 
the cargo's shipper does not constitute screening for purposes of 
satisfying the mandate. See Pub. L. No. 110-53,  1602(a), 121 Stat. 
266, 477-79 (codified at 49 U.S.C.  44901(g)). For the purposes of 
this statement, domestic air cargo refers to cargo transported by air 
within the United States and from the United States to a foreign 
location by both U.S. and foreign-based air carriers; and in-bound 
cargo refers to cargo transported by U.S. and foreign-based air 
carriers from a foreign location to the United States.
    \16\ See Air Cargo Screening, 74 Fed. Reg. 47672 (Sept. 16, 2009).
    \17\ ETD requires human operators to collect samples of items to be 
screened with swabs, which are chemically analyzed to identify any 
traces of explosives material.
---------------------------------------------------------------------------
    While these steps are encouraging, TSA faces several challenges in 
meeting the air cargo screening mandate. First, although industry 
participation in the CCSP is vital to TSA's approach to move screening 
responsibilities across the U.S. supply chain, the voluntary nature of 
the program may make it difficult to attract program participants 
needed to screen the required levels of domestic cargo. Second, while 
TSA has taken steps to test technologies for screening and securing air 
cargo, it has not yet completed assessments of the various technologies 
it plans to allow air carriers and program participants to use in 
meeting the August 2010 screening mandate. According to TSA officials, 
several X-ray and explosives detection systems (EDS) technologies 
successfully passed laboratory testing, and TSA placed them on a 
December 2009 list of qualified products that industry can use to 
screen cargo after August 2010.\18\ TSA plans to conduct field testing 
and evaluation of these technologies in an operational environment. In 
addition, TSA plans to begin laboratory testing for ETD, Electronic 
Metal Detection (EMD), and additional X-ray technologies in early 2010, 
and anticipates including these technologies on the list of qualified 
products the industry can use by the summer of 2010, before proceeding 
with operational testing.\19\ As we previously reported, based on 
preliminary observations from on-going work, X-ray and ETD 
technologies, which have not yet been fully tested for effectiveness, 
are currently being used by industry participants to meet air cargo 
screening requirements.\20\ We are examining this issue in more detail 
as part of our on-going review of TSA's air cargo security efforts, to 
be issued later this year.
---------------------------------------------------------------------------
    \18\ EDS uses computer-aided tomography X-rays to examine objects 
inside baggage and identify the characteristic signatures of threat 
explosives.
    \19\ EMD devices are capable of detecting metallic-based 
explosives, such as wires, within a variety of perishable commodities 
at the cargo-piece, parcel, and pallet level.
    \20\ http://www.gao.gov/products/GAO-09-422T.
---------------------------------------------------------------------------
    Third, TSA faces challenges overseeing compliance with the CCSP due 
to the size of its current Transportation Security Inspector (TSI) 
workforce. Under the CCSP, in addition to performing inspections of air 
carriers and freight forwarders, TSIs are to also perform compliance 
inspections of new regulated entities that voluntarily become certified 
cargo screening facilities (CCSF), as well as conduct additional CCSF 
inspections of existing freight forwarders. TSA officials have stated 
that the agency is evaluating the required number of TSIs to fully 
implement and oversee the program. Completing its staffing study may 
help TSA determine whether it has the necessary staffing resources to 
ensure that entities involved in the CCSP are meeting TSA requirements 
to screen and secure air cargo.\21\ As part of our on-going work, we 
are exploring to what extent TSA is undertaking a staffing study.
---------------------------------------------------------------------------
    \21\ For additional information on TSA's staffing study, see GAO, 
Aviation Security: Status of Transportation Security Inspector 
Workforce, http://www.gao.gov/products/GAO-09-123R (Washington DC: Feb. 
6, 2009).
---------------------------------------------------------------------------
    Finally, TSA has taken some steps to meet the screening mandate as 
it applies to in-bound cargo but does not expect to achieve 100 percent 
screening of inbound cargo by the August 2010 deadline. TSA revised its 
requirements to, in general, require carriers to screen 50 percent of 
nonexempt inbound cargo. TSA also began harmonization of security 
standards with other nations through bilateral and quadrilateral 
discussions.\22\ In addition, TSA continues to work with Customs and 
Border Protection (CBP) to leverage an existing CBP system to identify 
and target high-risk air cargo. However, TSA does not expect to meet 
the mandated 100 percent screening level by August 2010. This is due, 
in part, to challenges TSA faces in harmonizing the agency's air cargo 
security standards with those of other nations. Moreover, TSA's 
international inspection resources are limited. We will continue to 
explore these issues as part of our on-going review of TSA's air cargo 
security efforts, to be issued later this year.
---------------------------------------------------------------------------
    \22\ The term harmonization is used to describe countries' efforts 
to coordinate their security practices to enhance security and increase 
efficiency by avoiding duplication of effort.
---------------------------------------------------------------------------
TSA Has Taken Actions to Strengthen Airport Security, but Faces 
        Challenges That Include Assessing Risk and Evaluating Worker 
        Screening Methods
    In our September 2009 report on airport security, we reported that 
TSA has implemented a variety of programs and protective actions to 
strengthen the security of commercial airports.\23\ For example, in 
March 2007, TSA implemented a random worker screening program--the 
Aviation Direct Access Screening Program (ADASP)--Nation-wide to 
enforce access procedures, such as ensuring that workers do not possess 
unauthorized items when entering secured areas.\24\ In addition, TSA 
has expanded requirements for background checks and for the population 
of individuals who are subject to these checks, and has established a 
statutorily directed pilot program to assess airport security 
technology.\25\
---------------------------------------------------------------------------
    \23\ GAO, Aviation Security: A National Strategy and Other Actions 
Would Strengthen TSA's Efforts to Secure Commercial Airport Perimeters 
and Access Controls, http://www.gao.gov/products/GAO-09-399 
(Washington, DC: Sept. 30, 2009).
    \24\ For the purposes of this statement ``secured area'' is used 
generally to refer to areas specified in an airport security program 
that require restricted access. See 49 C.F.R.  1540.5, 1542.201.
    \25\ According to TSA officials, the agency established this 
program in response to a provision enacted through the Aviation and 
Transportation Security Act. See Pub. L. No. 107-71  106(d), 115 Stat. 
at 610 (codified at 49 U.S.C.  44903(c)(3)).
---------------------------------------------------------------------------
    As we reported in September 2009, while TSA has taken numerous 
steps to enhance airport security, it continues to face challenges in 
several areas, such as assessing risk, evaluating worker screening 
methods, addressing airport technology needs, and developing a unified 
National strategy for airport security.\26\ For example, while TSA has 
taken steps to assess risk related to airport security, it has not 
conducted a comprehensive risk assessment based on assessments of 
threats, vulnerabilities, and consequences, as required by DHS's 
National Infrastructure Protection Plan. To address these issues, we 
recommended, among other things, that TSA develop a comprehensive risk 
assessment of airport security and milestones for its completion, and 
evaluate whether the current approach to conducting vulnerability 
assessments appropriately assesses vulnerabilities. DHS concurred with 
these recommendations and stated that TSA is taking actions to 
implement them.
---------------------------------------------------------------------------
    \26\ http://www.gao.gov/products/GAO-09-399.
---------------------------------------------------------------------------
    Our September 2009 report also reported the results of TSA efforts 
to help identify the potential costs and benefits of 100 percent worker 
screening and other worker screening methods.\27\ In July 2009 TSA 
issued a final report on the results and concluded that random 
screening is a more cost-effective approach because it appears 
``roughly'' as effective in identifying contraband items at less cost 
than 100 percent worker screening.\28\ However, the report also 
identified limitations in the design and evaluation of the program and 
in the estimation of costs, such as the limited number of participating 
airports, the limited evaluation of certain screening techniques, the 
approximate nature of the cost estimates, and the limited amount of 
information available regarding operational effects and other costs. 
Given the significance of these limitations, we reported in September 
2009 that it is unclear whether random worker screening is more or less 
cost effective than 100 percent worker screening. In addition, TSA did 
not document key aspects of the pilot's design, methodology, and 
evaluation, such as a data analysis plan, limiting the usefulness of 
these efforts. To address this, we recommended that TSA ensure that 
future airport security pilot program evaluation efforts include a 
well-developed and well-documented evaluation plan, to which DHS 
concurred.
---------------------------------------------------------------------------
    \27\ To respond to the threat posed by airport workers, the 
Explanatory Statement accompanying the DHS Appropriations Act, 2008, 
directed TSA to use $15 million of its appropriation to conduct a pilot 
program at seven airports. Explanatory Statement accompanying Division 
E of the Consolidated Appropriations Act, 2008, Pub. L. No. 110-161, 
Div. E, 121 Stat. 1844, 2042 (2007), at 1048. While the Statement 
refers to these pilot programs as airport employee screening pilots, 
for the purposes of this statement, we use ``worker screening'' to 
refer to the screening of all individuals who work at the airport.
    \28\ Transportation Security Administration, Airport Employee 
Screening Pilot Program Study: Fiscal Year 2008 Report to Congress 
(Washington, DC, July 7, 2009).
---------------------------------------------------------------------------
    Moreover, although TSA has taken steps to develop biometric worker 
credentialing, it is unclear to what extent TSA plans to address 
statutory requirements regarding biometric technology, such as 
developing or requiring biometric access controls at airports, 
establishing comprehensive standards, and determining the best way to 
incorporate these decisions into airports' existing systems.\29\ To 
address this issue, we have recommended that TSA develop milestones for 
meeting statutory requirements for, among other things, performance 
standards for biometric airport access control systems. DHS concurred 
with this recommendation. Finally, TSA's efforts to enhance the 
security of the Nation's airports have not been guided by a National 
strategy that identifies key elements, such as goals, priorities, 
performance measures, and required resources. To better ensure that 
airport stakeholders take a unified approach to airport security, we 
recommended that TSA develop a National strategy that incorporates key 
characteristics of effective security strategies, such as measurable 
goals and priorities, to which DHS concurred and stated that TSA is 
taking action to implement it.
---------------------------------------------------------------------------
    \29\ Among other things, the Intelligence Reform and Terrorism 
Prevention Act of 2004 directed TSA, in consultation with industry 
representatives, to establish comprehensive technical and operational 
system requirements and performance standards for the use of biometric 
identifier technology in airport access control systems. See Pub. L. 
No. 108-458,  4011, 118 Stat. 3638, 3712-14 (2004) (codified at 49 
U.S.C.  44903(h)(5)).
---------------------------------------------------------------------------
Project Newton May Result in New Explosives Testing Standards for TSA's 
        Screening Technology
    As we discussed in our October 2009 report, TSA and the DHS Science 
and Technology Directorate (S&T) are pursuing an effort--known as 
Project Newton--which uses computer modeling to determine the effects 
of explosives on aircraft and develop new requirements to respond to 
emerging threats from explosives.\30\ Specifically, TSA and S&T are 
reviewing the scientific basis of their current detection standards for 
explosives detection technologies to screen passengers, carry-on items, 
and checked baggage. As part of this work, TSA and S&T are conducting 
studies to update their understanding of the effects that explosives 
may have on aircraft, such as the consequences of detonating explosives 
on board an in-flight aircraft. Senior TSA and DHS S&T officials stated 
that the two agencies decided to initiate this review because they 
could not fully identify or validate the scientific support requiring 
explosives detection technologies to identify increasingly smaller 
amounts of some explosives over time as required by TSA policy. 
Officials stated that they used the best available information to 
originally develop detection standards for explosives detection 
technologies. According to these officials, TSA's understanding of how 
explosives affect aircraft has largely been based on data obtained from 
live-fire explosive tests on aircraft hulls at ground level. Officials 
further stated that due to the expense and complexity of live-fire 
tests, the Federal Aviation Administration, TSA, and DHS collectively 
have conducted only a limited number of tests on retired aircraft, 
which limited the amount of data available for analysis. As part of 
this on-going review, TSA and S&T are simulating the complex dynamics 
of explosive blast effects on an in-flight aircraft by using a computer 
model based on advanced software developed by the National 
laboratories. TSA believes that the computer model will be able to 
accurately simulate hundreds of explosives tests by simulating the 
effects that explosives will have when placed in different locations 
within various aircraft models. As discussed in our October 2009 
report, TSA and S&T officials expect that the results of this work will 
provide a much fuller understanding of the explosive detection 
requirements and the threat posed by various amounts of different 
explosives, and will use this information to determine whether any 
modifications to existing detection standards should be made moving 
forward. We are currently reviewing Project Newton and will report on 
it at a later date.
---------------------------------------------------------------------------
    \30\ http://www.gao.gov/products/GAO-10-128.
---------------------------------------------------------------------------
    Madam Chairwoman, that concludes my statement and I would be happy 
to answer any questions.

    Ms. Jackson Lee. The gentleman from Pennsylvania, the 
Ranking Member.
    Mr. Dent. Thank you, Madam Chairwoman. Thank you for 
getting things started. I appreciate it. Apologize for my 
tardiness. I would like to ask unanimous consent to deliver my 
opening statement at this time.
    Ms. Jackson Lee. Hearing no objection, so ordered. The 
gentleman is recognized for 5 minutes for his opening 
statement.
    Mr. Dent. Thank you, Madam Chairwoman, and happy St. 
Patrick's Day.
    While I am sure----
    Ms. Jackson Lee. Thank you. Happy St. Patrick's Day to 
everyone. Do you have your green tie?
    Mr. Dent. I have my green tie.
    Ms. Jackson Lee. Yes, you are.
    Mr. Dent. I do.
    Ms. Jackson Lee. I am in green, too. Thank you.
    Mr. Dent. Well, I am sure many in our--well, I am sure that 
many in our panels in the audience and perhaps even our staff 
are looking forward to the end of this workday. We have some 
pressing business, and I want to commend the Chairwoman for 
having such an important hearing. It is really very important.
    I think it is critical to recognize, however, that no 
matter what screening technologies that we deploy here in the 
United States, none of these--none of these would have stopped 
Umar Farouk Abdulmutallab from boarding Northwest Airlines 
Flight 253 in Amsterdam with powdered explosives concealed on 
his person.
    That responsibility fell to an overseas airport whose 
security, I might add, far exceeded minimum international 
security standards. For this reason I want to applaud Secretary 
Napolitano for her aggressive outreach to over 2 dozen 
countries since the attempted Christmas day attack in hopes of 
securing more stringent international minimal standards for 
aviation security.
    We should never shy away from taking whatever immediate 
actions are necessary to protect Americans at home and abroad. 
This is why I was pleased to learn that just last week the 
Secretary signed a joint declaration of understanding with 16 
other nations highlighting the need for the modernization of 
international aviation security standards.
    Secretary Napolitano said, ``The attempted terrorist attack 
on December 25 has global ramifications demonstrating the need 
for enhanced security standards, information sharing and 
screening measures throughout the international aviation 
system.'' I couldn't agree more.
    This is an incredibly positive first step, but it is only a 
first step. The key is making sure future actions match the 
rhetoric, and I hope to see more of this kind of international 
engagement in the future. As this Congress, and particularly 
this committee, learned the hard way with its ill-advised 
international mandates on 100 percent air and maritime cargo 
scanning, consultation, and collaboration with our 
international partners is absolutely critical to improving 
security in the United States over the long term.
    With respect to intradepartmental and external 
coordination, I recently asked my committee staff to take a 
closer examination of how the TSA communicates its needs at the 
Transportation Security Lab and the Department's Science and 
Technology Directorate. I also asked the staff to examine how 
those requirements were developed, how they are risk-informed, 
and if they include an open and honest dialogue with private 
industry.
    The committee staff summarized the process ``convoluted, 
confusing, and inconsistent.'' That is unfortunate. Over years 
after establishing the TSA with the passage of the Aviation and 
Transportation Security Act of 2001, I find this troubling. I 
hope we can explore ways to improve this process throughout 
this hearing.
    Today we have with us representatives of TSA, concerned 
stakeholders, and representatives of industry. This is a 
diversified hearing with diversified testimony that I hope will 
answer one fundamental question. How can we improve the 
processes that bring state-of-the-art technology to bear on our 
most pressing security threats as expeditiously as possible 
without sacrificing quality controls? I would ask each of our 
witnesses to answer that question during the course of today's 
hearing.
    Thank you again to our witnesses for joining us today.
    I yield back the balance of my time. Thank you for the 
indulgence, Madam Chairwoman.
    Ms. Jackson Lee. I thank the Ranking Member.
    I thank all the witnesses for their testimony.
    I remind each Member that he or she will have 5 minutes to 
question the panel, and I will now recognize myself for 
questions.
    Mr. Dent mentioned that we have a number of principals and 
stakeholders who are participating in this hearing today, and I 
add that we also are able to have an airport, one of the 
Nation's top airports, represented here today to contribute to 
what I think is a very vital discussion.
    Let me begin the questioning with Mr. Kane. There is 
representation, I believe, that you say that the Department of 
Homeland Security and TSA intend to purchase 1,000 of the body 
scanners. Is that my understanding, or is that projected budget 
request?
    Mr. Kane. We intend to purchase 500.
    Ms. Jackson Lee. You have 500 now, so you intend to have a 
total of 500?
    Mr. Kane. Then the fiscal year 2011 includes an additional 
500 in the administration's----
    Ms. Jackson Lee. So there are 1,000 over a 2-year period.
    Mr. Kane. Yes, ma'am.
    Ms. Jackson Lee. How do you intend to select the airports 
that will be a recipient of the scanners?
    Mr. Kane. We have gone through a process. Basically, we 
will use our risk prioritization process, but in this case you 
do phase constraints at airports. So these first 500 machines 
that we will be deploying this year, we have looked at the 
footprints, we have pulled out the designs for airports to look 
at the checkpoint footprint that they have.
    We are spreading them somewhat throughout the system to (1) 
get better coverage of people with these 500. We get about 35 
percent of passengers. But when you show up in an airport, you 
might have about a 90 percent chance of actually going through 
an AIT in the airport that you show up at, because we are 
targeting some of the larger airports down through the Cat-2s, 
so the Cat-Xs through the Cat-2s will have some.
    Then we look at how to make sure we don't impact 
throughput, and so we have done designs that will set a walk-
through metal detector alongside of the imaging technology, and 
we can use that as overflow device. So again, you won't know if 
you are going to get offered up to the imaging technology, but 
you may end up going through a walk-through metal detector as 
well.
    After those first 500, we are working with industry to get 
auto detection capability that we would like to see the 
industry produce that, and (1) retrofit the 500 that we will 
put out into the field, and then for the next 500 we would like 
to see that capability in place by the time we deploy them.
    Ms. Jackson Lee. Do you have the list of the airports, or 
are you in the process of reviewing them as we speak?
    Mr. Kane. I don't have the list with me. We have announced 
11 of those airports. We have a longer list than that, a more 
complete list than that. Some of them will probably change 
around as reality meets design plans. That is when we go out 
and work with them.
    Ms. Jackson Lee. Well, would you provide this committee 
with both the process by which you made this election and as 
well the list?
    Mr. Kane. Yes, ma'am.
    Ms. Jackson Lee. If you could do that as soon as possible, 
please.
    In October 2009 the GAO reported that inconsistent 
communication, the lack of an overarching test and evaluation 
strategy has limited S&T's and TSA's ability to coordinate 
effectively with one another. What, if anything, has DHS done 
to facilitate communication and to improve coordination among 
TSA and S&T? What are the challenges that remain?
    Mr. Kane. I think we have done a tremendous amount of work 
to mature those processes and that relationship with S&T in 
that oversight that they provide of our operational test and 
evaluation for the AIT in particular. We have worked through 
our acquisition process, we have tested it in the labs, we have 
tested it in our integration facility, and we have tested it 
out in the field.
    Those test plans--while some of the testing is done by S&T, 
the test plans for out in the field are reviewed, and the 
results of those are reviewed before we can make that 
investment decision in the investment process that DHS manages. 
So I think we have, you know, we are not where GAO reported we 
were back in October 2009 in this procurement or in our other 
procurements that I talked about.
    Ms. Jackson Lee. Do you have a direct point that you can 
give to this committee that says that the communication between 
S&T and TSA has improved? What is that one point?
    Mr. Kane. When I go to the acquisition review board with 
the deputy secretary, S&T's representative for test and 
evaluation is sitting across the room, and they weigh in on 
those results that we are producing for making that investment 
decision, so we clearly have the communication sitting right in 
the same room with us when we are having our oversight within 
the Department.
    Ms. Jackson Lee. Let me quickly thank you.
    Mr. Buswell, for AIT, the auto detect technology that is 
being piloted at the Amsterdam airport appears to eliminate 
most privacy issues that have been raised by introducing human 
screeners into the process only when prohibited items are 
detected. What is your opinion of the auto detect technology 
and what is S&T's current and planned role with this 
technology? Will this be piloted in the United States?
    Mr. Buswell. Thank you, Madam Chairwoman. The decision on 
whether or not to pilot the technology is not ours. It will be 
TSA's. It will be based upon independent test and evaluation of 
those algorithms when they are ready at TSL and in the field 
that determine--and I would yield to Mr. Kane--but the criteria 
that we have discussed is it has to be as least as good as the 
human operator monitoring those images. So we won't deploy and 
rely on automatic target recognition algorithms that do a worse 
job than the human operators. Security is why we have these 
pieces of equipment.
    Ms. Jackson Lee. The human operators are the TSO officers?
    Let me move quickly to Mr. Lord. My time is running out. 
GAO gave a very extensive report.
    As I do that, let me submit into the record the statement--
ask unanimous consent to submit into the record the statement 
of Colleen M. Kelley, National President, National Treasury 
Employees Union. Hearing no objection, this statement is put 
into the record.
    [The statement of the National Treasury Employees Union 
follows:]

 Statement of Colleen M. Kelley, National President, National Treasury 
                            Employees Union
                             March 17, 2010

    Madam Chairwoman and Ranking Member Dent, thank you for allowing me 
to share some thoughts on checkpoint security. As National President of 
NTEU, I represent thousands of TSOs at over 40 airports. Many of my 
members came to TSA when it was created, not long after 9/11. They came 
to TSA because they wanted to help keep this country safe. Despite the 
many hardships endured by TSOs--low pay, high on-the-job injury rates, 
terrible morale due to a culture of distrust--I think you would agree 
that they do an excellent job keeping us safe.
    I believe that people, not technology, are our most important asset 
in combating terrorism. We need adequate staff and we need adequate 
training for that staff, and we need to treat them with dignity.
    I met with my members recently, and we talked about the AIT 
machines that TSA is installing as a more efficient method of detecting 
objects hidden by terrorists. The TSA budget requests almost $530 
million for fiscal year 2011 to purchase, install, and operate these 
machines. While we applaud the effort to upgrade technology and the 
increased staffing to accompany the machines, we would urge the 
committee to ensure that the machines are adequately tested before 500 
more are purchased. GAO has indicated that TSA has not been able to 
verify how effective AIT scanners will be in detecting hidden 
explosives, for example. If AITs are used in primary screening, and 
they have vulnerabilities that have not been fully investigated, we 
will have wasted a vast sum of money.
    With the increased staffing requested in the budget, there should 
be a major emphasis on training. I am very concerned about the training 
being conducted for these machines and we have not heard from TSA about 
the training program they have prepared. For the machines we have now, 
both at the checkpoint and in baggage, training is inadequate. Most of 
the training is done through on-line computers. In many of the 
airports, the number of computers is inadequate. Sometimes they are 
very far away from the work area, in a location difficult to get to. 
There is very little hands-on training. My members tell me that they 
find it much more helpful to be taught by a person, so that you can ask 
questions and discuss methods. Computers fulfill the paper requirement 
for training, but it is not ideal. If TSA put as much effort into 
training its TSOs as it does in evaluating its TSOs, it would have a 
stellar training program.
    TSOs have a lot of experience in checkpoint screening, but without 
collective bargaining, their ideas are not considered, and that is 
TSA's loss. We look forward to a permanent administrator at TSA, who 
will provide much needed direction and leadership.
    Collective bargaining for TSOs remains NTEU's main goal. NTEU 
appreciates the effort of your subcommittee in assessing checkpoint 
security. We know that you believe, as we do, that the people who work 
at TSA are its greatest asset. We are most secure when people drive 
technology, rather than technology driving people.

    Ms. Jackson Lee. As I put it into the record, Mr. Lord 
mentions that on all of this new technology, particularly the 
body scanners, AIT, if the personnel are not trained, right now 
it is represented the training is done by computers. Can you 
comment on the need for the training of the users of this 
equipment?
    Could you quickly comment on the critical problem of the 
relationship between TSA and the DHS S&T Directorate and how 
can lawmakers or officials address this problem--training and 
the utilization of the product and the communication issue?
    Mr. Buswell. Regarding your first question, Madam 
Chairwoman, the training is a very important component of AIT 
usage. Obviously, it does not have auto alarm capability. 
Therefore, it means you have to train people, and train, so it 
is very important you have a clear, consistent, systematic 
program. That is something that is not included in the hardware 
cost of AIT. Obviously, this is something that interests us.
    Any time you have a human involved in anything, it 
introduces some inconsistencies potentially in your process, as 
humans are prone to, you know, error, distractions, et cetera. 
So I think a lot of people are focusing on the technology, but 
you have to be mindful you need an image operator to interpret 
the results. So that potentially introduces some inconsistency.
    Your second question--this coordination issue between S&T 
and TSA and TSL--this is one we reported on extensively in our 
October 2009 report. The Department agreed that the 
coordination process needed to be made more transparent and 
streamlined. I think it is good news.
    Robin is a part of the ARB process. He chairs the IPT 
Capstone priority setting process, but this is something we are 
going to have to continue to look at. Any time I see an 
organization chart with dotted line relationships, it always 
raises a question in my mind like who is in charge? That is 
what one of the issues we highlighted in our report. The roles 
and responsibilities of all the players were not clear. Sounds 
like they have taken steps to address that, but I tend to be 
conservative on this, so let us give it a little more time.
    Ms. Jackson Lee. Thank you.
    Mr. Dent is recognized for 5 minutes.
    Mr. Dent. Thank you, Madam Chairwoman.
    Although this hearing is really about checkpoint screening, 
committee staff has been advised that there is a vendor that 
has a promising piece of technology that could be used for the 
screening of palletized air cargo, but that S&T has decided not 
to invest any further in its development. With the 100 percent 
screening mandate for air cargo looming, why has S&T decided 
not to expend any funds in development of technologies for 
palletized cargo, Mr. Buswell, if you could address that?
    Mr. Buswell. Sure. I don't know which technology that you 
are specifically referring to, but we are in fact investing a 
significant amount of money in air cargo screening, about $11 
million this year, and in the President's request for fiscal 
year 2011 there is about $15 million for air cargo screening 
technology.
    The focus of that screening technology is at looking at 
palletized and break bulk screening--through trace detection, 
primarily in mass spectrometry sorts of devices.
    The other aspect of cargo that beyond the technology is 
very important is a canine aspect of explosive detection in 
cargo. We are investing also in advanced training aids. These 
are one of the highest priorities on TSA's list for our 
investment--training aids for canines as well as looking at how 
do we determine which canines are going to be good explosive 
detection instruments.
    Are there certain behavioral characteristics that we can 
look at as puppies, you know? Are there DNA markers, those 
sorts of things that help us identify which, you know, which of 
these animals will go through the fairly expensive and 
extensive training?
    So we are in fact investing. We are interested in all 
technologies. That is, you know, the private sector 
involvement, I think, is a win-win-win for the Department, the 
private sector, and the country, when you can get them 
involved.
    My experience is the private sector involvement--we get 
results more quickly with the private sector involved. They 
have a profit motive that gets them to the, you know, gets them 
to the end point quickly. In fact under circumstances we can do 
this with very minimal investment of Government dollars with 
establishing the right kind of requirements and then offering 
our services at the TSL or other places to test their 
technology when it is ready.
    If you have a constituent that thinks they have an answer, 
we are ready to listen. In fact, we have a long-range BAA that 
is open and provides an easy vehicle for them to get in front 
of us to look at their technology.
    Mr. Dent. Well, thank you. Thank you, and appreciate that.
    Mr. Kane, the President's fiscal year 2011 budget includes 
$214 million in funding for an additional 500 AIT machines and 
$235 million for an additional 3,700 FTEs to operate the 
machines. We are concerned with the funding request for 
additional personnel, as we all are.
    Does the request for additional personnel take into account 
deficiencies that may be gained by eventually reducing the 
number of magnetometers that will be removed or replaced with 
the AIT machines?
    Mr. Kane. The request for personnel includes about an 
additional $1.25 person per checkpoint lane that has an AIT 
with the walk-through metal detector standing next to it. But 
it presumes we will have that auto detection capability as 
well.
    Mr. Dent. So your funding request does take into account, 
then, the fewer personnel that will be needed when the AIT 
machines become operational with that auto detect feature?
    Mr. Kane. Yes, sir.
    Mr. Dent. Okay. Then, finally, did TSA look to identify any 
efficiencies in its current staffing models for it opted to ask 
Congress for the 3,700 new FTEs?
    Mr. Kane. Congressman, yes, sir. TSA has been looking at 
those staffing models over the years quite extensively, and 
now, if you look at where we were a few years ago with 44,000 
people in checkpoints and in the baggage screening rooms, that 
number is more like 39,000, and we have invested many of those 
resources into the other layers of security.
    We continue to get savings with the inline systems that we 
are putting into airports, and we always reinvest those savings 
into other areas and take into account those savings with the 
additional requests that we have.
    Mr. Dent. Finally, committee staff has reviewed 
correspondence between TSA and a certain vendor that 
essentially denied the vendor the opportunity to submit a white 
paper in technology for consideration, because a TSA 
solicitation was no longer active. The vendor was told to look 
on the Federal business opportunities website for future 
solicitations. I have a few questions related to this matter, 
which I think illustrates the problem.
    Isn't TSA potentially missing promising or better and more 
efficient technologies by not accepting white papers in 
technologies on a rolling basis? Isn't that shortsighted?
    Mr. Kane. We need to manage both of those things, Mr. 
Congressman. You know, I am a procurement organization to a 
large extent, and so most of the solicitations I do are to buy 
things already established on those QPLs.
    But recognizing your concern and our own concerned with 
that, we look to S&T to do a lot of this type of work for us, 
so a lot of times I will refer folks back to S&T. But just this 
week TSA did issue a broad agency announcement that would allow 
such white papers to be submitted, and we would do an 
evaluation of them and determine whether they would be an 
effective capability that we would want to bring into the TSA 
fleet. Then we can explore further through that procurement 
process.
    Ms. Jackson Lee. The gentleman yields back.
    I would now like to recognize the Chairman of the full 
committee, Chairman Bennie Thompson.
    Mr. Thompson. Thank you very much, Madam Chairwoman. We 
have had an interesting set of witnesses, as well as some 
questions.
    Let me go around very quickly. We are deploying this new 
technology for the next thousand machines--500 out of last 
year's, 500 out of this. What is the cost? Who will bear the 
cost of modifications at airports for these machines? What is 
the formula for the modification, Mr. Kane?
    Mr. Kane. Mr. Chairman, we are looking at a number of 
different designs, and our goal through all of this is to 
minimize any infrastructure costs at airports. We think with 
the design so that we are working and by getting auto detection 
and getting rid of the walk-through metal detector when we get 
the auto detection, we will be able to minimize the impact on 
airports.
    Minor infrastructure costs within the checkpoints, TSA 
works with the airports on who funds that. We are not planning 
to do major infrastructure programs to put the AITs into 
checkpoints.
    Mr. Thompson. Okay. If there is a cost, who does TSA expect 
to bear that cost for any modifications?
    Mr. Kane. I think if we get to the point where we find out 
we are going to have major infrastructure costs, we will have 
to have that conversation with an airport. TSA does not fund 
infrastructure costs at this point, though, and we have not in 
the past. So there is not an intent going forward to do that. 
The intent is to do designs that don't require that.
    Mr. Thompson. But you know we have had very few designs 
that don't cost airports money. You are aware of that. Am I 
correct?
    Mr. Kane. I would say much of the checkpoint technologies 
that we have invested in we work with the airports and pay the 
cost to install that equipment at the airports with little to 
no impact on the airport.
    Mr. Thompson. Well, there are some differences. We talk to 
airports all the time, and they say that they cost. So what I 
would like for you to do for us is take the 10 largest airports 
and provide this committee with whether or not those airports 
have had to incur costs locally in implementing any of this new 
technology.
    Mr. Kane. Mr. Chairman, we will definitely do that.
    Mr. Thompson. Okay.
    Next question is Mr. Lord talked about this same 
implementation process that somehow we didn't operationally 
test equipment before we installed it. Is he correct?
    Mr. Kane. We operationally tested the AIT, both the 
manufacturers that are on our qualified products list back in 
the late summer, early fall in the airports, and we produced 
those test results for the acquisition review board that I 
referred to earlier, and they were reviewed by Mr. Buswell's 
staff as well.
    Mr. Thompson. Mr. Lord, do you care to----
    Mr. Lord. Yes, that is correct. The technology I was 
referring to was technology that preceded the AIT deployment, 
the so-called explosive trace portals or puffers. In contrast 
to the experience with the puffers, TSA has subjected them to a 
much more rigorous testing process based on the documentation 
we have reviewed.
    Mr. Thompson. So you are satisfied with it.
    Mr. Lord. Yes.
    Mr. Thompson. Okay. Thank you.
    I am not saying whether this will be Mr. Buswell's question 
or Dr. Hallowell. We get comments from small businesses, 
medium-size businesses and some large that it just takes 
entirely too long to get new technologies through the system. 
Have we designed some kind of matrix or model that can give 
anybody who is interested in working in this area some idea of 
how long it might take?
    Mr. Buswell. Mr. Chairman, we can give them an estimate. 
Let me just say that when it comes to evaluating technology at 
the Transportation Security Laboratory, Dr. Hallowell has 
essentially three sources of input.
    One, it can come directly from TSA. In other words they 
have got a commercial product that they would like evaluated 
with respect to their desire, the capabilities, or their 
desired requirements. That is first.
    Second, we may have a developmental technology within S&T 
that is ready for developmental test and evaluation or even 
independent test and evaluation, and that would be an input.
    The third is industry coming straight to TSL and saying, 
``I have got the answer, and I would like you to evaluate my 
technology.''
    There are really two different paths that, regardless of 
where it is referred from, that we go through. One is on the 
developmental side, and I will call that research and 
developmental assessment or evaluation as opposed to true 
independent test and evaluation.
    That is very collaborative, done under a Cooperative 
research and development agreements generally with people who 
are interested in having their technology assessed, or a 
bailment, where they will just turn over the equipment, you 
know, for our use temporarily. We will be, you know, as I said, 
very collaborative with them and providing them test results, 
briefing them on the results, the performance of their 
equipment.
    When it becomes apparent that that equipment could solve a 
problem that TSA has or a requirement that TSA has established, 
then it enters the independent test and evaluation process. 
That is not collaborative. That is independent, and it is 
rigorous, and it is to the certification standards or the 
qualification standards that TSA has established.
    So once a technology enters that process, they may not hear 
anything for a few months while it goes through it. The time 
that it takes depends on the--depends on the flow of materials 
through the TSL. I will let Dr. Hallowell talk about that, if 
you would like.
    But they are somewhat resource constrained in their ability 
to--to throughput technology, so we haven't had to turn anyone 
away yet, but with the--with the increasing interest in this 
particular area, we are having to look at how we resource the 
lab, what kind of capital improvements we need to make at the 
lab in order to ensure that we can continue to provide that 
service for TSA and for the American people.
    So, you know, I appreciate the question, and it is 
something that I think about regularly.
    Dr. Hallowell, did you want to add anything on the time 
line?
    Ms. Hallowell. Mr. Chairman, good afternoon. I just wanted 
to add that one of the things that is a big criteria in terms 
of how fast something travels through the laboratory has to do 
with the technology readiness level as well.
    We see everything from things that are just beyond research 
concepts to bread boards to engineering prototypes, so 
depending upon the maturity level, it depends on how long it 
takes for that technology to grow and mature to the point where 
it is capable of going into independent test and evaluation.
    The role of the R&D test and evaluation portion of the 
laboratory is really to help our industrial partners mature 
technology. We do that very diligently. In many cases we offer 
up test articles such as IEDs or weapons or whatnot, so if 
there is any training involved so the technology can learn, if 
you will, develop the algorithms to actually find the bombs, 
that is available to them. So that can take a long time as 
well.
    Mr. Thompson. Well, ma'am, I apologize for asking questions 
that ended up with such lengthy answers, but can you provide 
the committee, as best you can--I understand it is dependent on 
the situation--the range that a company could expect to work 
with you before a decision is reached?
    What we hear is some of them have limited resources, and 
they are trying their best to comply with the request, but 
after they meet one, they say something else pops up. I 
wouldn't want us to miss out on some good technology because we 
were not clear as to how the vetting process for new technology 
goes.
    So if you can just provide the committee with your best 
experienced guess at the time, it would help.
    Ms. Hallowell. Well, let me respond to your question. We 
don't want to hinder any technology development, so we will 
certainly invite people to the laboratory regardless of how 
mature the technology is. But at the end of the day, there is a 
very rigorous protocol that is associated with TSA acquisition 
standards. That testing is done by the IT&E team, and it is a 
fairly rigid benchmark.
    We did try to help companies understand what those 
requirements are and to help them grow. Sometimes without being 
able to go to a classified level, it is difficult. But we do 
try to step them through that. My experiences are we have seen 
everything from 3 to 4 years in collaborative research and 
development agreements to short periods of time--5 or 6 months, 
depending upon the technology maturity level, to get to IT&E.
    Mr. Thompson. Thank you very much, Madam Chairwoman. I 
yield back. Thank you for being patient.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    I would like to recognize Mr. Austria for 5 minutes.
    Mr. Austria. Thank you, Madam Chairwoman.
    I appreciate our panel being here today and helping to 
clarify, I think, some of the concerns that we have had and the 
confusion about collaboration and working relationship between 
S&T, TSL, and TSA. In my opinion I think the process has not 
been clear, and it is not been accurately and practically 
defined. I appreciate you being here to help do that.
    So let me, if I could, kind of pick up where the Chairman 
was with his comments towards Dr. Hallowell, if I could. I 
thank you for being here, and I know you are highly regarded by 
the staff, and I understand the staff had a very good visit to 
the Transportation Security Lab a few months ago.
    But, Dr. Hallowell, the committee and I think some of the 
Members here are still concerned that despite best efforts and 
hard-working people at S&T and TSL and TSA, that the 
relationship between these parties is not adequately defined 
and working to the best possible extent.
    I guess in a perfect world, right, if you had an ideal 
situation, how should that relationship be between S&T, TSL, 
and TSA? How should that work? Has there been anything that has 
changed or caused more urgency since the attempted Christmas 
day bombing that between the agencies you are now working even 
better or have changed the way you are working? If you could 
comment on that, please.
    Ms. Hallowell. Yes, sir. I think that relationship is doing 
nothing but getting stronger and better even before the 
Christmas day incident. We have a program manager that works on 
my staff that spends half his time at either TSA or S&T that 
can directly communicate input from R&D land, from test and 
evaluation land, and at the same time can understand better 
what some of the concerns are from TSA. That has been very 
helpful.
    Obviously, the incident of Christmas day has brought us all 
very close together, and it is not just the Capstone meetings 
or the sub-IPT meetings associated with checkpoint, but we do 
have daily conversations from my laboratory to TSA across all 
sectors, including cargo, checkpoint, and checked baggage.
    Mr. Austria. If anyone else would like to comment on that 
as far as any new or promising technologies that you have been 
pursuing since the Christmas day event or any progress that you 
can report to this committee of things that you are doing 
differently now than prior to that incident?
    Ms. Hallowell. In terms of technology or processes? I am 
sorry, sir.
    Mr. Austria. Both, I think.
    Ms. Hallowell. Well, we have certainly accelerated some of 
the test and evaluation to accommodate what is required from 
TSA. We have been working very hard on the second round 
qualification testing for detection performances as it relates 
to AIT, which Mr. Kane talked about.
    We have been very involved otherwise with test and 
evaluation of explosive detection systems for checked baggage 
against a new certification standard that TSA has presented to 
us. So we have been quite busy in the laboratory and been doing 
double shifts, essentially, testing equipment.
    Mr. Austria. Thank you for that.
    Mr. Kane, let me ask you. TSA finalized a strategic plan 
for passenger checkpoint security in 2008, in August 2008. We 
understand that TSA has a risk-based approach to securing the 
most at-risk airports first. We also understand that the AIT or 
the advanced imaging technology has far superior detection 
capabilities than traditional metal detectors or detection.
    If you think back to 9/11 in the World Trade Center, what 
happened there we all know, but it seems as though--and I have 
read reports where New York City still remains one of the top 
terror targets in the Nation, yet there, you know, there are 
concerns about that there is not one AIT machine that has yet 
to be deployed in New York City airport.
    If you could comment on that and how that a risk-based 
approach, how this risk-based approach that you are taking is 
better protecting passengers.
    Mr. Kane. Congressman, the risk-based approach we are 
taking with AIT in particular, we are spreading it throughout 
the system, so the New York airports will be on that larger 
list that I promised the Chairwoman earlier to some level.
    We also need to face the constraints of what the airport, 
until we have auto detect capability, you know, being able to 
set an AIT next to a walk-through metal detector to make sure 
that you can still operate the airports with an AIT in the 
lanes. We are very sensitive to that. The folks who testify 
after us, I am certain are going to be very sensitive to that.
    So we are working with all the airports. The larger 
airports, certainly, are high-risk airports on the way we do 
our risk models, and we would like to get as many passengers as 
possible through AIT, so that drives us to larger airports as 
well.
    Mr. Austria. My time is up, so I will yield back to the 
Chairwoman.
    Ms. Jackson Lee. Thank the gentleman.
    I am now pleased to recognize the gentleman from Oregon, 
and as I understand it, served as the Chairperson of the 
Aviation Committee on T&I for a number of years, Mr. DeFazio.
    Mr. DeFazio. No, those were the bad old days. I was Ranking 
Member, but I was there when we conceived of the TSA.
    Ms. Jackson Lee. Oh, then I am half accurate. The Ranking 
Member, in my book, is equally placed. Thank you.
    Mr. DeFazio. Thank you, Madam Chairwoman.
    I have a question about the throughput on the AITs, because 
there seems to be considerable divergence. We are hearing from 
airports and others that they think that it is more like 45 
seconds throughput, and TSA is saying 15 seconds. Can someone 
address the discrepancy? Mr. Kane, perhaps?
    Mr. Kane. Congressman, I will address that, yes. Our 
modeling right now is around 20 to 22 seconds for AIT. It takes 
a few seconds in the machine--five-ish--and then that image 
operator we talked about takes time to review and interpret 
that image to determine whether is anomaly or not. So we have 
tested as one of the parameters that we measure in our 
operational test and evaluation.
    Throughput is, obviously, you know, it is not just 
important to airports. It is important to TSA operation as 
well. We can't do our business if we can't get people through 
the checkpoints. So it is around 20 seconds.
    If we get that auto detect--when we get that capability, 
that will speed that process as well. Then the other thing we 
are doing to manage the throughput that maybe I am just not 
doing a very good job so far of educating people about is the 
configurations for these first 500, and until we have an auto 
detection capability, will allow relief for going through the 
AIT versus going through a walk-through metal detector to 
ensure we managed that throughput at checkpoints and at the 
lanes with the AITs at checkpoints in particular.
    Mr. DeFazio. Okay. Then, but then there is the third 
variant, which is you allow someone who has been designated to 
an AIT to choose a pat-down. You are getting a fairly low rate 
of refusal for AIT?
    Mr. Kane. Yes, all of our testing today has shown over 98 
percent acceptance by the passengers that are offered to the 
AIT.
    Mr. DeFazio. I would be concerned about the 2 percent. Some 
it may be a privacy issue but, you know, knowing the pat-down 
regime now, I mean, at Heathrow I experienced much more 
intrusive pat-downs that are customarily conducted here in the 
United States, which probably would have found Mr. whatever-
his-name-was, you know, the explosive.
    But the way we do pat-downs, you probably wouldn't. So I 
would be concerned about those who were self-selecting out of 
the AIT. Now, does that cause you concern? Is there some, shall 
we say, more intrusive pat-down going on with those people?
    Mr. Kane. Congressman, I would rather talk about that in a 
closed session or offline, if I could, sir.
    Mr. DeFazio. Okay. Just so you hear my concern and you are 
accommodating it, but I would be happy to hear about it later.
    Mr. Kane. Yes, sir. We understand your concern very well.
    Mr. DeFazio. Okay. This new explosives trace device, the 
BLS-2, is that gate deployable?
    Mr. Kane. The bottle liquid scanner is a liquid scanner.
    Mr. DeFazio. Right.
    Mr. Kane. Yes, it is a desktop machine, so you could, 
similar to what we are doing with----
    Mr. DeFazio. Yes, well, because we have been doing these 
random things at gates with people. You acquire water in the 
terminal, okay, so you now have what you couldn't have brought 
through security outside. There is nothing to identify you 
bought it in the airport, and now you are being randomly, you 
know, searched with rubber gloves at the gate, and they pull 
out your 16-ounce bottle of water, and they put it back in, you 
know, if that could be a threat object. It would have been a 
threat object at regular security, but it isn't at the gate, 
because you could have bought it in the airport.
    So my question would be are we going to be deploying these 
technologies to the gates, if we are going to do the random 
selection at the gates? It seems to me it needs to be 
technology assisted, not rubber gloves stadium searches.
    Mr. Kane. Congressman, I will take that point as well, if I 
may. Any further discussion should probably be offline on that 
as well, though, sir.
    Mr. DeFazio. Okay.
    Mr. Kane. But I will again recognize the concern you 
addressed.
    Mr. DeFazio. Okay. I will try dogs. Are we optimally 
utilizing dogs? I have a friend on the Science Committee, and 
they had a very long discussion of the attempt to construct a 
dog's nose that was mechanical and how expensive it would be, 
how long it would take, and how difficult it is. I guess what 
my colleague said was, ``Well, why not more dogs?'' They said, 
``Well, dogs get tired.''
    You know, I mean, what kind of a shift can a dog do 
effectively? Can you address that? I hope that shouldn't be 
classified, because, you know, it is like they are not tracking 
anything.
    Mr. Kane. No, sir, but I am not the canine program manager, 
so I do apologize.
    Mr. DeFazio. Okay. All right.
    Mr. Kane. I am more into the technology realm, and as you--
--
    Mr. DeFazio. Okay. All right.
    Mr. Kane [continuing]. We haven't made those mechanical 
dogs yet.
    Mr. DeFazio. All right. But I just want to make sure that, 
yes, I am concerned about whether having been, you know, having 
dogs and knowing how difficult they are, sometimes the 
mechanical dog could be a real problem.
    Just one thing is blue sky under Capstone IPT, a next-
generation, fully automated checkpoints for detecting weapons 
and explosives on people for aviation, mass transit, public 
gathering venues, and other potential areas. I am just 
concerned when I see, like, all those things in one place, and 
it is going to be fully--it starts sounding like Pentagon 
acquisition of stuff that never works.
    I am hoping we are not putting, you know, I mean, either we 
are out with RFPs, but we are not actually doing the 
development or investing in the development ourselves, are we?
    Mr. Buswell. I will take one.
    Mr. DeFazio. Yes.
    Mr. Buswell. We are investing in what we are discussing as 
the next generation of checkpoint. That is fundamental science 
and technology. We are looking at that from really a standoff 
detection standpoint. We have got now checkpoints where we put 
our bags through X-ray machines, we put our people through 
metal detectors and advanced amateurs. We have behavior 
detection officers, who try and assess where there is mal 
intent on the part of people as they approach the checkpoint.
    So to what extent can we automate those things from a 
standoff position? Can we detect explosive traces from a 
distance? Can we detect the kinds of things that would be 
hidden under clothing that would be detectable at the 
checkpoint through the advanced imaging from a distance?
    The reason we think that that is so valuable in that it has 
application not just to the aviation security checkpoint, but 
security checkpoints in general, whether it be mass gatherings 
or public transportation, mass transportation, or other kinds 
of applications. Secret Service is very interested, obviously, 
for, you know, for obvious reasons and those sorts of things--
Customs and Border Protection.
    So this, you know, this serves the Homeland Security 
enterprise at large to develop this ability to detect people 
who mean to do harm and the things that they would mean to do 
harm with from a distance. We think that that is the, you know, 
if you talk about homeland security 2027, I mean, if our 
checkpoints in 2027 look the way that they look today, you 
know, I will--you can fire me, because I haven't done my job.
    So we are looking at the future.
    Mr. DeFazio. Okay. But I just want to make sure, you know, 
we have some known technologies we haven't fully deployed. We 
are not diverting a lot of money into this future blue sky kind 
of thing, which may or may not happen.
    You know, I mean, for instance, one last point, Madam 
Chairwoman, is I am really pleased to see that we are finally 
moving ahead with, you know, virtually, you know, comprehensive 
deployment of the advanced, you know, the AT X-ray at baggage 
screening.
    That is something that the workers have needed for years. I 
have been beating on that for years. We threw out the kind of 
machines we used in the airports from the Capitol 10 years ago, 
because they didn't meet standards, and they slowed everything 
down, because you have to put the bags and move the bag that 
all that. So I am pleased to see we are finally rolling those 
out comprehensively. If we can do it even a little quicker than 
that, it would be great. Thank you.
    Thank you, Madam Chairwoman.
    Ms. Jackson Lee. Thank the gentleman for his questions.
    Now to the very patient Member from New Mexico, Mr. Lujan. 
He is recognized for his 5 minutes.
    Mr. Lujan. Thank you, Madam Chairwoman, I think.
    Thank you to everyone who is also being here today.
    Mr. Kane, we know that liquid explosives are posing a 
significant risk, a higher risk than ever before as well. Can 
you tell me what the S&T Directorate is pursuing in new 
technology that could potentially identify explosives? I think 
that some of those were mentioned in testimony as well.
    In this specific case, can you describe how TSA has worked 
with S&T Directorate to define technical requirements and to 
coordinate the R&D and testing effort of this promising new 
technology?
    Mr. Kane. Congressman, yes, sir. First off, just to be 
clear, imaging technology that we are rolling out to the field 
does detect liquids, so that is a technology that will detect 
all nonmetallic threats and metallic threats on passengers, 
including liquids, powders, gels, all the things we have been 
talking about recently.
    The AT X-ray, those auto detect algorithms that we have 
been working with the manufacturers on, and S&T has been 
working with us and them on, include a liquid detection 
capability in there as well. They continue to work on 
developing those two an operational product that we can use in 
the field.
    I can't go too far, because our detection standards are 
certainly sensitive, you know, but our explosive detection 
systems that we are using down in the bag areas for your 
checked baggage, we are also working. S&T is doing a tremendous 
amount of data collection and testing to characterize threats 
so that we can include those types of threats in those areas as 
well.
    Mr. Lujan. Whoever wishes to answer this question, there 
was some discussion as far as the attention being brought to 
the number of metal detectors that will be deployed in other 
airports. Are there commercial airports now where passengers 
don't have to go through metal detectors to get on a plane?
    Mr. Kane. Not in the United States, certainly.
    Mr. Lujan. So will those metal detectors that we are 
talking about be deployed in the United States?
    Mr. Kane. I am sorry, Congressman. I am not sure I 
understood the question in terms of more metal detectors.
    Mr. Lujan. It sounds like at the beginning of the 
conversation today there was a commitment to the deployment of 
more metal detectors.
    Mr. Kane. No, it is more than leaving them behind for now. 
So we would like to replace the metal detectors or incorporate 
them into the imaging technology capability, but----
    Mr. Lujan. Very good. I just wanted to get that 
clarification.
    As the Chairman was talking about the importance of the 
time frame associated with the amount of time it takes to get 
technology through TSA, through TSL to be approved and 
certified, Dr. Hallowell, if you could provide a framework 
indicating the amount of time it takes for technology to be 
certified and approved by TSL and TSA for use in the field, if 
you could submit that to the committee.
    But if you could touch on as well, either Mr. Buswell or 
Dr. Hallowell, on the complexities associated with licensing 
and commercialization and how that impacts small business 
owners, entrepreneurs, scientists, physicists, other businesses 
that may be taking that technology out for deployment?
    Mr. Buswell. Yes, sir. I can talk about that little bit. 
The small businesses in this market space have a very difficult 
time, and it is because we talk about being able to produce, 
you know, 1,000 advanced imaging technology devices over a 2-
year period. Small businesses have a very difficult time doing 
that.
    What they are very good at, and what you point out 
correctly, is the innovation. They are excellent at innovation. 
That is where true innovation happens. The big companies have 
less of a stomach for that. You know, my private sector 
history, I worked for General Electric, and one of the things 
that I did for General Electric was looked at small businesses 
and the technologies that they were developing, because we 
truly believed that they were more innovative than we were ever 
going to be able to come up with.
    So licensing is one of the fundamental transition abilities 
that the small business has, working with a big equipment 
manufacturer to license their intellectual property or their 
ideas.
    There are other vehicles or tools that we can use within 
S&T to help them. I mentioned cooperative research and 
development agreements where we provide something, and they 
provide something--whatever can change hands except for the 
Government doesn't provide any money. I mean, that is 
essentially what a CRADA is.
    We can provide laboratory test facilities for their use. We 
can provide some technical expertise that can help them move 
things along. So there are a number of ways. For small 
businesses or for any size business, I would commend--we have 
put together a one-sheet piece of paper that--we have entitled 
it, ``The Constituent Guide to Doing Business with DHS Science 
and Technology.''
    So we will fire these off in 100-round bursts, if you like. 
We have got many here to help you help your constituents get in 
the door, because we don't care where the good ideas come from. 
We want to use them.
    Mr. Lujan. Thank you. Just, Mr. Buswell, I want to tell you 
thank you very much for your positive comments regarding MagViz 
as well. I think that will be a game-changing technology.
    Mr. Buswell. Mr. Kane just forgot to mention MagViz when he 
was talking about the liquid detection. We were all very 
enthusiastic about the half-scale testing that we think will go 
on this summer for MagViz.
    Mr. Lujan. I appreciate that.
    Madam Chairwoman, just one thing to point out that Mr. 
Buswell brought up is when we talk about the CRADAs, this is an 
area where back in the 1990s Department of Energy, National 
laboratories, the S&T Directorate, it was working. We saw a 
decline in the usage of this. These were where the big ideas 
came from. We need to look to see and get answers from inside, 
from those entities that are taking advantage of these 
programs, and see how we can use them to solve some of these 
big, big ideas and make this work again.
    Thank you very much, Madam Chairwoman.
    Ms. Jackson Lee. I thank the gentleman for his very 
thoughtful analysis and your challenge that we have to get back 
to that. Now using it for the security of this Nation, I think, 
is a clarion call. I am disturbed by the suggestions of 
communication and the seemingly heavy-laden process that 
hinders inventiveness, small businesses, minority-owned 
businesses, women-owned businesses. So I join you in that.
    I would like to ask Mr. Buswell to provide us--to the 
committee--the checklist that you just mentioned to Mr. Lujan 
and so that we can review these materials and look--and be 
forward thinking.
    My pleasure as well to yield to another very patient 
Member, which is indication of contributing Member, as I said 
for Mr. Lujan, Ms. Titus of Nevada, yielded for 5 minutes.
    Ms. Titus. Thank you, Madam Chairwoman.
    I would just like to continue along the same lines of 
discussion about helping the private sector, because it seems 
that reality is kind of contradictory to what you are espousing 
as your approach and your goal.
    On November 16 of just this past year, Chairman Thompson 
and Chairwoman Jackson Lee sent a letter to the Acting 
Administrator Rossides regarding TSA's implementation of the 
mandate to screen 100 percent of the cargo transported on 
passenger aircraft. This deadline was to be this coming August.
    In the letter TSA was asked to consider expanding the 
screening technology pilot program in order to provide small 
businesses with additional options that don't involve expensive 
equipment. Now, it is my understanding that proposals have been 
submitted for pilot programs that would assist in developing 
certification standards and testing of privately trained 
explosive detection canines.
    I believe that enabling private canine companies to be 
certified would be of great assistance to you as you move 
towards this 100 percent cargo screening. That is certainly in 
keeping with the remarks of Mr. Buswell both about the value of 
dealing with the private sector and this notion that now we 
need to profile puppies as we move more into this area.
    It is my understanding that a development of these 
standards and scheduling of the pilot program have been stalled 
at DHS. It has been out there. You have had the information. 
Nothing seems to be happening. So I wonder if there is an 
explanation for this delay, because it wouldn't involve the 
kind of testing that Dr. Hallowell has mentioned, and what 
perhaps is the timeline for the completion of the certification 
project that--moving forward.
    Mr. Kane. Congresswoman, I apologize. I am just not 
qualified to talk on the canine subject. I know those 
discussions are going on. It is a TSA issue, so I will save my 
S&T colleagues here. If I could take something for the record 
but if we could take something and get back to you, I would 
greatly appreciate that, because I just don't have the 
knowledge to answer that.
    Ms. Titus. Madam Chairwoman, would that be all right? Could 
we ask them to submit an answer to my question here shortly?
    Ms. Jackson Lee. Absolutely.
    If you would, respond to the gentlelady's question and 
inquiry.
    Mr. Kane. Yes, ma'am.
    Ms. Titus. Thank you very much. I yield back.
    Ms. Jackson Lee. On this very point, let me just to finish 
some questioning, but to make the point, several Members have 
asked what potentially may be classified inquiries, so I am 
going to ask the staff to set up a classified briefing on in 
particular the new screening equipment, body scan, other 
analysis that you are using in terms of airport selection and 
all of their intended practices around this new effort.
    To that point, Mr. Kane, I am going to be interested in 
your analysis. I would like to track what Mr. Austria said. I 
was a little aghast that New York was not on the list and 
further aghast that Texas was not on the list. You have no 
Southwest representation, and those airports, many of them are 
international. So do you have any response regarding Texas?
    Mr. Kane. I don't, Madam Chairwoman, at this time. I would 
be happy to offer the full brief on how we came to the airports 
we have and any of the classified information that we could 
discuss in closed session.
    Ms. Jackson Lee. Oh, I don't want you to give classified 
information today, but as you indicated to Mr. Austria that New 
York will be on the list, what are your plans for--do you have 
any way of projecting that Texas will be on the list?
    Mr. Kane. Well, I can tell you Cat-X airports are certainly 
going to be on the list.
    Ms. Jackson Lee. I am sorry. Pardon me?
    Mr. Kane. The largest airports will be on the list, and 
that is why I can speak to New York. I don't have that list, 
and I don't have the full knowledge of exactly what is on the 
list at this point for some of the other airports.
    Ms. Jackson Lee. Well, I think, without slighting any of my 
fellow cities, I think you might find DFW and IAH on the list 
of large airports.
    Mr. Kane. Yes, ma'am.
    Ms. Jackson Lee. So I would suspect, if that was a fact, 
that you would expect to see Texas airports on the list?
    Mr. Kane. Oh, yes, ma'am. I just don't know all Texas 
airports, but, yes, the large airports in Texas would certainly 
be on the list.
    Ms. Jackson Lee. All right. That is very important to many 
of us, who are well aware of the different security assets that 
are in these areas, meaning particular entities that pose some 
danger. So we want to make sure that you have that broad 
breadth of analysis.
    Let me just do two questions here to Mr. Lord.
    I submitted to the record a statement of the president of 
the NTEU, and I don't know if you heard my question. It is 
represented that the training that is going on on technology is 
being done by computer. So I guess if I am sitting in the 
airport in Arizona and I am a TSO or the airport in Houston and 
I am a TSO, I go to a computer and learn.
    With this new technology give me your assessment of the 
preferable mess of the human training, actual teacher that goes 
out and allows a question-and-answer period, the hands-on 
training. This is a very important issue for us, and I think it 
plays into the combination of man and machine, a woman and 
machine. Mr. Lord.
    Mr. Lord. I understand the question. Unfortunately, I am 
not going to be able to opine on this. What I have evaluated, 
the content of the training and collecting a little more 
information, I think it is important to point out our own 
agency. We provide our employees with a mix of on-line training 
as well as self-taught training and teacher-led instructor 
training.
    So my own agency uses a mix of tools, so I would have to 
find out a little bit more about the curriculum and what is 
actually being offered.
    Ms. Jackson Lee. Of course, the task of your agency and the 
task of security officers are somewhat different. Can we pass 
you then--I would like to add the request to the GAO for the 
analysis of the training, particularly as it relates to 
security training and in this instance the equipment that is 
under consideration at this hearing.
    Mr. Lord. We would be glad to take a look at it.
    Ms. Jackson Lee. We would like you to do that.
    Dr. Hallowell, then, let me add to the point that Chairman 
Thompson made. Are you all sensitive to the problems that small 
businesses have with the review of their inventions? The time 
is sometimes is the death of inventiveness in terms of the 
funding, in terms of what they do next. They are waiting on an 
answer.
    As you do that, let me put into the record a statement by 
Mr. James P. Middleton, CEO and president, Secure Global 
Logistics, Houston, Texas.* His testimony--let me make a very 
strong statement of appreciation for the work that they do. 
They happen to be a CCSF, and we are just acknowledging so many 
small companies that are now engaged in serving their country 
by being a CCSF, and they had to obviously get the approval.
---------------------------------------------------------------------------
    * The information was not available at the time of publication.
---------------------------------------------------------------------------
    But the point is how are you being sensitive to these 
smaller companies and the slow process of S&T?
    Ms. Hallowell. Yes, ma'am. We are very sensitive to small 
businesses. Our doors are open for people who think they have 
technology solutions. Particularly in the R&D part of test and 
evaluation, we are happy to work with every and all.
    However, when you go down the R&D pipeline, you get to the 
test and evaluation portion associated with TSA acquisition, 
there are certain requirements such as the ability to turn out 
multiple copies of a configuration control device that 
sometimes small businesses do have problems with. I don't know 
that we can help with that part of it.
    Ms. Jackson Lee. Okay. Can you stop for a moment? I think 
all the small businesses that I hear from are asking us can you 
just tell us whether or not S&T has approved it? I know there 
are other steps, and certainly I think those are appropriate 
steps, which is can you produce the product? But can we have 
the first step of having the analysis of S&T so we know whether 
it is a viable product? That is where the holdup is. If there 
is a second tier of holdup, we will address that. But why is 
the S&T taking so long?
    Ms. Hallowell. I don't know that I have encountered a 
situation where we have had trouble accommodating somebody that 
came in, because typically we will meet with them, we will find 
out whether or not the concept is feasible, any data, and we 
can bring it to the laboratory.
    The snafu typically comes when a company offers a product 
that sees some subset of the larger mission space of IEDs that 
need to be detected, and that is frustrating. We can only help 
them by trying to help them mature the technology. But our door 
is open.
    Ms. Jackson Lee. But are you also assessing the validity of 
the technology?
    Ms. Hallowell. Yes, ma'am. What we typically do is evaluate 
the sensitivity of it and the number of threats it can detect 
and give them a read as to whether it is getting close to 
something that is viable in terms of some acquisition plan, 
because I think that is where everybody ultimately wants to go, 
is to be able to provide a solution.
    Ms. Jackson Lee. Right. Well, let me quickly move on and 
just ask you to present this to us in writing again. Maybe we 
need to be better informed. Give us your step-by-step ABC of 
the XYZ small business, minority-owned business, woman-owned 
business, or business coming into S&T and from A to the 
completion. Let us try to see if we can understand that. Then 
we can interact with you.
    We think there is a bump in the road, if we are continuing 
to hear across America that complaint about backlog, not being 
able to get through. Let us see how we can work together on 
that. So I would like that. I really would like that as 
expeditiously as possible, maybe preceding us going into a 
classified briefing.
    Ms. Hallowell. Yes, ma'am.
    Ms. Jackson Lee. Let me finish with Mr. Kane.
    I indicated--I hope I was heard, but I am asking unanimous 
consent to submit into the record testimony of Secure Global 
Logistics. But I do want to say that one of the testimonial 
points that was made is the economic challenge, the financial 
burden of purchasing expensive screening hardware, maintaining 
it, upgrading it, training of staff, maintaining facility 
security, and all the other obligations that go with being a 
front-line screening partner with TSA.
    Now, we in the Federal Government established this 
relationship of a CCSF. Is there any effort to provide some 
financial support for the purchase of this equipment through 
TSA? Any thought about that? Any way we can think about that?
    Mr. Kane. Madam Chairwoman, I know we initially for some of 
our pilot programs, we have provided fundings for some of the 
freight forwarders. We don't have anything in the budget right 
now to continue anything like that forward that I am aware of--
certainly, not within my programs. I don't oversee that air 
cargo policy program, but I am unaware of any in TSA's budget 
to continue to any of that funding.
    Ms. Jackson Lee. Would you take the inquiry back to TSA and 
the appropriate persons for a response on whether or not that 
is something that we can project into the future? We are 
establishing more of these. We are asking more of these 
shippers. We are all moving toward 100 percent cargo 
inspection. We are moving it off airports into these CCSFs, and 
I think we need some kind of response as relates to a 
partnership.
    Mr. Kane. Yes, ma'am. I will take that back.
    Ms. Jackson Lee. All right.
    Let me thank all the witnesses. I think----
    Mr. Dent. Could I make a comment, Madam Chairwoman?
    Ms. Jackson Lee. Yes, you certainly may.
    Let me yield to the gentleman from Pennsylvania, Mr. Dent.
    Mr. Dent. Just a real quick comment. Mr. Kane, when you 
provide that information to the Chair on the airports that will 
be receiving the AIT machines, could you share that with us as 
well?
    Mr. Kane. Yes, sir.
    Ms. Jackson Lee. It will come to the committee, and we will 
share it with you.
    Mr. Dent. I just wanted to make sure we are all going to 
get that.
    Mr. Kane. Whatever the appropriate process is, I will 
endeavor to follow. Yes, sir. It will be writ large. It is 
sensitive information, you know, when you see a schedule, and 
so I know it is a little frustrating, but that is why you saw 
those first 11 announced, because pretty soon they will show up 
in the airports. There is no secret there anymore. But writ 
large, what we do in terms of deployment we do consider 
sensitive, because it does offer opportunity to see where we 
are in there.
    Ms. Jackson Lee. We will work through the staff, and they 
will appropriately handle the material that you are submitting 
to us. We do appreciate the sensitivity.
    Mr. Kane. Yes, ma'am.
    Ms. Jackson Lee. I am sorry. I asked Mr. Lord, who is going 
to look at it, but I just want to make sure you are aware of 
the concern about on-line training for this sensitive 
equipment. Let me raise a concern that I would like to see a 
movement toward teacher on-site training.
    Mr. Kane, do you have any response to that?
    Mr. Kane. Yes, thank you for that opportunity, because I 
didn't have one earlier. But we absolutely have a robust 
Nation-wide rollout plan, and we are sending people to the 
sites to do the training. It does involve simulator training, 
but it is a 3-day training program, or almost 3 days. It does 
include some simulator training, but it also does include on-
the-job training as well. So absolutely it is not just going to 
be a simulator training.
    One of the very early lessons learned when we first put AIT 
out into the field as part of that original pilot was it has to 
be a great training program, and you really have to focus on 
those image operators to make the technology successful.
    Ms. Jackson Lee. Well, I hope the TSO officers across 
America have just heard you make that pronouncement. We will be 
monitoring that rollout and those faculty members that you will 
be sending out. I will burden you with another request. Please 
give us a report on how that is proceeding and when you expect 
to complete the training even as you do the rollout.
    Mr. Kane. Yes, ma'am. It will be an on-going training 
process as we roll out. We will certainly submit you that 
report, and it is--obviously it is important to us to have some 
of those metrics of how successful we are as we roll that 
technology out.
    Ms. Jackson Lee. Let me thank all the witnesses for their 
testimony and as well to make the point that I made earlier 
that your testimony is enormously valuable and as well that we 
will hope if you have additional material that you would like 
to submit into the record, we would ask that you would provide 
that to the staff.
    As I see that there are no further questions for our first 
panel, I thank the witnesses for appearing before us today. 
Members of the subcommittee may have additional questions for 
you, and we ask that you respond to them expeditiously in 
writing.
    We now welcome our second panel to the witness table. We 
understand that because the panel has expanded, we will need to 
provide additional microphones, so we will take just a moment 
to get that done.
    Thank you again for your testimony today.
    [Break.]
    Ms. Jackson Lee. I welcome our second panel of witnesses. 
Our first witness is Mr. Kevin Dunlap, director of security at 
the International Air Transport Association. He is responsible 
for planning and executing the North American aviation security 
strategy of the association on behalf of 230 global airlines. 
Mr. Dunlap will discuss security procedures at foreign airports 
and the role of DHS.
    Our second witness is Mr. Charles Barclay, president of the 
American Association of Airport Executives. Mr. Barclay will 
discuss how DHS interfaces with airports and how the roll-out 
of the new security procedures and technologies impacts 
airports.
    Our third witness is Mr. Eric Potts, interim aviation 
director of the Houston Airport System. Mr. Potts will be able 
to discuss how DHS strategies and policies with checkpoint 
security have impacted the airports specifically.
    Our fourth witness is Mr. Marc Rotenberg. Mr. Rotenberg is 
executive director of the Electronic Privacy Information 
Center. Mr. Rotenberg will provide perspective on how 
developments in screening procedures and technologies may 
impact privacy rights. Mr. Rotenberg teaches information 
privacy law at Georgetown University Law Center and has 
testified before Congress on many emerging privacy and civil 
liberties issues.
    Our fifth witness, invited by the minority, is Mr. Brook 
Miller, vice president for government affairs at Smiths 
Detection. Mr. Miller will discuss his firm's interaction with 
the Department as it has developed screening technologies.
    Our sixth witness, also invited by the minority, is Mr. 
Mitchel Laskey, president and CEO of Brijot Imaging Systems. 
He, too, will discuss his firm's interaction with the 
Department as it has developed screening technologies.
    Without objection, the witnesses' full statements will be 
inserted in the record. I now ask each witness to summarize 
your statement for 5 minutes, beginning with Mr. Dunlap. If any 
of you desire to take a shorter period than 5 minutes, we would 
take up your time in questioning. We do expect votes to ring, 
and we want to give the witnesses their time both in testimony, 
but also in questioning.
    I would also like to acknowledge the presence of Mr. 
Lungren of California, a Member of this committee.
    Thank you. Thank you for your presence here. My statement 
earlier was that all of us in this room are committed to the 
security of America, and your presence here will help us 
continue to be on the front lines securing this Nation.
    If I may, I would like to begin with Mr. Dunlap. We are now 
asking you to summarize your statement, and you are recognized 
for 5 minutes.

     STATEMENT OF KENNETH J. DUNLAP, DIRECTOR OF SECURITY, 
            INTERNATIONAL AIR TRANSPORT ASSOCIATION

    Mr. Dunlap. Thank you, Chairwoman Jackson Lee, Ranking 
Member Dent and distinguished Members of the subcommittee. 
Thank you for the opportunity to testify at this hearing.
    The International Air Transport Association, IATA, 
appreciates the leadership of the subcommittee in addressing 
this critical issue. It is our hope that today's hearing 
launches a much-needed international dialogue on the future of 
passenger screening. IATA and our 230 U.S. and foreign member 
airlines have a vision of future passenger screening that is 
based on a paradigm shift in the principles behind checkpoint 
operation.
    We believe that next generation checkpoints must focus on 
looking for bad people, and not just bad things. I would ask 
that you consider our vision of an effective checkpoint, which 
focuses on finding bad people rather than bad things. 
Passengers are treated with dignity. Babies and children with 
names similar to adults on the no-fly list pass through 
screening uneventfully. Toenail scissors and nail clippers do 
not trigger an interrogation.
    In this scenario the airport security checkpoint is no 
longer the first line of defense, but a second look. The dots 
are connected by intelligence agencies before passengers reach 
the checkpoints. Plots are disrupted long before the airport, 
and screeners look for behavioral clues warranting a closer 
inspection of the passenger.
    The committee is asking today are our airports keeping 
passengers safe? The short answer to this question is 
absolutely yes. Today's checkpoints work, and we are not 
advocating immediately discarding it for a next generation 
checkpoint. However, the day is rapidly approaching where the 
40-year-old concepts served as the underpinnings of our current 
checkpoints will become obsolete.
    The next checkpoint should rely on several and pervasive 
passenger observation and detection. We believe highly trained 
behavior detection officers, who question passengers and 
observe their mannerisms throughout the screening process, 
would add a strong layer of detection. Tomorrow's checkpoint 
would enhance behavior detection by providing screeners with 
contextual background information on the traveler to assist in 
the questioning process.
    This type of intelligence-based behavior detection would 
increase both the fidelity and also the objectivity of 
passenger screening. The system here envisions security for 
tomorrow's passenger as a road bump in the journey rather than 
a mountain. We believe the components of this checkpoint are 
available, but they require the will to be assembled and 
delivered to our airports.
    I would like to say a few words about technology in 
general. Security and technology are often confused. IATA 
remains concerned that new technology is being viewed as the 
silver bullet for the future, but there is no silver bullet. 
For every technology with exciting detection capabilities, 
there are complementary vulnerabilities.
    Also we must not overlook the process through which 
technology moves from the laboratory to the airport. 
Fundamentally, this journey takes too long, it is tainted by 
challenging and changing regulatory requirements, and it often 
produces a product which doesn't work in the real world. An 
unfortunate example mentioned here was the recent failure of 
the so-called puffer explosive detection machine.
    IATA applauds Secretary Napolitano, Chairman Thompson, and 
Chairwoman Jackson Lee for refocusing DHS to a more forward-
thinking and globally oriented department. There are no better 
examples than IATA's testimony here today and Secretary 
Napolitano's joint global security summit in Geneva with IATA.
    IATA has provided Secretary Napolitano with five specific 
recommendations to strengthen commercial aviation security. Our 
recommendations briefly are: Formal consultation with foreign 
airlines, refining existing TSA emergency orders to better 
address the international environment, eliminate inefficiencies 
in the DHS passenger data collection program, strengthen 
government-to-government outreach to harmonize and coordinate 
on security issues, and finally, over the long term, focus on 
developing the next generation checkpoint.
    As this subcommittee reviews the events post-December 25, 
we expect many in Washington will seek short-term fixes to 
security checkpoints. However, new technology cannot guarantee 
better security. It cannot detect bad people and is not the 
only solution for the future. The solution lies in a paradigm 
shift in how we screen and protect our passengers. Thank you.
    [The statement of Mr. Dunlap follows:]

                Prepared Statement of Kenneth J. Dunlap
                             March 17, 2010

                              INTRODUCTION

    Chairwoman Jackson Lee, Ranking Member Dent, and distinguished 
Members of the subcommittee, thank you for the opportunity to testify 
at this hearing: ``An Assessment of Checkpoint Security: Are Our 
Airports Keeping Passengers Safe?'' The International Air Transport 
Association (IATA) appreciates the leadership and the foresight of the 
subcommittee in addressing this critical issue in the wake of the 
attempted bombing on Christmas day. It is my hope that today's hearing 
launches a much-needed international dialog on the future of passenger 
screening and results in even better screening for this generation and 
the next. I urge you and your colleagues to seize this opportunity.
    IATA represents some 230 U.S. and foreign air carriers and has 
offices in over 70 countries. IATA's mission is to promote safe and 
secure air travel. Through our work, we have changed the way people fly 
around the globe. In fact, your last trip across the United States or 
across an ocean was touched by IATA. The airline on which you flew most 
likely participated in the IATA Operational Safety Audit (IOSA). This 
is an internationally recognized and accepted evaluation system 
designed to assess the operational management and control systems of an 
airline. IATA replaced paper tickets with e-tickets which allow you to 
fly using just your identification and a boarding pass. IATA has 
enabled passengers to check in at home and to use boarding passes 
displayed on a Blackberry or PDA through our standard-setting processes 
and committees.
    These initiatives embody one of IATA's core competencies, which is 
to develop the processes that help passengers and their bags move 
through airports more efficiently. Through IATA's flagship programs, 
Simplifying the Business (StB) and Fast Travel, we work to make 
passenger travel through the aviation system faster and simpler. 
Through our work in areas such as boarding pass encryption and 
checkpoint entry lanes, we work to make travel more secure. This 
experience serves as the foundation for the ideas we are presenting to 
you this afternoon.

                      IATA'S VISION OF THE FUTURE

    IATA has a vision of future passenger screening that is based on a 
paradigm shift in the principals behind checkpoint operation. We 
believe next generation checkpoints must focus on looking for ``bad 
people'' and not just ``bad things.'' If we have learned anything from 
the last decade, it is that a passenger with toe nail clippers is not 
automatically a threat to aviation.
    As the subcommittee reviews the events post-December 25, we expect 
many may seek short-term fixes to security checkpoints. In fact, some 
procedural changes may be warranted. However, simply dropping new 
technology into a checkpoint is not the answer for the future and does 
not guarantee improved security. Even the best technology cannot detect 
bad people. This Congress cannot allow calls for new equipment to mask 
the fact that a long-term change is required for security checkpoints.
    Consider our vision of an effective checkpoint, which focuses on 
looking for bad people rather than for bad things: ``Passengers are 
treated with dignity. Babies and children sharing a name found on the 
no fly-list pass through screening uneventfully. Toe nail scissors and 
nail clippers do not trigger an interrogation.''
    In this scenario, the checkpoint is no longer the first line of 
defense, but a second look. The dots are connected by intelligence 
agencies before passengers reach the checkpoints, plots are disrupted 
long before the airport, and screeners look for behavioral clues 
warranting a closer inspection of the passenger.
    IATA believes the key to this future lies in leveraging all of the 
passenger information currently collected by a government before the 
start of the trip. Data collected in the name of customs and 
immigration needs to be merged with data collected for security. Then 
this comprehensive data should be analyzed by government intelligence 
agencies before a ``cleared to board'' decision is issued. The general 
results of this vetting should be made known to the screener at the 
checkpoint who will decide if a more thorough physical search is 
warranted. This process, combined with advanced behavior detection, 
would make for a stronger and more efficient checkpoint.
    Certainly, all the parts of this notional checkpoint exist today. 
However, Government and industry need to work together to integrate 
these elements into a single, useable process. We believe Congress 
should make this integration a priority.

             TODAY'S DEPARTMENT OF HOMELAND SECURITY (DHS)

    IATA applauds Secretary Napolitano, Chairman Thompson, and 
Chairwoman Jackson Lee for refocusing DHS to a more forward-thinking 
and globally-oriented Department. There are no better examples than 
IATA's testimony today and Secretary Napolitano's joint Global Security 
Summit in Geneva with IATA. The industry has noticed this new approach 
and looks to heightened engagement to make the checkpoint of the future 
a reality.
 recommendations to congress and to the department of homeland security
    During our Summit, IATA offered five principles and recommendations 
to DHS to guide commercial aviation security post-Christmas day. We 
believe these guidelines apply both locally and also globally. Our five 
principles include:

1. Define a Risk-based Approach
    Aviation security resources in terms of people and funds are 
limited. Regulators and industry must focus these on the most probable 
threats to aviation as demonstrated by past threats and future 
capabilities. This requires that industry and Government work in 
partnership to identify and to prioritize the threats we expect to face 
and the responses we expect to implement.

2. Act Globally
    Aviation is a globally interconnected enterprise that supports 32 
million jobs and $3.5 trillion dollars in economic activity.\1\ As 
such, this global network will only be as strong as its weakest link. 
Regulators must secure this system with internationally implemented 
standards and recognize the comparable security measures of other 
States. Security resources should not be wasted duplicating the efforts 
of other competent regulators.
---------------------------------------------------------------------------
    \1\ IATA Economics 2010.
---------------------------------------------------------------------------
3. Regulators Must Share and Be Open to Best Practices
    Globally, air transport is more secure than ever in its history. 
IATA applauds the many States that have raised the bar on their 
security programs. However, we often see the ``not invented here'' 
mentality preventing wider adoption of new and innovative security 
methods. IATA encourages States to use the International Civil Aviation 
Organization (ICAO) more effectively on security to develop harmonized 
security policies and to spread best practices.

4. Work With Industry on Practical Solutions
    The best security is based on procedures and equipment that work in 
concert with the complex operating environment within which global 
aviation operates. IATA urges regulators to tap into industry 
experience and expertise to deploy efficient and effective security 
measures.

5. Act Strategically
    Security incidents should not be met with reactive and unilateral 
Government actions. Often, the most ineffective measures are written 
immediately following a security breach. Industry and Government must 
focus on making existing processes and resources even more effective. 
At the same time we must not be afraid to look at the whole system when 
we have evidence and technology to support generational change to meet 
new threats.
    Certainly, these are high level principles, but they must form the 
cornerstone of aviation security policy and be supplemented with 
specific recommendations. To that end, IATA provided Secretary 
Napolitano with five specific recommendations to strengthen security in 
the future. These are addressed to DHS and TSA, but should serve as the 
foundation for the efforts of other regulators as well. Our 
recommendations are:

            1. Formal consultation with foreign carriers

    Regulators must understand that aviation is a globally 
interconnected enterprise and must write security regulations that 
reflect this reality. Most often, new rules are written without 
industry input and review. This deprives the regulatory process of the 
operational insight and expertise the airline industry can provide. 
Greater collaboration would ensure more effective and more efficient 
security measures.
    In the long term, consultative public/private partnerships can 
define and promote a unifying security vision, which can be reflected 
in National policy. In the short-term, stakeholders can create 
``playbooks,'' which respond to threats to aviation proactively rather 
than reactively.
    IATA believes that industry consultation must be regular, formal, 
and empowered. Collaboration must be tied into policy, which is then 
seamlessly tied into regulation. DHS has a stakeholder body known as 
the Sector Coordination Council (SCC), which attempts to provide a 
public/private partnership. However, it is neither integrated firmly 
into security policymaking nor does it include foreign representation. 
Rarely does the SCC process produce more efficient regulations or more 
refined National policies.
    Finally, we believe other like-minded regulators could benefit from 
their own SCC-type National organizations. We believe ICAO is uniquely 
positioned to create a template for such organizations and to 
promulgate them internationally.
    IATA recommends that DHS engage in formal and continuous 
consultation on aviation security matters with all air carriers through 
a cooperative and deliberative process. We are asking DHS to:
  <bullet> Formally establish an international aviation workgroup under 
        the DHS Aviation Security Advisory Committee (ASAC);
  <bullet> Revitalize and empower the Sector Coordination Council (SCC) 
        to play a definitive role in aviation security policymaking;
  <bullet> Allow foreign airlines, under the coordination of IATA, to 
        join and participate as full members of the SCC.

            2. Refine existing TSA emergency orders to better address 
                    the international environment

    Airlines operate across the globe under extremely different 
environments: Laws, infrastructures, and cultural diversity should all 
be taken into account. Airlines have hands-on experience in these 
different environments. However, TSA imposes one-size-fits-all measures 
on international carriers, which often simply cannot be implemented in 
certain airports, countries, or regions.
    Moreover, although DHS is using risk management principles in 
targeting passengers from a list of 14 States for further screening, we 
believe the country ``blacklist'' approach is counter-productive. Our 
experience with blacklists in the safety field shows they can do more 
harm than good and can lead to diplomatic actions, such as retaliation. 
Instead, targeting people for screening should be based on the 
individual through the better use of passenger data. IATA recommends 
that DHS:
  <bullet> Move toward risk-based and ``performance-based'' 
        regulations, which would be flexible enough in their wording to 
        allow carriers to make sure DHS's objective is reached in a 
        way, which complies with local specificities;
  <bullet> Make better use of passenger data rather than subjecting 
        passengers from whole States to enhanced screening;
  <bullet> Increase security focus on high-risk areas of the world 
        instead of relying on one-size-fits-all directives.

            3. Eliminate inefficiencies in the passenger data 
                    collection process

    Under existing U.S. regulation, carriers serving the U.S. market 
are required to provide extensive data relating to all persons 
traveling on flights to, from, and within the United States. Whether 
that information is provided to meet requirements for PNR access, APIS 
Quick Query (AQQ) or TSA's Secure Flight, the data provided is largely 
the same. We need the ability to transmit data in a consistent format 
to a single DHS portal.
    As evidenced on December 25, agencies failed to identify the 
potential threat, even with the provision of vast amounts of personal 
data at least 3 days before the flight. As indicated in the White House 
Review Summary to President Obama on January 7, 2009, this failure to 
``connect the dots'' was primarily due to fragmentation within the 
United States Government and the inability to fully share information 
across agencies. We advocate deployment of more robust systems within 
DHS that better analyze and synthesize the data already transmitted to 
DHS's component agencies. IATA recommends:
  <bullet> DHS collect a single set of information on each passenger 
        from carriers that can be shared widely and seamlessly among 
        DHS and intelligence agencies.

            4. Strengthen government-to-government outreach to 
                    harmonize and to coordinate on security issues

    The United States takes a different approach from most countries, 
because it mandates security procedures for incoming flights. The 
European Union, for instance, takes the stance that it can only 
regulate flights departing its territory.
    The extraterritorial approach to security is problematic, mostly 
because U.S. requirements can conflict with national norms. One example 
of this has been the 2005 U.S. requirement for PNR data, which 
conflicted with EU data privacy directives. A similar example with 
today's situation is that in many countries, such as Germany, airlines 
are not allowed to perform physical screening on passengers. If a 
government were to ask an airline to conduct such screening in Germany, 
that airline would be caught in the middle and placed in an impossible 
situation.
    DHS should reach out to governments around the world before 
imposing new extraterritorial procedures on the airlines. One way to do 
this would be to make full use of ICAO's Aviation Security ``Point of 
Contact'' network. This would allow DHS and TSA to evaluate whether a 
new procedure is feasible at the world's airports. It would also 
increase the readiness of countries to assist airlines in complying 
with U.S. requirements.

            5. Over the longer term, focus on developing a next 
                    generation checkpoint

    The December 2009 Detroit incident demonstrates that in the future 
aviation may need smarter and faster, next-generation passenger 
screening measures to confront new and emerging threats. While our 
current screening systems are serving us well, their underlying 
operational concepts and architecture are beginning to show their age, 
and they need to be replaced.
    IATA is asking DHS to begin to look forward to field a new 
checkpoint. In the interim, we need to enhance the capabilities of the 
current system to extend its useable lifetime and increase its 
detection capabilities.
    IATA recommends to the Department of Homeland Security (DHS) that 
this effort be accomplished in close cooperation and partnership with 
industry. Stakeholders at the highest level must develop an integrated 
vision and a road map for moving forward.

                PRINCIPLES OF NEXT GENERATION SCREENING

    The subject of today's hearing is, ``An Assessment of Checkpoint 
Security: Are Our Airports Keeping Passengers Safe?'' The short answer 
to this question is absolutely, ``yes.'' The American public needs to 
understand that their security is the utmost concern of the airlines on 
which they fly and the airports in which they transit. Twenty-four 
hours a day, 365 days a year, professionals are standing watch to 
ensure their security. The procedures, processes, and technology 
deployed since 9/11 have made this industry the most secure in its 
history.
    Yet, those who would do us harm by injuring innocent passengers and 
by disrupting our economies are not standing still, and neither should 
our checkpoints. Today's checkpoint works and we are not advocating 
immediately discarding it for the next generation checkpoint. In fact, 
there is still service life left in these checkpoints. However, the day 
is rapidly approaching where the 40-year-old concepts which serve as 
their underpinning will become obsolete. As Congress discusses novel 
drop-in technology for checkpoints, we believe it is essential to not 
mask the need for a new philosophy behind checkpoint architecture. For 
these reasons, we urge Congress to launch the process to build a next 
generation checkpoint capable and flexible enough to handle new and 
emerging threats to air transport.
    We recommend that the next generation checkpoint be based on 
intelligence and supported by technology. Screening would consist of 
looking for bad people rather than bad things. We believe the volumes 
of passenger data currently collected by governments could be leveraged 
to make decisions about boarding pass issuance long before a passenger 
arrives at the airport. However, unlike today, the next generation 
checkpoint would require the U.S. Government to:
  <bullet> Align passenger data collections programs within DHS and 
        between DHS and other departments;
  <bullet> Screen passenger data more thoroughly against intelligence 
        information and law enforcement data;
  <bullet> Develop a ``red flag'' system, which would objectively 
        identify the level of screening a passenger would require 
        before boarding.
    The next checkpoint should also rely on thorough and pervasive 
behavior detection. We believe highly trained behavior detection 
officers who question passengers and observe their mannerisms 
throughout the screening process would add a strong layer of detection. 
Tomorrow's checkpoint would enhance behavior detection by providing 
screeners with contextual background information on the traveler to 
assist in the questioning process. This type of intelligence-based 
behavior detection would increase both the fidelity and also the 
objectivity of screening.
    Screening technology supports intelligence in the next generation 
checkpoint by providing screeners with enhanced baseline methods for 
identifying explosives and firearms. This equipment would be in the 
primary screening lanes through which all passengers would quickly pass 
with little interruption. Additionally, the checkpoint would have 
enhanced lanes designed to inspect those passengers of whom little is 
known or of whom questions are raised, most likely at a slower rate 
with more fidelity.
    The system described here envisions security for tomorrow's 
passenger as a road bump in the journey rather than a mountain. We 
believe the components of this checkpoint are available, but they 
require the will to be assembled and delivered to our airports.
    Security and technology are often confused. IATA remains concerned 
that novel technology is being viewed as the silver bullet for the 
future. However, there is no silver bullet in security. For every 
technology with exciting detection capabilities there are complementary 
vulnerabilities, which can be open to exploitation. We urge this 
subcommittee to challenge technology advocates to fairly assess 
capabilities against vulnerabilities.
    Finally, we must not overlook the process through which technology 
moves from the laboratory to the airport. Fundamentally, the journey 
takes too long, and it is tainted by changing regulatory requirements, 
often producing a product which doesn't work in the real world.
    Promising technology needs to pass the O'Hare test before it leaves 
the lab: It must perform its functions reliably and accurately under 
the same passenger load it would experience at O'Hare the day before 
Christmas. Perhaps such a test would have kept the explosive puffers 
purchased by the TSA out of long-term storage.

                               CONCLUSION

    The security and safety of the flying public is the top priority of 
IATA and the aviation industry as a whole. The procedures, processes, 
and technology deployed since 9/11 have made this industry more secure 
than ever before. However, there is a clear need for continued 
vigilance and constant revision to ensure an even more secure future. 
Regulators worldwide must focus on improving intelligence communication 
and passenger screening programs in order to stay one step ahead of 
those whom would wish harm on our passengers.
    As the subcommittee reviews the events post-December 25, we expect 
many will seek short-term fixes to security checkpoints. However, new 
technology cannot guarantee better security, cannot detect bad people, 
and is not the only solution for the future. Any new equipment must be 
fully vetted in the operational environment and justified in fulfilling 
a clear need and producing a clear enhancement at the checkpoint. 
Overall, we urge Congress to promote long-term improvements to 
intelligence coordination, to interdepartmental cooperation, and to 
security checkpoints in order to achieve the highest level of security 
for the flying public.

    Ms. Jackson Lee. Mr. Dunlap, let me thank you for your 
testimony.
    I now recognize Mr. Barclay to summarize his statement for 
5 minutes.

 STATEMENT OF CHARLES BARCLAY, PRESIDENT, AMERICAN ASSOCIATION 
                     OF AIRPORT EXECUTIVES

    Mr. Barclay. Thank you, Madam Chairwoman and Members. It is 
always a privilege to be here before the committee.
    I will make just four very brief points from our testimony. 
First is that airport executives support the deployment of AIT, 
and we commend the efforts of the leaders of DHS and TSA in 
both the decision-making and the consulting with industry here 
in Washington.
    Second, while we are complimentary of their sincere efforts 
to coordinate with us and do as much planning as they can here 
in Washington, there is still a great need for consultation and 
getting the agreement of individual airports at each location. 
We have learned that the hard way from the deployment of that 
baggage screening technology from 2000 to still today that 
there is no substitute for the specific individual airport 
knowledge blueprints don't give you as far as getting these 
installations actually done. We would recommend strong 
consultation language aimed at TSA for all these deployments.
    Third, DHS needs to budget realistically for these 
deployments. The true costs of the installations do include the 
terminal modifications and terminal space that is going to be 
necessary, certainly, in some locations. We think they have 
done a lot of planning, and they are sincere in trying to find 
locations where they can do the initial installations without a 
great impact on those locations, but we know that they are 
going to run into places where there will be significant 
modifications. Again, with the experience from baggage 
screening, this is going to be an expensive alteration in a 
number of locations, and we think those costs have to be 
covered by the Department and included in their planning.
    Then finally, airport executives continue to be concerned 
about throughput. As the economy comes back, passenger numbers 
go back up. We realize they are doing the planning on 
throughput of these systems. We continue to be concerned that 
all of that proves out realistically in the real world, and we 
think we have got, as was mentioned by the previous witness, we 
have got to make the screening process one that considers both 
security and the efficiency of transportation. Speed is what we 
are all about in this business, and we need to provide good 
customer service as well. So we hope we will keep our eye on 
those throughputs. Thank you.
    [The statement of Mr. Barclay follows:]

                 Prepared Statement of Charles Barclay
                             March 17, 2010

    On behalf of the American Association of Airport Executives (AAAE) 
and the thousands of men and women the Association represents who 
manage and operate primary, commercial service, reliever, and general 
aviation airports across the country, I want to thank the subcommittee 
for the opportunity to participate in this important hearing to assess 
passenger security checkpoints. Airport executives appreciate your 
interest in this topic, and we are eager to work with Congress, the 
Department of Homeland Security, and the Transportation Security 
Administration to ensure the success of on-going efforts to upgrade the 
equipment and protocols in place at screening checkpoints across the 
country.
    While responsibility for passenger and baggage screening are by law 
the sole responsibility of TSA, airports play a critical role in 
partnering with the agency to help it meet those core missions. The 
significant changes that have taken place in airport security since 9/
11 have been aided dramatically by the work of the airport community, 
and we look forward to continuing to serve as a partner to the agency 
as it seeks to upgrade its checkpoint capabilities in the wake of the 
attempted Christmas day attack on Flight 253.
    In addition to partnering with TSA to help the agency meet its 
passenger and baggage screening mandates, airports as public entities 
with public safety as a key mission, also perform a number of 
inherently local security-related functions at their facilities, 
including incident response and management, perimeter security, 
employee credentialing, access control, infrastructure and operations 
planning, and numerous local law enforcement and public safety 
functions. These critical public safety duties have long been local 
responsibilities that have been performed by local authorities in 
accordance with Federal standards under Federal oversight. Airport 
operators meet their security-related obligations not with an eye on 
profit or loss but with a sharp focus on the need to secure public 
safety, which remains one of their fundamental missions.
    With that as background, let me begin by complementing DHS and TSA 
for their swift response to the attempted Christmas day attack and for 
the efforts undertaken since that time to engage airports on charting a 
course forward--particularly as it relates to the wide-scale deployment 
of Advanced Imaging Technology (AIT) at airport checkpoints. As the 
subcommittee is well aware, the agency has greatly expedited plans to 
deploy AIT equipment, with some 500 machines expected to be deployed by 
the end of 2010 and another 500 scheduled to follow in 2011. Many 
airports are eager to have AIT equipment in their facilities in 
recognition of the security benefits this technology provides in 
detecting threats highlighted by the Christmas day attack.
    DHS Secretary Janet Napolitano, TSA Acting Administrator Gale 
Rossides, and the senior leadership at the Department and at TSA have 
made concerted efforts to include AAAE and other industry groups in 
discussions regarding AIT deployment plans and to seek airport input on 
how best to move forward. In particular, I want to complement and thank 
TSA Assistant Administrator Robin Kane, who is testifying today, for 
his practical, results-driven approach and for his efforts to seek 
input from airport management at key stages in the initial planning 
process.

   AIRPORTS ARE CAUTIOUSLY OPTIMISTIC ABOUT AIT DEPLOYMENT BUT HAVE 
                                CONCERNS

    Airport executives are encouraged by these early outreach efforts 
on AIT deployment and commend the agency for the thorough work that has 
been undertaken to this point with general checkpoint designs and 
deployment strategies. While careful planning at headquarters is 
certainly important, the greatest challenges lie ahead as TSA attempts 
to move from the drawing board to the ``real world'' at hundreds of 
widely divergent airport facilities across the country with the 
deployment and operation of AIT equipment.
    Beyond the limited number of airports that currently have or are 
scheduled to soon receive AIT equipment, TSA's outreach efforts have 
not yet been widely extended to individual airports to discuss specific 
plans for deployment of equipment at their facilities, leaving many 
airport executives with significant concerns about potentially costly 
structural modifications that may be necessary to accommodate AIT 
equipment in already crowded airport terminals. Additionally, airports 
have questions about the ability of TSA to efficiently process 
passengers through updated checkpoints given the size of the new 
machines, the number of TSA personnel required to operate them, the 
slower throughput levels of the machines relative to existing 
magnetometers, and significant changes to divestiture procedures for 
passengers. These challenges will become more acute as passenger levels 
continue to rise at airports across the country.
    To this point, TSA maintains that there will be minimal impact on 
the checkpoint footprint and on passenger throughput levels through 
screening checkpoints--particularly at the airports slated to receive 
the 500 machines scheduled for delivery during 2010. Airport executives 
believe that TSA is earnest in its view that it has considered these 
issues, and we readily acknowledge that there won't be significant 
challenges at every airport. With that said, it is evident that placing 
new equipment, building image viewing rooms, and accommodating teams of 
new personnel in already crammed checkpoint screening areas will be 
difficult if not impossible at some critical airports across the 
country. TSA has acknowledged that the agency will face challenges, 
particularly in 2011, as they move toward the end of the deployment 
schedule.
    Unfortunately, TSA has yet to begin planning to tackle some of 
these issues, which we believe are inevitable. Looking forward to 
2011--the budget year that Congress is currently considering--the 
agency has requested significant resources to procure and install AIT 
equipment ($215 million) and to support the additional 5,355 TSO 
positions the agency says are necessary to operate the AIT machines 
($315 million). The administration has not, however, requested funding 
to pay for either the space or terminal modifications that may be 
necessary at airports to accommodate AIT equipment. Administration 
officials have made clear their view that airports should be required 
to pay for some if not all of these costly items.

 PREVIOUS EFFORTS ILLUSTRATE THE IMPORTANCE OF AIRPORT INVOLVEMENT AND 
                            FEDERAL FUNDING

    To understand the pitfalls of moving forward with the wide-scale 
deployment of technology in the airport environment without adequate 
airport consultation at the local level and in the absence of 
sufficient Federal funding, one need only to consider the experiences 
with TSA's roll-out of explosives detection systems (EDS) for checked 
baggage earlier this decade. Insufficient airport involvement at 
individual facilities with the planning, design, and deployment of that 
equipment and a lack of Federal funding to support critical project 
elements led to ``temporary'' solutions at numerous airports with bulky 
machines being placed in crowded airport terminal areas--a situation 
that created numerous safety, security, and efficiency issues. As the 
subcommittee knows well, we've spent the better part of the past 8 
years trying to clean up the mess at great expense, and we still don't 
have it right in many locations.
    Airports have seen this movie before, Madam Chairwoman, and we 
don't like the ending. The good news is that we are at the beginning of 
the AIT deployment process with the opportunity to get it right this 
time around. Along those lines, we offer several specific 
recommendations for your consideration:
    Give Airports a Direct Role in Developing and Approving AIT 
Deployment Plans.--Airports have long supported the expedited 
deployment of advanced technology as a means of enhancing security and 
efficiency, and airports are generally enthusiastic about the 
deployment of AIT equipment at their facilities. Airports also believe 
strongly that individual airport authorities must be actively involved 
in the planning and design of projects at their facilities to ensure 
upgrades are completed in a timely manner and in a way that limits 
disruptions to checkpoint operations and costly terminal modifications.
    Airport professionals have a unique understanding of their 
facilities and should be counted on as a resource as TSA seeks to 
deploy technology at checkpoints or other areas of an airport. In 
addition to their expertise as facility managers, airport professionals 
share the same public safety mission as the Federal Government and 
should be relied on as a full partner in these efforts.
    In recognition of those facts and in an effort to ensure that the 
consultation and airport involvement at the local level is meaningful 
and productive, we encourage the subcommittee to consider giving 
airport authorities a direct role in developing and approving 
deployment plans at their facilities. Such a move will ensure that TSA 
and its contractors are working directly with airports to establish 
realistic plans that take into account unique facility and operational 
considerations. Careful coordination and cooperation between the 
Federal Government and airport operators is the key to the successful 
deployment of technology in the airport environment.
    Require TSA to Pay for Space & Terminal Modifications Necessary to 
Accommodate AIT.--Not surprisingly, airport executives are very 
concerned about a lack of Federal funding to support the acquisition of 
space and costly terminal modifications that will likely be necessary 
to accommodate AIT equipment in numerous airport locations. As all of 
you know as frequent travelers, many airport terminals are already at 
their breaking point in terms of space, and adding bigger machines, 
personnel, and image viewing rooms--among other necessary changes--will 
likely require significant terminal modifications.
    Given the acknowledged importance of these projects to National 
security, airport executives believe that it is imperative that the 
Federal Government step up to the plate to finance necessary space 
acquisition and terminal modifications required to accommodate AIT 
equipment. The current assumption that airports should be responsible 
for those significant expenses ignores reality.
    Setting aside the fact that passenger and baggage screening are the 
direct responsibility of the Federal Government, airport financing 
simply isn't feasible at most airports--many of which have already 
deferred major capital projects because of economic realities. Plowing 
new resources into helping the Federal Government meet its obligations 
in this area would take even more money away from critical safety and 
capacity-enhancing projects and put an additional burden on our 
partners in the airline industry for an item that everyone acknowledges 
is necessary for homeland security. I would also note that airports 
collectively have already invested billions of dollars over the past 
decade on a number of important security improvements at perimeters and 
throughout the airport environment and to assist TSA in its passenger 
and baggage screening efforts.
    In our view, Federal funding for space and terminal modifications 
are unlikely to materialize without support from Congress. That fact is 
evident to us based on budget documents and recent discussions with key 
Department and agency leaders. With that in mind, we urge the 
subcommittee to push for changes requiring TSA to pay for these 
critical project elements. Without adequate Federal support, we face a 
situation where deployment decisions could be based on where machines 
can be accommodated easily in airports as opposed to where they make 
sense from a security perspective.
    It is worth noting that in the case of checked baggage systems, TSA 
acknowledged the problems that a lack of Federal funding would create 
with its deployment plans and initially supported paying for terminal 
modifications and other costs through a multi-year letter of intent 
(LOI) process that was created with the strong support of Congress. 
Unfortunately, the important LOI program was opposed by the Office of 
Management and Budget, and an important tool in financing projects was 
left unutilized--a result that slowed the deployment of in-line baggage 
systems at airports across the country. Those experiences illustrate 
the importance of placing a provision in law that requires TSA to pay 
for space and terminal modifications in airports necessary to 
accommodate AIT equipment.
    Proactively Address Passenger Throughput Issues.--One of the 
biggest concerns that airport executives have with the wide-scale 
deployment and utilization of AIT equipment is passenger throughput 
levels. While wait times at screening checkpoints are currently 
manageable in most cases, airports see a potential storm brewing with 
new equipment, new divestiture procedures, and steadily increasing 
passenger levels as the economy recovers.
    Airport executives question the optimistic assumptions that TSA has 
made in this area, and we urge the agency to begin serious contingency 
planning to deal with slower processing times and increasing passenger 
levels. Airports have long supported the establishment and adherence to 
specific wait time thresholds at airports and believe that this 
important tool--which TSA no longer measures--should be reinstituted.
    On the throughput issue, airport executives have placed a great 
emphasis on TSA efficiency to improve the experience of passengers at 
airports. Improved customer service is clearly an important 
consideration. In our view, however, improving the efficiency of the 
screening process goes hand-in-hand with the goal of enhancing the 
security and safety of airport facilities and the aviation system. Long 
lines and poor customer service do not equate to better aviation 
security. To the contrary, long lines in airport terminals and at 
security screening checkpoints are targets for terrorists as past 
experiences prove.
    Long-term, Focus Must Move Beyond Finding Dangerous Things.--It is 
clear that terrorists continue to focus on commercial aviation as a 
primary target and that the threats are evolving at an increasingly 
rapid pace. As local airports and DHS continue to work together to 
address these emerging novel attacks, it is a well-established 
imperative that the Federal Government maintain an active pipeline of 
the latest innovative technologies to stay a step ahead while 
supporting a healthy and efficient aviation system. However, our 
collective detection, deterrence, and response capabilities, as 
advanced and accurate as they are, will only take us so far as we 
attempt to combat a new generation of terrorists and methods apparent 
in the attempted Christmas day attack.
    Looking forward, we must continue our efforts to focus on 
identifying dangerous people in addition to dangerous things. With the 
deployment of AIT equipment at numerous airport locations, we have 
virtually reached the limits of our ability to identify dangerous 
things at screening checkpoints. While additional detection 
capabilities are certainly critical, we must also seek to do ever more 
to identify those who intend to do our aviation system and Nation harm 
and to continue to develop a broad array of approaches to subject 
potential threats to additional scrutiny. Similarly, we must do more to 
better align security resources to address appropriately those in the 
traveling public that pose little threat to the system.
    Part of the answer in the long-run is to integrate into a seamless 
approach the many security tools at our disposal that operate now 
largely in isolation. It is no longer enough for TSA to research and 
deploy new physical threat detection technologies, vet traveler's 
backgrounds against terrorist databases, and unpredictably screen and 
observe travelers in terminal and gate areas. While these programs have 
made us more secure over the past 8 years, the fact that they currently 
operate largely independent of each other creates limitations. 
Ultimately, we must tie all of these tools together to create a more 
targeted application of screening processes and a true risk-based 
approach.
    We look forward to working with the subcommittee as efforts in that 
regard continue. Again, I appreciate the opportunity to participate in 
today's hearing and look forward to answering any questions you have.

    Ms. Jackson Lee. Thank you for your enormously important 
and succinct testimony. We look forward to exploring those 
points.
    It is my pleasure now to yield to one of my neighbors in 
Houston. Colonel Eric Potts is the interim director of the 
Houston Intercontinental Airport. As he well knows, I am always 
going to make note of the fact that he served 27 years in the 
United States Army, retired as a colonel with a number of merit 
recognitions for his service to this Nation.
    Colonel Potts, you are yielded 5 minutes for your 
testimony.

    STATEMENT OF COL. ERIC R. POTTS (RET), INTERIM AVIATION 
                DIRECTOR, HOUSTON AIRPORT SYSTEM

    Mr. Potts. Good afternoon, Madam Chairwoman and Members of 
the committee. Thank you for inviting me today to testify.
    The Houston Airport System is the fourth-largest multi-
airport system and the Nation and the sixth-largest in the 
world. Our flagship----
    Ms. Jackson Lee. Please turn your mic on, Colonel Potts.
    Mr. Potts. Start over--domestic and international 
passengers. It is the Nation's eighth-largest passenger 
airport, and the world's 16th. In 2009 our airports in Houston 
served approximately 48 million passengers, and projections 
show about 80 million passengers by 2020.
    We generate 151,000 regional jobs and contribute over $24 
billion to the local economy. Houston is also a DHS-designated 
Tier 1 Urban Area Security Initiative city. According to the 
2007 regional threat and vulnerability assessment, IAH is the 
highest at-risk asset in the entire Southeast Texas area. Given 
that the Houston metropolitan area has the Nation's fourth-
largest population and is home to the essential elements of our 
energy supply and refining capacity, effective passenger 
screening at our airports is one of our top priorities.
    There are four key points I want to share with you today. 
First, let me say that over the past 8 years we have seen many 
improvements to the aviation security improvements. We work 
closely with our Federal counterparts in the Department of 
Homeland Security and the Transportation Security 
Administration. It is a partnership we value greatly.
    For example, in Houston we have recently partnered with TSA 
to implement explosive detection system baggage screening 
solutions in both the major airports, IAH and William P. Hobby. 
We are also actively working with the TSA on the airport 
surveillance program, a project which provides funding for the 
enhancement to the airport's existing closed-circuit 
televisions and related reporting systems. The TSA is preparing 
to implement full body scanning equipment at both IAH and 
Hobby.
    But major impediments remain that need to be addressed, and 
soon. It is on these issues that I want to ask for the 
assistance today because, as you know, while the Federal 
Government plays a key role in airport security matters, 
Federal law imposes the responsibility of local airport 
operations for securing the National aeronautical domain, the 
NDA, within their particular regions.
    We have identified impediments that could be minimized by 
the procurement of security technologies and the institution of 
certain Federal initiatives relative to intelligence sharing, 
risk assessment, and in critical infrastructure protection 
fielded, based, aviation security compliance technology.
    Then there is the issue of the costs associated with the 
measures of our first priority in ensuring effective passenger 
screening is the lack of timely and consistent dissemination of 
National threat intelligence information to airport security 
directors.
    In Houston we have more than 200 security personnel. They 
are on the ground and on the front lines and yet, despite high-
level clearance, they generally do not receive intelligence 
sharing from the Federal counterparts to the degree and in a 
timely fashion that will allow them to take desired proactive 
approaches.
    Part of the reason for this gap is the absence of 
appropriate secure technology. To correct this, certain 
technologies must immediately be made available to the local 
airport security directors. This includes security terminal 
equipment telephones, a secure fax, and connections to the 
Homeland Security data network and the secret internet protocol 
router network.
    The lack of intelligence sharing is further exacerbated by 
the fact that there is no current Federal standard for 
utilization of the risk assessment methodology across the air 
domain. What is needed is a National intelligence lead risk-
based security doctrine that targets the mitigation of and 
vulnerabilities in a proactive and recurrent fashion.
    To close the loop and begin the benefits of good, timely 
intelligence information and uniform risk assessments into the 
field, we also need the prompt implementation of uniform, new 
field-based technologies which capture raw data by security 
area, category, and department.
    The final point I would like to make is that the close 
attention needs to be paid to ensuring that the necessary 
funding accompanies these and other new measures. For example, 
we are encouraged by the TSA's recent announcement of its plan 
to install advanced imaging technology, AIT, at security 
checkpoints to replace current walk-through metal detection 
devices.
    Unlike metal detectors, AIT can detect prohibited items 
that have little or no metallic content, and AIT will also 
allow passengers with surgical implants to avoid the invasive 
physical pat-down inspections that come with walk-through metal 
detectors.
    In addition to the terminal modifications, we are concerned 
about the throughput time that may be required to process 
passengers through AIT units as opposed to the time it takes to 
process them through walk-through metal detectors. TSA has said 
that they can process a passenger in 15 seconds. Some airports 
that already have the units at these checkpoints have said that 
in reality it can take as long as 45 seconds to process one 
passenger.
    So with that, thank you, Madam Chairwoman and committee 
Members, for the opportunity to testify before you. In terms of 
priorities, I would like to conclude by asking the committee to 
focus on intelligence sharing matters first, the identification 
of particular risk assessment methodology second, and the 
technology base compliance program to follow.
    Finally, please remember that the fragile state of the 
aviation industry today cannot sustain the financial impact 
that the implementation of overall security strategies will 
require. The burdens fall primarily on our Nation's airports, 
and considerable additional resources are required.
    Ms. Jackson Lee. Colonel, if you can wrap up, I appreciate 
it.
    Mr. Potts. I would ask the Congress not to impose any 
further unfunded mandates on either the commercial aviation 
industry or the local airport operators that are the 
cornerstone of the industry. Thank you.
    [The statement of Colonel Potts follows:]

                  Prepared Statement of Eric R. Potts
                             March 17, 2010

    Good afternoon, Madam Chairwoman and Members of the committee. 
Thank you for inviting me to testify today. The Houston Airport System 
is the fourth-largest multi-airport system in the Nation and the sixth-
largest in the world. Our flagship airport--George Bush 
Intercontinental or ``IAH''--is one of the country's largest gateways 
for both domestic and international passengers. It is the Nation's 
eighth-largest passenger airport, and the world's 16th-largest. In 2009 
our airports in Houston served approximately 48 million passengers, and 
projections show some 80 million passengers by 2020. We generate some 
151,000 regional jobs and contribute over $24 billion to the local 
economy. Houston is also a DHS designated tier-1 urban area security 
initiative city. According to a 2007 regional threat and vulnerability 
assessment conducted by Digital Sandbox, Inc., IAH is the highest at-
risk asset in the entire Southeast Texas area. Given that the Houston 
metropolitan area has the Nation's fourth-largest population and is 
home to essential elements of our energy supply and refining capacity, 
effective passenger screening at our airports is one of our top 
priorities.
    Over the course of the past 8 years many improvements have been 
made to the aviation security environment. We work closely with our 
Federal counterparts in the Department of Homeland Security (DHS), and 
it's a partnership we value greatly. For example, in Houston we have 
recently partnered with the Transportation Security Administration 
(TSA) to implement Explosive Detection System (EDS) baggage screening 
solutions in both major airports (IAH and William P. Hobby Airport 
(HOU)). Additionally, the Houston Airport System (HAS) and the TSA are 
actively working together on the Airport Surveillance Program, a 
project which provides funding for enhancements to the airports' 
existing Closed Circuit Television (CCTV) and related recording 
systems, and the TSA is preparing to implement full body scanner 
equipment at both IAH and HOU.
    But while aviation security has improved significantly since 9/11/
2001, the threat is an evolving one and much remains to be done. In the 
past year alone there have been numerous plots to destroy U.S. aviation 
assets. On an international level, the attempted bombing of a U.S. 
airliner on Christmas day reminds us that the aviation sector remains 
vulnerable to exploitation and attack, and within the Texas region, an 
airport in Dallas was initially assessed as a terrorist target by a 
self-radicalized extremist who had overstayed his visa.
    Airports face special challenges in ensuring airport security. 
While the Federal Government plays a key role in airport security 
matters, Federal law imposes principal responsibility on local airport 
operators (under 49 CFR  1540 and 1542) for securing the National 
Aeronautical Domain (NAD) within their particular region. As such, the 
Houston Airport System has identified many impediments that still exist 
regarding aviation security--impediments that could be minimized by the 
procurement of certain security technologies and the institution of 
certain Federal initiatives relative to: (1) Intelligence sharing, (2) 
risk assessment/critical infrastructure protection, and (3) field-based 
aviation security compliance technology.
    There are four key points I want to share with you today, and they 
all have to do with essential needs that airports such as ours in 
Houston face. They are the need for:
  <bullet> Improved, timely intelligence sharing and acquisition of 
        appropriate secure communications equipment to facilitate this;
  <bullet> Development by DHS of a standardized computer-based risk 
        assessment methodology targeted at threats facing airports;
  <bullet> Field-based devices for use by local airport security 
        personnel that enable real-time, proactive use of current 
        threat data; and
  <bullet> Funding to cover the associated costs of these measures and 
        of deployment of TSA's Advanced Imaging Technology units.
    Allow me to begin by identifying the single most critical issue for 
airport operators and their local security directors: the lack of 
timely and consistent dissemination of National threat intelligence 
information. This remains a constant frustration--one that even 
predates the tragedy of 9/11. On the State and local level, 
intelligence sharing has seen some improvement, but obstacles remain. 
As the committee well understands, the primary objective of 
intelligence sharing in the aviation security industry is to allow for 
a proactive approach in driving the security posture and program that 
is implemented at the ground level. However, airport security 
directors--i.e., the force with the most available security assets at 
an airport--generally do not receive the information from Federal 
sources that they deem necessary or on a timely basis, even though 
airports such as HAS employ personnel cleared to the appropriate 
Federal level; at IAH we have more than 200 security personnel, for 
example.
    As a result, airports often are able only to serve as a reactive 
force as opposed to the preferred proactive security model that we seek 
to field on a daily basis. The lack of adequate intelligence sharing 
renders airport security operators in the position of primarily 
conducting random baseline security measures. But if we received timely 
and accurate intelligence information we could adjust the airports' 
security posture to better counter current and evolving threats. 
Equally, understanding the potential efficacy of various threat streams 
would enable airport security authorities to proactively devise and 
employ appropriate countermeasures. The lack of timely and adequate 
information thus severely limits the proactive role that airport 
security directors can play, and overall reduces the efficacy of the 
available resources. This is a major gap in the system and it needs to 
be closed, and now.
    The absence of appropriate secure technology is a major impediment 
to the sharing of this information, and we understand the challenges 
that our Federal counterparts face in this regard. Unfortunately, 
comprehending threat, risk, and vulnerability--and thus being able to 
act on that information--has been greatly restricted due to technology 
and communication gaps caused by the bureaucracy involved in funding 
and obtaining the equipment needed to receive classified information. 
To correct this, certain technology must be made immediately available 
to the local airport security directors. This includes Secure Terminal 
Equipment (STE) telephones, a Secure Fax, and connections to the 
Homeland Secure Data Network (HSDN) and Secret Internet Protocol Router 
Network (SIPRNet). For example, for nearly 4 months now in Houston, 
HAS' intelligence coordinator, who possesses a Top Secret/Sensitive 
Compartmented Information (TS/SCI) clearance, has been working with DHS 
to procure the equipment needed to transact secure communications, but 
no DHS entity has been willing to provide the sponsorship needed for 
these acquisitions. While in this case both Federal and local 
intelligence partners have the desire to work collaboratively in the 
exchange of intelligence information, the systems do not appear to 
exist that would ensure the prompt and efficient acquisition of the 
necessary technology at the local level. This requires immediate 
attention.
    The lack of intelligence sharing is further exacerbated by the fact 
that there is no current Federal standard in the utilization of a 
particular risk assessment methodology across the air domain. While 
some U.S. airports may have incorporated a risk management program, 
there has been no standard risk assessment methodology prescribed by 
DHS. What is needed is a National, intelligence-led, risk-based 
security doctrine that seeks to target and mitigate vulnerabilities in 
a proactive and recurring fashion. We believe that DHS should adopt a 
standard risk assessment methodology for use across the NAD in order to 
facilitate a fair, equitable, and consistent comparison of commercial 
aviation facilities across the United States. The utility of this 
security construct is two-fold: (1) It would increase the overall 
security posture of the National aviation system, and (2) it would 
enable DHS to allocate scarce funding resources more fairly, 
consistently, and efficiently in addressing deficiencies from one 
airport facility to another. The integration of effective intelligence 
technologies and the identification of a particular risk assessment 
methodology would ultimately provide a more robust means by which to 
identify and implement appropriate countermeasures in the field, a duty 
which again is the primary responsibility of the local airport security 
operator.
    To close the loop and bring the benefits of good, timely 
intelligence information and uniform risk assessments into the field, 
we also need the prompt implementation of new technology. Therefore, we 
believe that an additional critical element of a well-constructed 
aviation security program would be the implementation of a standardized 
National aviation security compliance technology. For example, we would 
support the uniform implementation of a field-based hardware device 
loaded with software for data tracking/compliance to capture and data 
mine relevant security information throughout the aviation threat 
arena. The field-based reporting system we would support should be 
capable of capturing instant raw data by security area, category, and 
department. This raw data could then be used to generate predictive 
trend analysis and, if tied to a National database, could provide 
valuable real-time information that could also be analyzed and formed 
into risk assessment and compliance verification product at the 
National level. The compliance component of this software would ensure 
that standard, baseline security protocols mandated by TSA are being 
met, as well as any other unique local response protocols developed as 
a result of this intelligence-led, risk-based process.
    We are encouraged by the TSA's recent announcement of its plan to 
install Advanced Imaging Technology (AIT) at security checkpoints to 
replace current walk-though metal detection devices. This technology 
has the potential to enhance security and deserves further 
consideration. The airport industry has always been supportive of TSA's 
evaluation and installation of new technology to enhance security at 
the checkpoint and efficiency for the passenger. Unlike walk-through 
metal detectors, AIT can detect prohibited items that have little or no 
metallic content. AIT will also allow passengers with surgical implants 
to avoid the invasive physical pat-down inspections that come with 
walk-through metal detectors. TSA has now deployed the units to more 
than 19 airports, and is slated to deploy units at several more 
airports throughout this calendar year. Airports have encouraged TSA to 
pursue enhancements to checkpoint technology that will increase 
effectiveness, efficiency, and passenger throughput while continuing to 
provide passengers the option of alternate screening methods, and we 
see this development as very positive.
    However, several concerns remain that require immediate attention. 
First, many airports have severe limitations on the space requirements 
needed to install AIT units. Of the airports that responded to a recent 
survey conducted by Airports Council International--North America (the 
Nation's primary airport trade association), about half reported having 
limited checkpoint space. In order to accommodate AIT, some airports 
will lose concession space. This will mean a loss of non-aeronautical 
revenue during a time when airports are already experiencing extremely 
tight budgets and traffic declines due to the economy. For others, it 
will mean a complete reconfiguration of their checkpoint areas or 
reinforcing their terminal floors in order to support the weight of the 
units; this also is very expensive. Where will the funding come from 
for these changes? Many airports already face critical financial 
challenges, and these will be exacerbated by these additional security 
requirements. Airports are already severely limited by law in how they 
can fund their operations, and often face severe opposition when they 
attempt to increase user fees to accommodate the growing needs of our 
air transportation system. It is critical that Congress and DHS fully 
understand and provide for the significant costs associated with 
additional security requirements; this is not an issue that can be 
ignored. We need Congress and the DHS/TSA to work with airports to 
provide funding for the airport modifications necessary for 
installation of AIT units at airport checkpoints.
    In addition to terminal modifications, we are concerned about the 
throughput time that may be required to process passengers through AIT 
units as opposed to the time it takes to process them through walk-
through metal detectors. TSA has stated that they can process a 
passenger in 15 seconds; some airports that already have the units at 
their checkpoints have said that in reality it can take as long as 45 
seconds to process one passenger. Airports will continue to work with 
TSA locally to ensure that passenger queue time remains as efficient as 
possible, but ultimately airports have no control over the actual 
processing and utilization of TSA's equipment. Congress needs to 
provide the direction to DHS/TSA to ensure that these challenges are 
addressed speedily.
    In response to these concerns raised by airports at a recent 
meeting, Secretary Napolitano asked TSA to create a working group 
comprised of airport and TSA representatives to develop a coordinated 
plan for AIT deployment that considers passenger throughput and the 
costs associated with facility modifications. Although TSA, at the 
first working group meeting, confirmed that it plans to deploy the 
first 500 AIT units only to airports that have available checkpoint 
space and do not need facility modifications, the issue of checkpoint 
space and modifications will continue to be challenging for other 
airports, particularly small airports; this issue requires on-going 
attention. Given the lack of available funding necessary for facility 
modifications at checkpoint locations where space is limited, we hope 
that the working group process will result in a cooperatively developed 
technology deployment plan that identifies airport checkpoint locations 
where AIT can be readily deployed. We do ask however, that TSA provide 
funding, where necessary, for any terminal modifications or 
enhancements that may be required in order to properly install AIT 
units at airport checkpoints across the Nation. Congress needs to 
ensure that the security of our airports does not become an unfunded 
mandate left for our local communities.
    In conclusion, allow me to thank you for the opportunity to testify 
before the committee today. In terms of priorities I would like to 
conclude by asking the committee to focus on intelligence sharing 
matters first, the identification of a particular risk assessment 
methodology second, and the technology-based compliance program to 
follow. Finally, please remember that the fragile state of the aviation 
industry today cannot sustain the financial impact that the 
implementation of this overall security strategy will require; the 
burdens fall primarily on our Nation's airports, and considerable 
additional resources are required. Consequently, I would ask Congress 
not to impose any further unfunded mandates upon either the commercial 
aviation industry or the local airport operators that are the 
cornerstone of the industry.
    Madam Chairwoman and committee Members, thank you for your 
attention to these important issues. We greatly appreciate your 
consideration of these needs, which affect all of us and our Nation's 
security as a whole. We stand ready to work with you as necessary to 
achieve the appropriate solutions.

    Ms. Jackson Lee. Thank you very much. Thank you for your 
testimony.
    If the three witnesses would be kind enough to as quickly 
as possible summarize your testimony so that we can ask 
questions, we expect a series of votes, and we would like to 
show consideration of your presence here today. Thank you.
    Mr. Rotenberg, you are now recognized for your testimony.

  STATEMENT OF MARC ROTENBERG, EXECUTIVE DIRECTOR, ELECTRONIC 
                   PRIVACY INFORMATION CENTER

    Mr. Rotenberg. Madam Chairwoman, Members of the 
subcommittee, thank you for the opportunity to be here today. I 
will be brief.
    The issue of body scanners in the U.S. airports is one that 
my organization has studied since 2005. We began to pay 
particular attention in spring 2009 when the TSA announced that 
it would become the primary screening device for American air 
travelers here in the United States.
    We undertook a series of Freedom of Information Act 
requests. We brought suit against the Department of Homeland 
Security. We were trying to determine whether the privacy 
safeguards that had been incorporated in these devices worked 
as the TSA claims that they worked.
    I think it is very important for this committee to know, 
based on the documents that we have obtained from the TSA, that 
these devices as per the TSA technical specification 
requirements, have the capability to store and record and 
transmit the images that are captured on American air travelers 
in U.S. airports. This is contrary to what the TSA has told the 
American public.
    I also would like to share with the committee the 
complaints that the agency has received from American air 
travelers, who have been told by the agency that American air 
travelers much preferred these devices to the pat-down search. 
But if you read through the complaints that the agency has in 
fact received, you will find that not only do people object to 
the use of these devices, in many instances they are not even 
told of the alternative of the pat-down search. So we believe 
these consumer complaints should be considered as well.
    I would also like to point out that last year before the 
December incident, more than 30 organizations wrote to 
Secretary Napolitano and urged her to undertake a public 
rulemaking so that the public would have the opportunity to 
comment on the proposed deployment of the body scanners in the 
U.S. airports and so that technical experts would also be given 
an opportunity to give their independent evaluation of the 
proposal.
    The Secretary chose not to undertake the public rulemaking 
and went ahead with this very expensive, very intrusive, if I 
may say, uniquely intrusive technology for airport screening. 
We think this is particularly unfortunate.
    There is one other document that I would like to call to 
the committee's attention, and it was in fact not something we 
were looking for when we undertook the Freedom of Information 
Act request. Our primary concern is, of course, the privacy 
protection for American air travelers. But when we obtained the 
technical specification for the devices, we found something 
very interesting.
    That is that if you look at the requirements--this is the 
July 2006 TSA technical specification document, and I will be 
pleased to provide copies of this to the committee--you will 
see that the devices are intended to target explosives, 
weapons, liquids, and other anomalies. But there is no mention 
of powders, no mention of PETN, no mention in fact of precisely 
the threat that presented itself on December 25.
    Our initial conclusion was that in fact these devices were 
not designed to detect that type of explosive material, that 
the TSA was pursuing other technologies such as the puffer 
devices to deal with that risk. Our suspicion, I think, has 
been corroborated by the GAO report, which seemed to reach a 
similar conclusion about the capability of these devices to 
detect the materials that were used on December 25.
    If that is the case that the devices cannot detect powdered 
explosives and that they are unduly intrusive, then we think it 
would be important to reconsider at this point whether the 
proposed deployment to U.S. airports really make sense. If they 
are not effective, if they are overly intrusive, we think this 
is not the best screening technology for U.S. airports. Thank 
you.
    [The joint statement of Mr. Rotenberg and Ms. Coney 
follows:]

      Joint Prepared Statement of Marc Rotenberg and Lillie Coney
                             March 17, 2010

    EPIC is non-partisan public interest research organization, based 
in Washington, DC. Founded in 1994, EPIC was established to focus 
public attention on emerging privacy and civil liberties issues. EPIC 
has a particular interest in techniques for screening passengers and 
other practices of Federal agencies that implicate privacy interests. 
This is a summary of our prepared statement.
    First, we are grateful to the subcommittee for holding this 
hearing. The recent report of the Government Accountability Office 
(GAO) has made clear that there are important questions that need to be 
asked about the effectiveness of checkpoint security. EPIC believes 
that the deployment of whole body imaging devices in U.S. airports 
illustrates the challenges facing DHS.
    Second, as a result of an extensive Freedom of Information Act 
lawsuit that EPIC has pursued against the Department of Homeland 
Security, we have obtained documents concerning the TSA screening 
practices and the use of body scanners that we believe are of interest 
to the committee. Based on these documents, which include the TSA 
Procurement Specifications, the TSA Operational Requirements, and 
vendor contracts, we have determined that:
  <bullet> The device specifications for body scanners include the 
        ability to store, record, and transfer images, contrary to the 
        representations made by the TSA;
  <bullet> The device specifications include hard disk storage, USB 
        integration;
  <bullet> Ethernet connectivity that raise significant privacy and 
        security concerns;
  <bullet> The device specifications include ``super user'' (``Level 
        Z'') status that allows TSA employees to disable filters and to 
        export raw images; and
  <bullet> The DHS Privacy office failed to adequately assess the 
        privacy impact of these devices.
    Third, the documents EPIC obtained also raise the question of 
whether in fact whole body imaging systems, either millimeter wave or 
backscatter X-ray, could detect the powdered explosive PETN that was 
involved in the December 25 incident. We noted that the procurement 
specifications described devices that were capable of detecting 
``explosives,'' ``weapons,'' and ``liquids'' but not ``powders.'' Our 
finding is similar to the preliminary conclusion of the GAO and 
independent experts.
    Fourth, EPIC subsequently obtained from the TSA records of 
complaints from travelers who went through the devices. Travelers 
reported that they were not told about the pat-down alternative or that 
they were going to be subject to a body scan by TSA officials. 
Travelers also expressed concern about radiation risks to pregnant 
women and the capture of images of young children without clothes. And 
travelers have expressed religious objections to body scanners.
    Fifth, EPIC and other organizations have recommended that the 
deployment of body scanners be suspended, pending an independent review 
to evaluate health impacts, privacy safeguards, and effectiveness. We 
hope that the subcommittee will have the opportunity to review these 
issues in more detail at a subsequent hearing.
    In conclusion, we favor the use of airport screening techniques 
that are minimally intrusive and maximally effective. Unfortunately, 
the body scanners now being deployed in the Nation's airport are almost 
the exact opposite--they are uniquely intrusive as they allow the 
Government to photograph air travelers stripped naked regardless of 
suspicion. And serious questions have been raised about the 
effectiveness of these devices to detect and prevent a person from 
boarding a plane with a powdered explosive.
    EPIC would be pleased to provide to the subcommittee the documents 
we have obtained in our open government lawsuit concerning the use of 
body scanners in U.S. airports.
    Thank you for the opportunity to participate in the hearing today.

                               REFERENCES

EPIC--Whole Body Imaging Technology and Body Scanners (``Backscatter'' 
X-ray and Millimeter Wave Screening) http://epic.org/privacy/airtravel/
backscatter/

EPIC--Nader Letter to President Obama Urging Suspension of Body 
Scanners (Feb. 24 2010) http://epic.org/privacy/airtravel/backscatter/
EPIC-Nader_WBI_Letter.pdf

GAO, ``Homeland Security: Better Use of Terrorist Watchlist Information 
and Improvements in Deployment of Passenger Screening Checkpoint 
Technologies Could Further Strengthen Security'' (Jan. 27, 2010) http:/
/www.gao.gov/products/GAO-10-401T

[Additional attachments will include documents obtained by EPIC under 
FOIA].

    Ms. Jackson Lee. Thank you very much. We are very much 
interested in Mr. Miller and Mr. Laskey, if they could be 
abbreviated so that we can pose questions. Otherwise, we have 
five votes that will be at least 45 minutes or so for the 
committee to be in recess.
    Mr. Miller, you are now recognized.
    Thank you, Mr. Rotenberg, for your testimony. I hope that 
you will be able to submit the material that you have on the 
FOIA request to the committee and if the staff can work with 
you on that.
    To Colonel Potts, I believe H.R. 2200 has an intelligence 
sharing component to it, and we hope the Senate will pass that 
legislation.
    Mr. Miller, you are recognized.

 STATEMENT OF HASBROUCK B. MILLER, VICE PRESIDENT, GOVERNMENT 
                   AFFAIRS, SMITHS DETECTION

    Mr. Miller. Thank you very much. Good afternoon, Chairwoman 
Jackson Lee, Ranking Member Dent and Members of the 
subcommittee. My name is Brook Miller, and I am a vice 
president of Smiths Detection. I appreciate the invitation to 
testify here today.
    As the subcommittee develops policy on checkpoint security, 
we urge you to keep in mind three points. First, Smiths 
Detection strongly supports a multi-layered approach to 
screening checkpoint both in the United States and abroad that 
includes a combination of best-in-class technologies. Multiple 
layers are important, because despite recent significant 
technological leaps forward, there is no one silver bullet.
    Second, Smiths believes homeland security and personal 
privacy are not mutually exclusive.
    Third, while Smiths and DHS are strong and long-standing 
partners, we believe there are ways to foster additional 
dialogue between us that would promote the development of 
security solutions.
    Before going into some detail, I will brief you now on 
Smiths Detection. We manufacture state-of-the-art detection 
products around the world, including Maryland, Tennessee, 
Connecticut, and Rhode Island. Having customers around the 
globe gives us a new, unique depth and understanding of 
security practices and technology use. In the United States DHS 
is one of our leading partners. We are pleased to have 
customers TSA, CBP, and other DHS components, as well as the 
U.S. Military Transit Authority, first responders, among many 
others.
    To elaborate on the key points for a multi-layered 
approach, the first vital layer is disseminating actionable 
intelligence to TSA personnel on the front lines.
    Second, we must not lose sight of the key role that TSA 
screeners play. We share your commitment to ensuring TSA 
personnel are recognized for the critical work they do and 
receive the best possible training.
    Third, and with the combination of advanced technologies, 
we can both promote security and address passenger 
frustrations. These advanced technologies include advanced X-
ray technology, bottle liquid scanners for carry-on bags, 
advanced imaging technology, and expanded use of explosive 
trace detection for passenger screening.
    For screening of carry-on bags, Science and Technology and 
TSA work with Smiths and others to develop the next generation 
of AT. Our system, known as atix, allows for multiple angled 
views of each carry-on bag with a ready ability to upgrade the 
system with advanced software and algorithms. We ask the 
subcommittee's support in ensuring continued deployment of AT, 
which maximizes the chance of detection on carry-on threats.
    Smith has also worked with DHS on developing bottle liquid 
scanners, which are being actively installed in airports today 
and allow for screening of containers that passengers would 
otherwise be barred from taking beyond the checkpoint.
    Moving to passenger screening, we applaud the expanded use 
of trace detection, which is a well-established and effective 
means of detecting explosive residue.
    Lastly, on advanced imaging technology, also known as body 
scanners, we support TSA's plans to deploy upward of 1,000 
units by the end of next year, utilizing the technology for 
primary screening. This technology significantly increases the 
likelihood of detecting on individuals plastic explosives and 
other threats undetectable by conventional metal detectors.
    Smiths AT is known as eqo. It currently is in the TSL lab 
evaluation stage of approval. This next generation technology 
allows for a small physical footprint and real-time imaging 
capabilities with the promise of faster throughput.
    Smiths is encouraged that travelers have become 
increasingly comfortable with AIT when they experience it for 
themselves. As with any technology or procedure, both operators 
and the traveling public need to get some time to get 
comfortable and efficient with its use, including the right of 
passengers to opt for an alternative screening method. Near-
term deployment of automated threat detection should further 
enhance security needs and address more privacy concerns.
    AIT, of course, is an essential component of an effective 
multi-layered approach, but we must not lose sight of the 
urgent need to coordinate international aviation security 
standards. We support DHS and Department of State's continuing 
and active efforts to harmonize security standards and 
practices around the world, and especially at airports which 
originate flights to the United States.
    Chairwoman Jackson Lee, Ranking Member Dent and Members of 
the subcommittee, thank you for the opportunity to testify. I 
look forward to your questions.
    [The statement of Mr. Miller follows:]

               Prepared Statement by Hasbrouck B. Miller
                             March 17, 2010

  I. INTRODUCTION TO SMITHS DETECTION'S ROLE IN U.S. HOMELAND SECURITY

    Good afternoon, Chairwoman Jackson Lee, Ranking Member Dent, and 
Members of the subcommittee. My name is Hasbrouck ``Brook'' Miller, and 
I am vice president for government affairs for Smiths Detection, 
Incorporated.
    I sincerely appreciate your invitation to testify here today on 
aviation checkpoint security. This is always a critical subject for 
Smiths Detection, this subcommittee, and the Transportation Security 
Administration (``TSA''), and it is one that has rightly garnered 
increased media attention after the attempting bombing on Northwest 
Airlines Flight 253 on December 25.
    Before I delve into how the private sector, the U.S. Government, 
and foreign governments have addressed and can address the vital issues 
the Christmas day attack brought back to the forefront, I thought I 
would start by providing some background on Smiths Detection. Our 
company is part of a set of several technology and engineering 
enterprises known collectively as Smiths Group. Smiths Detection (or 
``Smiths,'' for short) specializes in making best-in-class detection-
oriented products to help bolster our Nation's homeland security and 
defense capabilities. Smiths is headquartered in the United Kingdom.
    Smiths has customers worldwide, approximately 90 percent of which 
are national governments. The U.S. Government is by far our largest 
customer. The U.S. Department of Defense has procured several types of 
chemical detection equipment from Smiths to help protect our troops in 
the field.
    The Department of Homeland Security (``DHS'') is an equally 
significant partner of Smiths. First, we work closely with the Science 
& Technology Directorate (``S&T'') to develop state-of-the-art 
detection technologies. When we bring those technologies to market, the 
Transportation Security Administration (``TSA''), Customs and Border 
Protection (``CBP''), the Federal Protective Service (``FPS''), the 
Secret Service and Capitol Police and other DHS components, not to 
mention DHS transit authority and first-responder grant recipients at 
the State and local level, procure detection equipment from Smiths to 
augment our Nation's aviation, mass transit, port, and border security.

  II. SMITHS SUPPORTS A MULTI-LAYERED APPROACH TO CHECKPOINT SECURITY

    Many airports in the United States and abroad use similar Smiths 
equipment to scan carry-on bags at aviation security checkpoints, which 
brings us to the subject of today's hearing. To maximize our aviation 
security while keeping passengers moving and protecting their privacy, 
Smiths strongly supports a multi-layered approach at the screening 
checkpoint.
    Members of the subcommittee, you have heard other speakers today 
mention the importance of one of those layers: Collecting, 
coordinating, distilling, and disseminating actionable intelligence to 
and within DHS, including to the TSA personnel on the front lines. We 
at Smiths could not agree more.
    Another vital layer is the human layer. Simply put, Smiths views 
those TSOs on the front lines as irreplaceable. Madam Chair and 
Congressman Dent, we share in your commitment to ensuring that TSA 
personnel are recognized for the critical work they do, including by 
working hand-in-glove with technologies every day, and that they 
receive the best possible training to do it. Furthermore, to help guide 
their efforts and ours, Smiths also shares your desire for the Senate 
to confirm a TSA Administrator as soon as possible.
    Let me now turn to the layers of checkpoint security Smiths knows 
best: Employing the best possible technologies to help detect anomalies 
and potential threats on passengers and in carry-on bags.

III. DETECTING THREATS IN CARRY-ON BAGGAGE THROUGH ADVANCED TECHNOLOGY 
                                  (AT)

    Before examining the headline-grabbing issue of Advanced Imaging 
Technology (AIT) ``body scanners'' and other aspects of on-body 
detection, I would like to mention the innovations that DHS, Smiths, 
and other industry members have undertaken recently with regard to 
examining carry-on items. Specifically, Advanced Technology (AT) 
systems represents a significant leap forward for screening carry-ons, 
as part of a multi-layered approach to checkpoint security.
    For the last several years, S&T and TSA have worked with Smiths and 
others to develop the next-generation of bag-scanning technology, known 
as AT. Smiths' AT equipment is known as the ``atix,'' a type of AT 
equipment that uniquely allows for multiple-angled views of each carry-
on bag. Since early 2008, TSA has deployed the atix in multiple U.S. 
airports, including Baltimore-Washington, Denver, and Albuquerque.
    In Smiths' view, AT and atix offer many new benefits compared to 
the alternatives, which include previous-generation X-ray technologies 
and more expensive Computer Tomography (CT). In fact, descriptions of 
AT from TSA itself may say it best:

    ``Advantages of AT X-ray include a greatly enhanced image with the 
        ability to target novel threat items resulting in fewer bag 
        checks and faster throughput, and the ability to upgrade the 
        system with enhanced algorithms . . .''.\1\
---------------------------------------------------------------------------
    \1\ www.tsa.gov/press/releases/2008/0715.shtm.

    `` . . . smaller than previously available explosive detection 
        systems.''\2\
---------------------------------------------------------------------------
    \2\ Id.

    ``AT systems are highly cost-effective . . .  AT training is 
        relatively easy . . .''.\3\
---------------------------------------------------------------------------
    \3\ http://www.tsa.gov/approach/tech/advanced_technology.shtm.

    By the end of 2009, TSA was scheduled to have deployed 
approximately 900 AT units for the approximately 2,200 commercial 
aviation checkpoints in the United States. Smiths strongly supports TSA 
continuing to deploy ATs to examine carry-on bags. As part of its 
deployment plan, Madam Chairwoman and Ranking Member Dent, we trust you 
will join us in looking forward to TSA deploying AT units that maximize 
the chances of detection and deterrence of carry-on threats.
    Smiths is also excited about our work with S&T and TSA to develop 
and deploy another form of Advanced Technology: Bottle Liquid Scanners 
(``BLS''). TSA recently decided to procure some of Smiths' portable 
``RespondeR'' BLS units, which are manufactured in Danbury, 
Connecticut. The RespondeR uses spectrometry technology to look through 
passengers' liquid containers without opening or damaging them, in 
order to identify and distinguish safe liquids from those containing 
threatening substances. BLS will increase both convenience and safety 
for the traveling public.

  IV. ENSURING SECURITY AND PRIVACY WITH ADVANCED IMAGING TECHNOLOGY 
                            (AIT) AND TRACE

IV.A. Ensuring Security
    The final aspect of multi-layered checkpoint security, Madam 
Chairwoman and Ranking Member Dent, is the one that may have received 
the most attention in the aftermath of the attempted attack on 
Northwest Flight 253 on December 25: Scanning the passenger for on-body 
threats, including the use of Advanced Imaging Technology (AIT). In 
fact, on January 7, 2010, President Obama himself called for `` . . . 
greater use of the advanced explosive detection technologies that we 
already have, including imaging technology, and working aggressively . 
. . to develop and deploy the next generation of screening 
technologies.''
    Smiths believes the administration's current and future deployments 
of AIT, also known as Whole Body Imaging or ``body scanning,'' are a 
vital part of a comprehensive, layered detection capability. We 
particularly support TSA's new approach of combining AIT deployments 
with increased use of other technologies that also can identify non-
metallic, on-body threats at the airport checkpoint, such as trace 
explosives detectors.
    While AIT and trace are not full-proof, nothing by itself is, they 
significantly increase the chances of detecting on-body plastic 
explosives, such as the PETN compound allegedly used by Umar Farouk 
Abdulmutallab. Those non-metallic threats are simply undetectable by 
conventional metal detectors.
    As a result, Smiths strongly supports TSA's deployment schedule for 
AIT. In 2009, TSA deployed 40 millimeter wave AIT systems, at six U.S. 
airports for primary screening and at the other 13 as an alternative to 
pat-downs for secondary or random screening. TSA plans to deploy 
approximately 450 AITs, using millimeter wave or the alternative 
backscatter technology, in fiscal year 2010. In its fiscal year 2011 
budget request, DHS has called for $214.7 million to fund the 
procurement of 500 additional AIT units. If Congress funds the fiscal 
year 2011 request, TSA is expected to have ordered approximately 1,000 
AITs by the end of fiscal year 2011, which would cover almost half of 
the approximately 2,200 U.S. checkpoints. Industry is fully capable of 
meeting, or even exceeding, that deployment schedule, and Smiths 
supports the administration's request.
    Smiths also supports DHS's $60 million request for portable trace 
detection equipment. Trace can augment checkpoint security by detecting 
explosive particles on travelers' hands, clothing, or luggage, since 
explosives can be sticky enough to remain there, even after repeated 
washing.
    Smiths also encourages DHS and the Department of State to continue 
their important efforts to foster international standardization on and 
deployment of AIT, trace, and other checkpoint technologies and 
practices. Fortunately, the United Kingdom, the Netherlands, Ireland, 
and other countries are partnering with the administration in this 
effort, but it is clearly in its initial stages.
    As a company with a global presence, Smiths knows all too well that 
many airports, including those hosting U.S.-bound flights and 
especially in the developing world, have a long way to go to match up 
to the steps that DHS is taking in the United States. It may be time to 
examine the possibility of further U.S. assistance to spur upgrades in 
the developing world's security infrastructure.

IV.B. Smiths' ``eqo,'' Next-Generation AIT
    Madam Chairwoman, let me turn to Smiths Detection's specific work 
on AIT. Smiths' AIT product is known as the ``eqo,'' which we developed 
after licensing the basic technology from Argonne National Laboratory 
several years ago. President Obama was right in his January 7 speech: 
Partnering with the National Labs can produce results. The end result 
for Smiths in this case is the eqo, a next-generation AIT system that 
uses safe millimeter waves to generate three-dimensional images of a 
person's body, in order to look for anomalies such as explosives, 
weapons, drugs, or other contraband.
    The eqo possesses a couple of key attributes that distinguish it as 
a next-generation AIT. First, as a flat-panel system with a metal-
detector-like arch, the eqo is small and checkpoint-friendly. This is 
an especially important feature for smaller airports where real estate 
is tight. Second, the eqo generates real-time, moving images, which 
allow for better angles to detect anomalies. Third, those real-time 
images, by definition, require no downloading time. Smiths estimates 
this development will lead to faster throughput when the eqo undergoes 
field testing in U.S. airports.
    Prior to field testing, the Transportation Security Lab (``TSL'') 
in Atlantic City has been testing the eqo in the lab for several 
months. Madam Chairwoman and Ranking Member Dent, we would like to find 
out more details about DHS's time line for its lab testing and 
subsequent field testing of the eqo.

IV.C. Ensuring Privacy
    At the same time, Members of the subcommittee, while Smiths 
believes that AIT brings an important new technological capability to 
the airport checkpoint, we also believe that homeland security and 
personal privacy are not mutually exclusive concepts. The traveling 
public deserves to be assured the AIT equipment used by the TSA is 
capable of guarding their privacy and their security simultaneously. 
Therefore, Smiths also supports the robust dissemination, or even the 
codification, of TSA's privacy protections for AIT. These protections 
are already in place, but not always widely publicized or consistently 
implemented. Again, the traveling public deserves no less.
    Smiths is encouraged that travelers become increasingly comfortable 
with AIT when they experience it for themselves. According to TSA, over 
98 percent of passengers who have experienced AITs prefer them to 
alternative screening methods.\4\ In comparison, a January Gallup/USA 
Today poll finds 78 percent of U.S. all air travelers, including those 
who have not undergone AIT screening, approve of the AIT concept.\5\
---------------------------------------------------------------------------
    \4\ http://www.tsa.gov/approach/tech/imaging_technology.shtm.
    \5\ http://www.usatoday.com/travel/flights/2010-01-11-security-
poll_N.htm.
---------------------------------------------------------------------------
    Still, Smiths wants to ensure passengers are as informed as 
possible when using AIT technology. Therefore, to supplement the 
efforts of TSA and the Congress, Smiths adheres to its own ``Seven 
Points of Privacy'' when discussing the use of AIT:

    (1) AIT equipment should blur all facial features on its images. 
        TSA and the Smiths eqo take this approach.

    (2) TSA officers should view AIT images at remote locations, where 
        no cameras or cell phones are permitted. AIT equipment should 
        transmit all images to that remote location via a secure 
        connection. TSA and the eqo take this approach.

    (3) TSA officers viewing the images from that location should talk 
        by wireless headset to TSA personnel at the checkpoint to clear 
        the traveler if nothing suspect appears on the image. TSA and 
        the eqo take this approach.

    (4) TSA should have sufficient resources to support a policy that 
        would require male TSA personnel to view male images and female 
        personnel to view female images. TSA does not currently 
        implement this policy.

    (5) TSA should disable AIT equipment for field use to make it 
        incapable of saving, e-mailing, or printing any images. TSA and 
        the eqo take this approach, although TSA understandably 
        temporarily enables AITs to save images during earlier off-
        airport training of TSA personnel.

    (6) AIT equipment should automatically and irrevocably delete each 
        image after TSA clears the passenger. TSA and the eqo take this 
        approach.

    (7) TSA should provide travelers with an alternative for primary 
        screening: A combination of a metal detector, trace detection, 
        and a pat-down. TSA and S&T should partner with industry to 
        continue to develop computer-driven auto-detection capabilities 
        and to provide other comparable technological alternatives. DHS 
        and Smiths take this approach.

    However, as the Members of the subcommittee know, a floor amendment 
added last June to the House TSA reauthorization bill (H.R. 2200), if 
enacted into law, would bar AIT from serving as a primary screening 
option. The language would permit AIT to be used only ``for-cause'' 
secondary screening. Smiths views the amendment's approach as 
problematic. Since metal detectors cannot detect plastic explosives or 
other non-metallic weapons, TSA may never pull aside for secondary 
screening a potential assailant, especially a professional who does not 
appear agitated. That could leave us with a problem comparable to the 
one we faced on Christmas when, as has been reported, Mr. Abdulmutallab 
never went through the AITs deployed at Amsterdam's Schiphol Airport.
    Instead, Smiths urges the Congress to advance alternative language 
to enhance security, protect privacy, and codify TSA policy on AIT. We 
support legislation to encourage comprehensive deployments of multi-
layered, advanced technologies, with passengers choosing among suitable 
options for primary screening.
    Chairwoman Jackson Lee, Ranking Member Dent, and Members of the 
subcommittee, thank you very much for the opportunity to testify. I 
look forward to your questions.

    Ms. Jackson Lee. Thank you very much, Mr. Miller.
    Mr. Laskey.

   STATEMENT OF MITCHEL J. LASKEY, PRESIDENT AND CEO, BRIJOT 
                     IMAGING SYSTEMS, INC.

    Mr. Laskey. Thank you, Chairwoman Jackson Lee, Ranking 
Member Dent and Members of the subcommittee. Thank you for the 
opportunity to address you today.
    Brijot Imaging Systems has developed an advanced imaging 
technology called the Brijot SafeScreen. It does not reveal any 
anatomical detail of the traveler being screened or emit 
radiation. Using passive millimeter wave technology, the 
solution detects anomalies in temperatures by measuring natural 
millimeter wave energy emitted by the human body.
    In addition to protecting the privacy of the traveler, 
passive millimeter wave technology is better at detecting 
hidden objects than the current imaging technologies currently 
deployed.
    Active millimeter wave scanner technology showers 
passengers with either microwave energy or ionizing radiation. 
Those systems produce images by looking at the energy reflected 
back off the body and searching for any shapes on the body that 
don't belong. This technique can run amiss for explosives that 
are concealed in certain ways.
    Passive millimeter wave technology, on the other hand, 
detects the difference between the millimeter waves your body 
emits naturally and the hidden object, making it more likely 
that a powder or liquid will be found.
    As evidence of the public acceptance of our technology, it 
has been approved for use as safe by the Kingdom of Saudi 
Arabia, where more than 90 percent of the population is Muslim. 
I have also submitted a letter for the record from the testing 
laboratory at the Vatican that approves passive millimeter wave 
technology for use.
    Compared to the currently deployed advanced imaging 
technologies, Brijot's SafeScreen has a smaller footprint, 
takes up less than two-thirds of the space that is planned for 
TSA requirements. It increases throughput by two-fold and has a 
lower total cost of ownership.
    In addition to deployments to airports in the United 
Kingdom and Indonesia and as evidence of the international 
demand for passive millimeter wave technology, we have 
responded to multiple requests and conducted trials throughout 
both Europe and the Asia-Pacific region. We continue to have 
pending requests for future trials in places like France, 
Germany, Poland and Romania, Taiwan, Sri Lanka, and Vietnam.
    In the mean time we are also moving forward with TSA as 
part of their qualified products list process to receive the 
necessary approval to deploy systems in the U.S. airports. As a 
small company doing business with TSA for the first time, I can 
say that the process has sometimes appear daunting. I think 
that our colleagues at the TSA will agree that we had a lot to 
learn about the process, and they probably have a lot to learn 
about passive millimeter wave technology.
    Our first opportunity to be considered by TSA for approval 
was in 2006 when TSA issued a broad agency announcement for 
what was referred to as whole body imagers. Due to the relative 
newness of our passive millimeter wave technology at that time, 
the specifications that were written did not match up with what 
we had to offer, and therefore we were unable to respond.
    Two technologies were approved during this initial process, 
however, and they remain the only two advanced imaging 
technologies that are available for implementation in U.S. 
airports today.
    In April 2008 TSA reopened and reentered the qualified 
products list process. Again, as a small company that had never 
done business with TSA, we had a lot of questions and I think 
it is fair to say have experienced a couple of snags as we 
learned how to navigate through this process.
    I am pleased to report that Brijot SafeScreen has been in 
testing at TSA in a simulated checkpoint environment to 
evaluate how it will perform under various concepts of 
operation and to collect operating metrics such as throughput 
and false alarm rates.
    While we are encouraged with our progress within TSA, the 
events of Christmas day have changed the international 
landscape and provided an unintended advantage of the two 
technologies that were approved as part of the initial 
certification process begun in 2006.
    Prior to Christmas day our international business prospects 
were booming. Governments wanted a security solution that 
provides privacy and protect health. However, given the recent 
renewed prominence of TSA's role in establishing international 
aviation security standards, we are now being told by our 
partners overseas that we must first receive TSA approval 
before our technology can be deployed at airports. We are, as 
you can possibly imagine, anxious for this approval and eager 
to work together with TSA toward earning it.
    I am very grateful for the opportunity to share our story 
with you today and thank you for all your time.
    [The statement of Mr. Laskey follows:]

                Prepared Statement of Mitchel J. Laskey
                             March 17, 2010

    Chairwoman Jackson Lee, Ranking Member Dent, and Members of the 
subcommittee, thank you for the opportunity to address you today.
    Brijot Imaging Systems was established in 2004. We are a small 
business in every sense of the word, with approximately 50 employees 
working directly for the company. Brijot Imaging Systems is a global 
leader in passive millimeter wave technology, with customers in the 
global homeland security, loss prevention, and DoD markets. I expect 
our company to triple in size over the next 2 years as the demand for 
screening technology that protects both privacy and health continues to 
grow domestically and internationally.
    We have developed an advanced imaging technology system, called 
SafeScreen, for use at airport checkpoints. Passive millimeter wave 
technology is unique in that it does not reveal the anatomical details 
of the individual being screened, nor does it emit radiation. Instead, 
it detects anomalies in temperature by reading the natural millimeter 
wave energy emitted by the human body.
    In addition to protecting the privacy of the traveler, passive 
millimeter wave technology is safe and better at detecting hidden 
objects than current advanced imaging technologies.
    Active millimeter and backscatter technologies shower passengers 
with either microwave energy or ionizing radiation. Those systems 
produce images by looking at the energy reflected back off of the body, 
and searching for any shapes on the body that do not belong. This 
technique can miss explosives that are disguised in certain ways.
    Passive millimeter wave technology, on the other hand, detects a 
difference between the millimeter waves your body emits naturally and 
the energy emitted from a hidden object, making it more likely that a 
powder or liquid will be found.
    Compared to currently deployed advanced imaging technologies, 
SafeScreen has a smaller footprint, taking up less than two-thirds of 
the space that is planned for in the Transportation Security 
Administration's (TSA) requirements; increases throughput by two-fold; 
and has a lower cost of ownership.
    We received SAFETY Act certification in April 2009, and have been 
tested and approved for use by the Sandia National Laboratories, the 
U.S. Air Force Research Laboratory, the U.S. Marshal Services, as well 
as by the governments of Israel, France, Germany, Scotland, and Italy.
    In September 2007, the U.K. Home Office Scientific Development 
Branch also tested and approved our technology for U.K. government 
purchase. In December of that year, Brijot received a contract to 
deploy systems nationally to U.K. seaports and airports.
    We have submitted a statement for the record from John Whyte, the 
past Deputy Director of Her Majesty's Revenue & Customs and Chair of 
Detection Technology Board, who believed that this technology can 
detect not only drugs and currency concealed on the body, but would 
also be useful in meeting the other requirements of the U.K. border 
agency, including the detection of hidden documents. He said:

``The testing program for this equipment was rigorous and it was clear 
that Brijot listened and responded to our needs. This approach was most 
welcome and an integral part of our decision to purchase Brijot's 
equipment.''

Without releasing sensitive information, I can share that large 
currency and drug seizures have resulted from our technology's 
deployment at U.K. ports of entry.
    Our first system designed for an airport security checkpoint was 
deployed to Heathrow Airport in 2006 on a trial basis. Based on the 
same passive millimeter wave technology that is currently being tested 
by TSA for deployment to U.S. airports, this particular piece of 
equipment was designed to meet U.K. border agency requirements. It has 
a very small footprint, is mobile, and able to operate on batteries. 
Our systems are still deployed at Heathrow, as well as six other 
airports in the U.K. today.
    As evidence of public acceptance of our technology, it has been 
approved as safe to use by the government of Saudi Arabia, where more 
than 90 percent of the population is Muslim.
    It has also been tested and approved for use by the testing 
laboratory of the Vatican.
    As further evidence of the continued international demand for 
passive millimeter wave technology, we have responded to requests and 
conducted trials at airports in China, Italy, India, Malaysia, the 
Middle East, and the Philippines. We also have pending requests for 
future trials in France, Germany, Poland, Romania, Ireland, Taiwan, 
Kenya, Sri Lanka, and Vietnam.
    Although not the purpose of this hearing, I think it is worth 
briefly mentioning the use of passive millimeter wave technology as a 
loss prevention measure in the commercial market, where it is much 
easier to identify Return on Investment (ROI). Our systems are deployed 
to large distribution centers for global retailers across the country 
and typically achieve ROI within 3 months of implementation due to 
reduced shrinkage. Brendan Alexander, the Director of Loss Prevention 
for Best Buy Canada, said:

``As a retailer that has relied on more traditional security measures 
such as metal detectors for the past 20 years, we have evolved our 
screening process by incorporating less intrusive, faster and more 
accurate technology measures as those offered by passive millimeter 
wave systems.''

    In the meantime, we are also moving forward with TSA as part of 
their Qualified Product List (QPL) process to receive the necessary 
approval to deploy systems to U.S. airports.
    As a small company doing business with TSA for the first time, I 
can say that the process has sometimes appeared daunting. I think our 
colleagues at TSA will agree that we had a lot to learn about the 
process, and they probably had something to learn about passive 
millimeter wave technology.
    Our first opportunity to be considered by TSA for approval was in 
2006 when TSA issued a Broad Agency Announcement for what was then 
referred to as ``Whole Body Imagers (WBIs).'' Due to the relative 
``newness'' of our passive millimeter wave technology at that time, the 
specifications that were written did not match up with what we have to 
offer and we were unable to respond.
    Two technologies were approved during this initial process, and 
they remain the only two whole body imaging technologies that are 
currently available for implementation at U.S. airports today.
    In April 2008, TSA reopened--and we entered--the QPL process for 
whole body imaging technology. Again, as a small company that had never 
done business with TSA, we had a lot of questions and I think it's fair 
to say--have experienced a couple snags as we learned how to navigate 
the process. By 2008 we developed a new product called SafeScreen, 
using the same passive millimeter wave technology, that conformed to 
the TSA requirements and specifications.
    I am pleased to report that SafeScreen has been in testing this 
week at TSA in a simulated checkpoint environment to see how it will 
perform under various concepts of operation and to collect operating 
metrics such as throughput and false alarm rates.
    While we are encouraged with our progress within TSA, the events of 
Christmas day have changed the international landscape and provided an 
unintended advantage to the two technologies that were approved as part 
of the initial certification in 2006. Prior to Christmas day 2009, our 
international business prospects were booming--people wanted a security 
solution that provided privacy and protected health. However, given the 
recently renewed prominence of TSA's role in establishing international 
aviation security standards, we are now being told by our partners 
overseas that we must first receive TSA approval for our technology 
before it can be deployed at their airports.
    We are, as you can imagine, anxious for this approval and eager to 
work with TSA toward earning it.
    I am grateful for the opportunity to share our story, and thank you 
for your time today. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Ms. Jackson Lee. Let me thank you all for your testimony. 
We are going to stand in recess. We will return for questions 
on all the witnesses. Thank you. The committee stands in 
recess.
    [Recess.]
    Ms. Jackson Lee. The hearing is reconvened. Thank you for 
your patience. We will now proceed with the questions.
    Mr. Dunlap, you have expressed concerns about the 
throughput rate of passengers through the AIT machines, but 
would you agree that AIT offers better screening technologies 
than the current walk-through metal detectors?
    Mr. Dunlap. What I agree is that it is an interesting, new, 
and novel technology that gives us detection capabilities that 
we don't have right now. But AIT is not a new technology, as 
you know. AIT has been in various degrees of investigations 
since 1994. I believe that the first meeting that was had in 
the city under the FAA was in 1995.
    So there has been a period of 15 years where we have been 
able to examine both the strengths and vulnerabilities of this 
technology. Soon we would be putting a technology into our 
airports in which the vulnerabilities have been studied by our 
adversaries for a number of years. That would give us concern.
    Ms. Jackson Lee. Is concern a pathway toward prohibition?
    Mr. Dunlap. No, not at all. I think as you take a 
technology like AIT and drop it into a checkpoint, you need to 
make two fundamental calculations. First calculation is are 
there more strengths than weaknesses? The second calculation 
would be what is the effect on passenger throughput? You know, 
ideally, we would like to see throughput around 200 passengers 
an hour, but we understand right now some of the systems are 
only at 160 passengers per hour.
    Second, the thing that doesn't get talked about is that AIT 
is going to require a different way that a passenger will have 
to present themselves at the checkpoint. So right now if we 
read the TSA's website, it says, ``Please take all the metallic 
objects off your body.'' Under AIT you will have to say, ``Take 
off your metallic objects. Take off any kind of hard plastic, 
non-metallic objects.'' That is going to have to go somewhere. 
That is going to have to go into our X-ray machines.
    So if you drop AIT in, the next calculation you will have 
to have is what is the effect of AIT on the X-ray machines? 
Most probably that will mean they will have to deal with more 
bins, they will have to deal with more objects. So you will 
have to strengthen the screening training of the screeners at 
the X-ray machine to take a look at this new range of 
nonmetallic objects that are there. So I think there are a 
number of factors that you have to think about on how the 
overall screening system operates.
    Ms. Jackson Lee. Do you think the Department has been 
successful in its outreach to foreign airports and airlines 
since Christmas day? Do you have any suggestions for 
improvement?
    Mr. Dunlap. Yes, Madam Chairwoman, we certainly do. One of 
the things that we can say is we understand that a Government 
needs to have a strong reaction whenever a terrible incident 
like this happens. But what we really believe is that the best 
response is one that is preplanned with the stakeholders well 
in advance so that you have playbooks to rely on, so you have 
coordination in place, so that when that incident happens, you 
have an effective response and an efficient response.
    If there is a criticism that can be made of the response to 
December 25, it is that speed won out over efficiency and 
effectiveness. What we would ask the Department to do and what 
we would ask this committee to do is ask for 360 review of all 
those measures that have been implemented since Christmas and 
find out what is needless duplication and what are those that 
need to be enhanced, so we don't find ourselves in a position 
where regulations that are made in the heat of battle wind up 
becoming National policy, because we think those are the worst 
security regulations that we can have.
    Ms. Jackson Lee. Mr. Barclay, what are your comments on 
what Mr. Dunlap has said? But more particularly, you expressed 
concerns about the cost of the modifications, terminal 
modifications to accommodate the AIT machine. That may be 
perceived as a cost of doing business. How much of that do you 
think the airport should bear and what is your assessment about 
the comments of, if you will, convenience to a certain extent 
or accommodation that Mr. Dunlap has said about the AIT 
machines?
    Mr. Barclay. Well, on addressing Mr. Dunlap's comments, I 
think all of the criticisms you hear have merit to them. 
Airport executives look on AIT as one new, enhanced, useful 
tool as part of the whole screening process that we need 
keeping passengers safe. So we agree with the fundamental 
decision to go to more deployment of the AIT.
    On the costs of the terminals themselves, currently, what 
we think we are hearing is that, well, we don't have any of 
that in the budget, so the airports will have to cover 
everything in terms of the capital costs of terminal 
modifications. At some locations, that will be significant.
    Here at Washington, the people on the committee would 
recognize you might expect the old terminal at National to 
require modification, but according to the director here, even 
the brand-new facility at Dulles looks like, under some 
assumptions, it won't have all the space needed for putting in 
AITs as the primary source for screening.
    So we are talking about very significant costs, and 
airports have shown in the past we are willing. We have spent 
over $4 billion on costs associated with security, but there is 
not a lot of money left in the system to direct to this 
project, or we are going to be pulling away from runway safety 
areas and terminal expansions, meeting capacity and other 
things that are needed.
    Ms. Jackson Lee. So how valuable do you think this new 
technology would be?
    Mr. Barclay. Well, we are relying on the experts. We are 
not the technical experts in these systems, and we are relying 
on them and their valuation that this is a useful new tool. Our 
members are treating it like that, that they would like to see 
it in their airports as one of the tools used so that we can 
continue to enhance security.
    Ms. Jackson Lee. Do you think there should be a grant 
program for security projects like the FAA programs for 
security, safety in airport terminal projects?
    Mr. Barclay. Yes, we started out the right way on the 
baggage screening installations with--TSA wanted to do letters 
of intent with the airports. These are capital construction 
projects, so they can get paid out over many years covering 
debt service. You don't have to come up with all the money up 
front.
    That program, which did fund that $2 billion of the cost of 
explosive detection systems, was eventually wound down. We have 
got strong support from this committee and Congress, got strong 
support from TSA initially, but people that OMB and higher up 
the food chain kept pushing back against that program, and it 
was simply a budget matter of trading off it against other 
costs.
    Our point is just you can't pretend those costs aren't 
there, because they don't fit in your budget. They are real. 
Somebody is going to have to cover them. Airports believe it 
should be the responsibility of the Department.
    Ms. Jackson Lee. So you are saying that a grant program 
would be something that you would welcome.
    Mr. Barclay. Absolutely, yes.
    Ms. Jackson Lee. Mr. Potts, did your airport, which if 
you--I didn't hear you say what size it is in the scheme of 
National airports, if you would put that into the record for 
me, please. But did you all make any effort to be a pilot 
program for the AIT?
    Terminal modification costs that your airport pays impacts 
the rent. I understand that you charge your airlines. If that 
is correct, you can add that in your response. Should AIT 
installation terminal modifications costs be a cost of doing 
business, meaning that you would pass it on to the airlines, or 
would you expect to have some compensation from the Federal 
Government for reimbursement?
    Mr. Potts. I would, No. 1, for the last question, Madam 
Chairwoman, would like to see that we have some sort of 
reimbursement for the efforts that we would have to do to 
adjust our facilities to take on the new technology to be a 
grant program as we have had, as mentioned. I think that would 
be a fair way of doing it for the airports.
    You will have airports that are large airports that might 
be able to do it but they, too, have to weigh the terminal 
improvement projects. Some of them, if you see one airport, you 
see one airport. All of us are configured in a different 
configuration, and some of these, because the power 
requirements and all of the different sundry things that have 
to go on with addition of new material, we would like to see a 
grant program.
    As far as how big we are, we are still the eighth-largest 
at IAH. We are the fourth-largest airport system in the country 
and the sixth-largest in the world, so we do see a lot of 
international traffic as well, and so we have to consider that 
as we go forward.
    Ms. Jackson Lee. So did you previously seek to be in the 
pilot program for body scanning AIT technology?
    Mr. Potts. Yes, ma'am. We were at the front end of the test 
case. We had it for about 60 days, and then they take the 
machines out, and they were gone.
    Ms. Jackson Lee. That was--you were testing, that was the 
end of it.
    Mr. Potts. Yes, ma'am.
    Ms. Jackson Lee. Which we need to beg the question as to 
why we have these kinds of fleeting and temporary efforts, and 
then we don't come back, return, answer any questions, say what 
is going to happen.
    The other point, however, I think, to both Mr. Barclay and 
Colonel Potts, I know that vast numbers of airports were 
obviously built before 9/11, and we understand that, though 
CIP, capital improvement projects, in cities sort of on-going 
since that time.
    I would just offer to say to you--Mr. Barclay, you might 
want to comment--airports have to have vision, too. We live in 
another world after 9/11, and it is not always the Federal 
Government that should take the brunt of non-visioning about 
what you may prospectively have to do as it relates to 
security.
    I do think it is worthy of looking at a construct that is a 
match or a grant program, which I am going to be talking to 
staff on how we could advocate for that. But airports need to 
envision, too, and take some of the responsibility for spacing 
that would be required for new technology.
    Mr. Barclay. Yes, ma'am. That is why I mentioned that 
airports have spent billions on the improvements to security 
already and we will continue to do that, but we appreciate any 
consideration on a program that sees that this is a shared 
responsibility, the Federal Government and local government.
    Ms. Jackson Lee. Well, I would hope and I appreciate what 
you are saying, that we could be partners. I think that would 
be the best format going forward. We learn from you, and you 
learn from us, and we hopefully will be able to be constructive 
in providing security for those airports.
    Let me finish by asking Mr. Rotenberg, are you wanting to 
ban all forms of equipment that require scanning?
    Mr. Rotenberg. Not at all, Madam Chairwoman. In fact, we 
have made a number of recommendations to promote the use of new 
techniques that can help detect, for example, explosive 
materials that might not otherwise be located.
    Our concern about body scanners is that they are uniquely 
intrusive among all of the various airport security techniques. 
That is the reason for the focus on this particular technology. 
We have looked closely at the privacy safeguards, because the 
vendors have said that the privacy concerns have been addressed 
through the blurring of images and other techniques, and we 
wanted to evaluate those claims.
    We concluded that if it was possible to store the raw 
images or disable the filters, that in fact the privacy 
safeguards weren't adequate. So if those problems can be 
solved, I think there are scenarios under which the scanning 
technologies could be used.
    Ms. Jackson Lee. Well, I think your input is constructive. 
I am sure that we are going to take a look at your analysis and 
ask some more probing questions on this issue. I think your 
testimony is very helpful to us today.
    With that, let me recognize the Ranking Member, Mr. Dent.
    Mr. Dent. Thank you, Madam Chairwoman.
    Thanks to all of you for being part of this panel this 
afternoon. Thank you for waiting for us.
    My question is to Mr. Miller. You know, TSA has spent 4 
years examining this advanced imaging technology. I understand 
the science behind this technology is decades old. While these 
new technologies like your ecosystems bring state-of-the-art 
applications to that science, the threat it addresses is not a 
new threat.
    Is the Department of Homeland Security as a whole, 
including those agencies represented in our first panel, 
dedicating sufficient resources to explore new and emerging 
technologies to address these well-documented threats?
    Mr. Miller. Thanks for the question. Our observation is 
that the trend is very good in terms of how they are addressing 
and how they are prioritizing different technologies, so that 
that answer is yes, we think that they are looking at an awful 
lot of things.
    They are somewhat under-resourced--we are living in an 
under-resourced world--in many areas, and so by and large they 
are trending in the right way by looking at an awful lot of new 
technologies, experimental technologies, but they can only do 
so much with the laboratory systems and the like that they have 
available to them now.
    Mr. Dent. How has TSA or S&T communicated the current 
threat environment to you?
    Mr. Miller. I mean, that is an area for improvement, I 
would think, overall. But again, the level of communication 
with industry and between Science and Technology or TSA or the 
other components of DHS has been better considerably over the 
past couple of years. There is a better level of communication 
not only on the threats, but what their plans are and how they 
would like to see technology development.
    Mr. Dent. So would you say they are, then, exploring new 
and emergent technologies?
    Mr. Miller. They are.
    Mr. Dent. Okay. To what extent has TSA and/or the S&T 
Directorate had conversations with Smiths, addressing the 
threats associated with weapons concealed in body cavities?
    Mr. Miller. The conversation started some months ago, 
actually, about what the available--in our view, and I am 
certain that they asked other industry participants--what was 
available to try and address that particular threat area. We 
have had conversations with them. We have meaningful 
conversations, and they are looking at the efficacy and the 
direction of things that might be available here and now and 
what might be available in the coming few years.
    Mr. Dent. Thank you.
    I would like to move to Mr. Laskey right now. Your company 
is probably one of the smallest companies trying to navigate 
this very complex, convoluted, complicated process between TSA 
and the S&T Directorate. I understand that in 2008 you went to 
TSA and asked if they would consider your passive millimeter 
wave technology, and they wouldn't consider it.
    The acting administrator for acquisitions wrote you and 
said that since you did not support your tactical data in July 
2006, you would be excluded from the process until they 
reopened a new solicitation.
    Mr. Laskey, are you familiar, I should say, with Moore's 
Law, which in general states, computing speed doubles every 2 
years?
    Mr. Laskey. Yes, sir I am familiar with the law, and I will 
tell you that from my own experience and I think the experience 
of our company, that is not necessarily the case. Technology 
continues to evolve. There is a process, a continuous process 
improvement. As we develop new technologies, we implement them 
into our systems and into solving the problems that we have to 
solve.
    You know, the threat environment has continued to evolve 
and change, and as we are closing one door, there is another 
door that is opening. So you have to continue to evolve your 
technology to solve these problems.
    Mr. Dent. In the 2 years from your original solicitation 
for data in 2006 to your product's development in 2008, were 
new and different technologies developed that might have 
improved passenger screening capabilities?
    Mr. Laskey. You know, I wouldn't say new. I would say 
evolving. We have continued to improve the algorithms, 
probabilities of detection, the elimination of false alarms, 
and the way that we package our solutions to meet the needs of 
the customers.
    Mr. Dent. Finally, and in your opinion, how might the 
solicitation process be improved? Do you believe that 
solicitation should be kept open so that emerging, promising 
technologies could be considered instead of technologies that 
are, as of now, about 4 years old?
    Mr. Laskey. Right. Well, certainly, sir, you know, an open 
process would be very, very preferable. I do agree with Mr. 
Miller that the process over the last couple of years has 
gotten much more visibility in terms of the long-term plan and 
some of the short-term plans. But certainly, you know, having 
the ability to test vendors in a parallel fashion so that there 
is an equal opportunity would very much be preferable. Then 
have the door open for new and young and emerging companies to 
join that process would be much more preferable.
    Mr. Dent. Finally, you mentioned that there were snags in 
the process to getting your technology certified for possible 
inclusion on the qualified products list. Can you please give 
us an example of what some of those snags were and how they 
affected you as a small business?
    Mr. Laskey. I can think of one most particularly, and that 
had to do with the requirement for the floor space, the square 
footage requirements for this AIT solution. When we answered 
our solicitation, our technical data package, we believed that 
we met the specification and indeed, we did meet the 
specification in terms of the square footage requirement, but 
come to find out that the shape of our floor plan was more 
rectangular, and TSA was looking for a more square 
implementation, so it has to go back and re-craft our solution 
set to meet that specification.
    You know, frankly, for a small company, that was, you know, 
fairly insignificant expenditure. So had the specification, you 
know, called out that specific requirement, I think we would 
have been able to do it a lot better on the first try around.
    Mr. Dent. Mr. Miller, has Smiths had similar experiences?
    Mr. Miller. Indeed. You know, an area of improvement which, 
again, has gotten better. The trend is okay, but is to get in 
front of the data requirements and so forth before they travel 
on to the acquisition process. Have industry, large and small, 
have more open conversations with what they are really seeking 
earlier on in the process would be a marked improvement.
    Mr. Dent. Thank you.
    I yield back. Thank you, Madam Chairwoman.
    Ms. Jackson Lee. Thank you very much, Mr. Dent.
    Let me just finish with Mr. Laskey, see if I understood Mr. 
Dent's question to you.
    One of your concerns as a small or a large entrepreneur is 
the safety of your proprietary information as you would submit 
it to the Federal Government. Therefore, are you asking that 
everyone who is interested be in the same pool and are assessed 
at the same time?
    Mr. Laskey. Well, I think certainly, you know, you always 
have to have cutoffs. I think that there, you know, there is a 
process by which you are going to have testing and 
certification for a particular product like the AIT. To the 
extent that manufacturers are ready, willing, and able to sit 
together to define their answers to the specific requirements, 
they should be tested together so that their certifications 
will come out together and therefore, you know, inadvertently 
give somebody an unfair competitive advantage by having that, 
you know, seal of approval by the TSA before others might have 
that opportunity.
    Ms. Jackson Lee. Let me thank you. We would welcome an 
expansion of your testimony to brief that particular point as 
it relates to small businesses and of our emphasis that we are 
interested in expanding the opportunities for inventiveness in 
technology.
    Mr. Barclay, if I could, do you think it is important in 
airports, the vast types of airports across America, the 
international travel, that a technology is there that is able 
to detect the types of explosives and plastics that were 
represented to have been utilized or allegedly tried to be 
utilized by the Christmas day bomber?
    Mr. Barclay. Our members do. To ignore that threat at this 
point would just be foolish. Also, to spend all the kingdom's 
gold on only that threat would be foolish as well. So taking a 
smart approach to utilizing the technology and putting it in in 
a discreet fashion is one we agree with. We think the leaders 
at TSA and DHS are trying to do that.
    Ms. Jackson Lee. Is there any comment, Colonel Potts, that 
you want to make on the importance of equipment that may be 
utilized for the unknown future or the alleged tactics that the 
Christmas day bomber was trying to use?
    Mr. Potts. We use a layered approach, and all technologies 
that can help us reduce the amount of risk that we are subject 
to in this current environment would be helpful to help us do 
our job every day.
    Ms. Jackson Lee. Mr. Rotenberg, how do you think we can 
strike a balance between the necessity of screening for 
explosives and privacy?
    Mr. Rotenberg. Well, Madam Chairwoman, I said in my 
statement that obviously techniques that are most effective in 
detecting threats are the most valuable, and techniques that 
are most intrusive are of the greatest concern. I think we have 
had the experience in developing technologies that don't 
require us to trade off. I think that is where we get into 
trouble. To simply say to passengers, if you give up a lot of 
privacy, that will make you safer, with a technology that it in 
fact is not more effective is not a good deal.
    So we think techniques that focus in particular on threats 
and, as other witnesses have said, a multi-layered approach 
that involves human observation, baggage screening is the best 
approach.
    Ms. Jackson Lee. I don't know if we will completely agree 
with the totality of your testimony, but I will assure you that 
it will be a constructive element of our analysis on the 
utilization of these machines and also the points that were 
made by witnesses on the funding of technology that airports 
need. I think that is extremely important.
    I am going to end with Mr. Barclay on the point of training 
with TSO officers. I know that there is an integration between 
airport staff and TSO officers. They have to work together. Do 
you believe enhanced professional training will make their jobs 
and their productiveness better and add to the collaboration 
between airports and the TSA?
    Mr. Barclay. Absolutely. We find that with airport 
employees, investments in training just create great payback in 
terms of being able to do things, frankly, with fewer staff, 
but also with people who enjoy their jobs more. They do better 
jobs. Training is one of those things you can always get better 
at, and TSA, I think, believes that. But we can keep pushing 
them to do even better.
    Ms. Jackson Lee. Well, I would encourage you to be an 
advocate for H.R. 2200, which you realize that we passed out of 
this Congress, this House, and is waiting for approval in the 
Senate, that has a very large component of training that I 
think will be very helpful in the Nation's security.
    Before I gavel this hearing down to a close and express my 
appreciation to the witnesses, since we are in a Homeland 
Security hearing, allow me to introduce and have him stand 
along with his members, Jeff Caynon, who is president of Local 
341 Firefighters from Houston, Texas. If all of them would 
stand, be reflected on the record that there are four members 
from the Houston firefighters and that we are very grateful for 
the service of firefighters both in Houston and in Texas and 
around the Nation.
    [Applause.]
    Ms. Jackson Lee. I want to thank the witnesses for their 
testimony and for the opportunity that you have given us to be 
able to review some very important points that have been made. 
Again, this effort, the war on terror, but more importantly, 
securing America is a team effort, and each of you are very 
much a part of it. This hearing will show that in its 
assessment and how we move forward in providing more security 
for the American people.
    With that and the acknowledgment that there may be 
additional questions by a variety of Members, we would ask that 
the witnesses would respond to them expeditiously in writing. 
There were several requests that we made in writing. Our 
staff--made orally, excuse me--our staff will follow up so that 
you can present them in writing, both the first panel and the 
second panel.
    As I indicated, today's conversation has helped to bring 
all of the relevant stakeholders together, and I hope that this 
energy can be harnessed so the security of our airports can be 
upgraded successfully and efficiently. We want to ask the hard 
questions, but we also want them answered quickly so we can 
again serve the American people.
    Hearing no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 5:47 p.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
